No. _________

In the Supreme Court of the United States
--------------------------------LONNY E. BALEY, ET AL.,
Petitioners,
v.
UNITED STATES, PACIFIC COAST
FEDERATION OF FISHERMEN’S ASSOCIATIONS,
Respondents.
--------------------------------On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Federal Circuit
--------------------------------PETITION FOR A WRIT OF CERTIORARI
APPENDIX – VOLUME 1
--------------------------------TIMOTHY S. BISHOP, ESQ.
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
tbishop@mayerbrown.com

PAUL S. SIMMONS, ESQ.
Counsel of Record
RICHARD S. DEITCHMAN, ESQ.
Somach Simmons & Dunn
500 Capital Mall, Suite 1000
Sacramento, CA 95814
(916) 449-7979
psimmons@somachlaw.com
rdeitchman@somachlaw.com

Counsel for Petitioners

App. 1
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

LONNY E. BALEY, ET AL., JOHN ANDERSON
FARMS, INC., ET AL.,
Plaintiffs-Appellants
v.
UNITED STATES, PACIFIC COAST FEDERATION OF FISHERMEN’S ASSOCIATIONS,
Defendants-Appellees
-----------------------------------------------------------------------

2018-1323, 2018-1325
-----------------------------------------------------------------------

Appeals from the United States Court of Federal
Claims in Nos. 1:01-cv-00591-MBH, 1:07-cv-00194-MBH,
1:07-cv-19401-MBH, 1:07-cv-19402-MBH, 1:07-cv-19403MBH, 1:07-cv-19404-MBH, 1:07-cv-19405-MBH, 1:07cv-19406-MBH, 1:07-cv-19407-MBH, 1:07-cv-19408-MBH,
1:07-cv-19409-MBH, 1:07-cv-19410-MBH, 1:07-cv-19411MBH, 1:07-cv-19412-MBH, 1:07-cv-19413-MBH, 1:07cv-19414-MBH, 1:07-cv-19415-MBH, 1:07-cv-19416-MBH,
1:07-cv-19417-MBH, 1:07-cv-19418-MBH, 1:07-cv-19419MBH, 1:07-cv-19420-MBH, Senior Judge Marian Blank
Horn.
-----------------------------------------------------------------------

Decided: November 14, 2019
-----------------------------------------------------------------------

ROGER J. MARZULLA, Marzulla Law, LLC, Washington, DC, argued for plaintiffs-appellants Lonny E. Baley,
Mark R. Trotman, Baley Trotman Farms, James L.

App. 2
Moore, Cheryl L. Moore, Daniel G. Chin, Deloris D.
Chin, Wong Potatoes, Inc., Michael J. Byrne, Byrne
Brothers, John Anderson Farms, Inc., Buckingham
Family Trust, Eileen Buckingham, Keith Buckingham,
Shelly Buckingham, Constance Frank, John Frank,
Hill Land and Cattle Co., Inc., Jeff Hunter, Sandra
Hunter, McVay Farms, Inc., Barbara McVay, Matthew
K. McVay, Michael McVay, Ronald McVay, Suzan
McVay, Tatiana V. McVay, Henry O’Keeffe, Patricia
O’Keeffe, Shasta View Produce, Inc., Edwin Stastny,
Jr., All Plaintiffs. Also represented by NANCIE GAIL
MARZULLA. Plaintiffs-appellants John Anderson Farms,
Inc., Buckingham Family Trust, Eileen Buckingham,
Keith Buckingham, Shelly Buckingham, Constance
Frank, John Frank, Hill Land and Cattle Co., Inc., Jeff
Hunter, Sandra Hunter, McVay Farms, Inc., Barbara
McVay, Matthew K. McVay, Michael McVay, Ronald
McVay, Suzan McVay, Tatiana V. McVay, Henry
O’Keeffe, Patricia O’Keeffe, Shasta View Produce, Inc.,
Edwin Stastny, Jr. also represented by ALAN IRVING
SALTMAN, Smith, Currie & Hancock LLP, Washington,
DC.
JOHN LUTHER SMELTZER, Environment and Natural
Resources Division, United States Department of Justice, Washington, DC, argued for defendant-appellee
United States. Also represented by ELIZABETH ANN
PETERSON, ERIC GRANT, JEFFREY H. WOOD.
TODD D. TRUE, Earthjustice, Seattle, WA, argued
for defendant-appellee Pacific Coast Federation of
Fishermen’s Associations. Also represented by STEPHANIE
KATHLEEN TSOSIE.

App. 3
CHARLES T. DUMARS, Law & Resource Planning
Associates, PC, Albuquerque, NM, argued for amicus
curiae The Middle Rio Grande Conservancy District.
Also represented by TANYA L. SCOTT; LORNA M. WIGGINS,
Wiggins, Williams & Wiggins, PC, Albuquerque, NM.
CRAIG A. PARTON, Price, Postel & Parma LLP,
Santa Barbara, CA, for amici curiae City of Fresno,
Arvin-Edison Water Storage District, Chowchilla Water
District, Delano-Earlimart Irrigation District, Exeter
Irrigation District, Ivanhoe Irrigation District, Lindmore Irrigation District, Lindsay-Strathmore Irrigation District, Lower Tule River Irrigation District,
Orange Cove Irrigation District, Porterville Irrigation
District, Saucelito Irrigation District, Shafter-Wasco
Irrigation District, Southern San Joaquin Municipal
Utility District, Stone Corral Irrigation District, Terra
Bella Irrigation District, Tulare Irrigation District,
Kern Tulare Water District, Kaweah Delta Water Conservation District, Tea Pot Dome Water District,
Fresno Irrigation District, Friant Water Authority.
DANIEL LUCAS, Office of the Attorney General,
California Department of Justice, Los Angeles, CA,
for amicus curiae California State Water Resources
Control Board. Also represented by XAVIER BECERRA,
ROBERT W. BYRNE, ERIC M. KATZ, MELINDA PILLING,
San Francisco, CA; JOSHUA A. KLEIN, Oakland, CA.
JAMES HUFFMAN, Portland, OR, for amici curiae
Family Farm Alliance, National Water Resources Association.

App. 4
DAVID E. FILIPPI, Stoel Rives LLP, Portland, OR,
for amicus curiae Oregon Water Resources Congress.
Also represented by KIRK BENNY MAAG; STEVEN L.
SHROPSHIRE, Jordan Ramis PC, Bend, OR.
DOUGLAS W. MACDOUGAL, Marten Law PLLC, Portland, OR, for amici curiae Oregon Farm Bureau Federation, California Farm Bureau Federation, Idaho Farm
Bureau Federation, New Mexico Farm and Livestock
Bureau, Colorado Farm Bureau, Nevada Farm Bureau,
Utah Farm Bureau Federation, Wyoming Farm Bureau Federation. Also represented by SARAH ELIZABETH
PETERSON, Coblentz Patch Duffy & Bass LLP, San
Francisco, CA.
DAVID R.E. ALADJEM, Downey Brand LLP, Sacramento, CA, for amicus curiae Association of California
Water Agencies. Also represented by SAMUEL BIVINS,
AVALON J. FITZGERALD, MEREDITH E. NIKKEL.
DENISE FJORDBECK, Oregon Department of Justice,
Salem, OR, for amicus curiae State of Oregon. Also
represented by BENJAMIN N. GUTMAN, ELLEN F. ROSENBLUM.
ROBERT T. ANDERSON, University of Washington
School of Law, for amici curiae Robert T. Anderson,
Reed D. Benson, Michael C. Blumm, Barbara Cosens,
Sarah Krakoff, John D. Leshy, Monte Mills, Joseph
William Singer, A. Dan Tarlock, Charles F. Wilkinson,
Jeanette Wolfley. Amici curiae Michael C. Blumm, John
D. Leshy, also represented by DAVID R. OWEN, Hastings
College of Law, University of California, San Francisco,
CA,

App. 5
DAVID R. OWEN, Hastings College of Law, University of California, San Francisco, CA, for amici curiae
Robert Abrams, Craig Anthony Arnold, Karrigan Bork,
Lee P. Breckenridge, Michelle Bryan, Robin K. Craig,
Daniel A. Farber, Richard M. Frank, Eric Freyfogle,
Robert L. Glicksman, Sean B. Hecht, Oliver A. Houck,
Blake Hudson, Christine A. Klein, Rhett Larson,
Timothy M. Mulvaney, David R. Owen, Patrick
Parenteau, Justin Pidot, Antonio Rossmann, J.B. Ruhl,
Erin Ryan, Mark Squillace, David Takacs, Gerald
Torres, Sandra Zellmer, Michael Pappas.
SUSAN Y. NOE, Native American Rights Fund,
Boulder, CO, for amicus curiae Klamath Tribes.
THOMAS PAUL SCHLOSSER, Morisset Schlosser
Jozwiak & Somerville, Seattle, WA, for amicus curiae
Hoopa Valley Tribe. Also represented by THANE D.
SOMERVILLE.
JOHN ECHEVERRIA, Vermont Law School, South
Royalton, VT, for amicus curiae Natural Resources
Defense Council.
AMY CHRISTINE CORDALIS, Yurok Tribe, Klamath,
CA, for amicus curiae Yurok Tribe.
-----------------------------------------------------------------------

Before NEWMAN, SCHALL, and CHEN, Circuit Judges.
SCHALL, Circuit Judge.

App. 6
INTRODUCTION

AND

DECISION

This case arises out of the Klamath River Basin
reclamation project (“the Klamath Project” or “the Project”). The Project straddles the southern Oregon and
northern California borders. Key features of the Project are Upper Klamath Lake in Oregon, where water
is stored for the Project, and the Klamath River. The
Klamath River rises at the south end of Upper Klamath Lake and flows from Oregon into California. The
river eventually enters the Pacific Ocean near Klamath, California. The Project supplies water to hundreds of farms, comprising approximately 200,000
acres of agricultural land. The Project is managed and
operated by the United States Department of the Interior’s Bureau of Reclamation (“the Bureau of Reclamation” or “the Bureau”). The Bureau of Reclamation also
manages the Klamath Project to protect the tribal
trust resources of several Native American Tribes.
In 2001, the Bureau temporarily halted water deliveries to farmers and irrigation districts served by
the Project. It took this action in order to meet the requirements of the Endangered Species Act, 16 U.S.C.
§ 1531 et seq. (2000) (“the ESA”), as outlined in Biological Opinions from the United States Fish and Wildlife
Service (“the FWS”) and the United States National
Marine Fisheries Service (“the NMFS”). It also took
this action in order to meet its tribal trust obligations.
In October of 2001, fourteen irrigation organizations and thirteen individual farmers filed suit in the
United States Court of Federal Claims in Klamath

App. 7
Irrigation District v. United States, No. 1:01-cv-00591.
In their second amended complaint, filed on January
31, 2005, the plaintiffs alleged that the Bureau of Reclamation’s action in temporarily halting their water
deliveries in 2001 constituted a taking of their water
rights without just compensation, in violation of the
Fifth Amendment to the United States Constitution.
They also alleged that the Bureau’s action impaired
their water rights under the Klamath River Basin
Compact (“the Klamath Compact” or “the Compact”).1
The plaintiffs further alleged that the Bureau’s action
breached certain water delivery contracts they had
with the Bureau. The Court of Federal Claims exercised jurisdiction pursuant to 28 U.S.C. § 1491(a)(1).2
1

The Klamath Compact is a congressionally-approved interstate compact between California and Oregon. See 71 Stat. 497–
508 (1957). The Compact’s purposes are to “facilitate and promote
the orderly, integrated, and comprehensive development, use,
conservation, and control [of the water resources of the Klamath
River Basin] for various purposes” and to “further intergovernmental cooperation and comity with respect to these resources
and programs for their use and development and to remove
causes of present and future controversies.” Id. at 497. Section
XIII of the Compact states that “[t]he United States shall not,
without payment of just compensation, impair any rights to the
use of water for [domestic or irrigation purposes] within the Upper Klamath River Basin.” Id. at 507. However, this obligation is
limited to rights acquired after the effective date of the Compact.
Id. With respect to the rights of Native American tribes, Article X
of the Compact states: “Nothing in this compact shall be deemed
. . . [t]o deprive any individual Indian, tribe, band or community
of Indians of any rights, privileges, or immunities afforded under
Federal treaty, agreement or statute.” Id. at 505.
2
On February 28, 2005, the Court of Federal Claims granted
the motion of the Pacific Coast Federation of Fishermen’s

App. 8
On August 31, 2005, the Court of Federal Claims
granted the government summary judgment on the
plaintiffs’ taking and Klamath Compact claims. See
generally Klamath Irrigation Dist. v. United States, 67
Fed. Cl. 504 (2005). Thereafter, on March 16, 2007, the
court also granted the government summary judgment
on the plaintiffs’ breach of contract claims. See generally Klamath Irrigation Dist. v. United States, 75 Fed.
Cl. 677 (2007).3 Based upon these two summary judgment decisions, the court entered judgment dismissing
the plaintiffs’ taking claims, their claims arising under
the Compact, and their breach of contract claims. The
plaintiffs appealed to this court.
On July 16, 2008, we issued an order in which we
certified three questions to the Oregon Supreme Court.
The questions related to the plaintiffs’ water rights under Oregon law. See Klamath Irrigation Dist. v. United
States, 532 F.3d 1376 (Fed. Cir. 2008) (“Certification
Order”). We issued the Certification Order pursuant to
a procedure whereby unsettled questions of state law
may be certified to the Oregon Supreme Court. Id. at
1377; see Or. Rev. Stat. §§ 28.200–28.255 (2007).
Associations (“the Federation”) to intervene as a defendant.
Klamath Irrigation Dist. v. United States, 64 Fed. Cl. 328, 331
(2005). The Federation represents approximately 3,000 small
commercial fishing operators who derive income from Pacific
salmon that spawn in the Klamath River Basin. Id.
3
The Federation joined the government’s motion for summary judgment on the breach of contract claims. Notice of Intervenor-Def. Pac. Coast Fed’n of Fishermen’s Ass’ns’ Joinder in
Federal Defs.’ Mot. for Summ. J. on Contract Claims, No. 1:01-cv00591 (Ct. Fed. Claims Feb. 17, 2006), ECF No. 263.

App. 9
Pending action by the Oregon Supreme Court, we withheld decision on all of the plaintiffs’ claims. The Oregon
Supreme Court accepted the case for certification,
Klamath Irrigation Dist. v. United States, 202 P.3d 159,
165 (Or. 2009), and on March 11, 2010, the court rendered its decision answering our certified questions.
See Klamath Irrigation Dist. v. United States, 227 P.3d
1145 (Or. 2010) (en banc) (“Certification Decision”). Following receipt of the Certification Decision, we vacated
the judgment of the Court of Federal Claims and remanded the case to the court for further proceedings.
See Klamath Irrigation Dist. v. United States, 635 F.3d
505, 522 (Fed. Cir. 2011) (“Remand Decision”).
Following our decision and remand, the Court of
Federal Claims entered several orders relevant to the
Klamath Irrigation District case. It also entered several orders relevant to a related case filed by individual
water user plaintiffs, John Anderson Farms, et al. v.
United States, No. 1:07-cv-00194. First, in an order
dated November 22, 2013, the court dismissed the
breach of contract claims of three of the Klamath Irrigation District plaintiffs for lack of jurisdiction. Klamath
Irrigation Dist. v. United States, 113 Fed. Cl. 688, 718
(2013). Thereafter, on June 3, 2014, the court granted
the remaining Klamath Irrigation District plaintiffs’
motion to voluntarily dismiss all their pending breach
of contract claims. No. 1:01-cv-00591, ECF No. 343.
Similarly, on March 13, 2014, the court granted a motion by the plaintiffs in John Anderson Farms to voluntarily dismiss their breach of contract claims. No.
1:07-cv-00194, ECF No. 65. Next, on January 12, 2016,

App. 10
the court issued an order consolidating the Klamath
Irrigation District and John Anderson Farms cases.
Subsequently, the parties filed cross-motions in limine
on the question of whether the plaintiffs’ taking claims
should be analyzed as potential physical or regulatory
takings. The plaintiffs urged a physical takings approach. On December 21, 2016, the court issued an
opinion ruling in favor of the plaintiffs. Klamath Irrigation Dist. v. United States, 129 Fed. Cl. 722 (2016).
In its opinion, the court held that “the government’s
actions in the present cases ‘should be analyzed under the physical takings rubric.’ ” Id. at 737 (quoting
Casitas Mun. Water Dist. v. United States, 543 F.3d
1276, 1296 (Fed. Cir. 2008)). The court’s rulings left
for trial the plaintiffs’ claims that the Bureau of Reclamation’s action in 2001 constituted a taking and/or a
violation of the Klamath Compact.
Finally, at a pretrial conference on January 10,
2017, the court granted a motion for class certification.
The certified class included, as opt-in plaintiffs, all persons who owned or leased land within, or who received
water from, the fourteen plaintiff irrigation organizations and who claimed an appurtenant right to Project
water4 and alleged a Fifth Amendment taking and an
impairment of their rights under the Compact.

4

In the context of real property, something is “appurtenant”
to land “when it is by right used with the land for its benefit.”
Appurtenant, Black’s Law Dictionary (6th ed. 1990); see also Appurtenant, Black’s Law Dictionary (11th ed. 2019) (defining appurtenant as “[a]nnexed to a more important thing”).

App. 11
The Court of Federal Claims held a ten-day trial
commencing on January 30, 2017. Following the trial
and posttrial briefing, all the irrigation organization
plaintiffs moved to voluntarily dismiss their claims.
The court granted the motion, which left as plaintiffs
the surviving individual farmers and the class action
opt-in plaintiffs. This resulted in the recaptioning of
the consolidated case to Lonny Baley, et al. v. United
States. Thereafter, on September 29, 2017, the court issued its final decision in the case. Baley v. United
States, 134 Fed. Cl. 619 (2017) (“Baley”). In its decision,
before addressing the plaintiffs’ taking and Compact
claims, the court made several rulings. Three of those
rulings disposed of the claims of various plaintiffs.
First, the court dismissed the claims of any plaintiffs
deriving water rights from the Van Brimmer Ditch
Company. Id. at 645–52.5 Second, the court barred the
5

The Van Brimmer Ditch Company is not an irrigation district, but an Oregon business corporation that delivers irrigation
water to landowners. Baley, 134 Fed. Cl. at 632. The company
traces its history to the 1880s, when its founders began drawing
water from White Lake. Id. White Lake was associated with
Lower Klamath Lake, which is along the border between Oregon
and California. See id. The subsequent creation of the Klamath
Project resulted in the draining of White Lake and Lower Klamath
Lake (which is now a National Wildlife Refuge). Id.; see also
U.S. DEP’T OF THE INTERIOR, Ground-Water Hydrology of the
Upper Klamath Basin, Oregon and California at 1–2, 6 (2010),
https://pubs.usgs.gov/sir/2007/5050/. On November 6, 1909, the
Van Brimmer Ditch Company contracted with the United States
to receive water from Upper Klamath Lake. Baley, 134 Fed. Cl. at
632. In its contract, the Van Brimmer Ditch Company agreed to
“waive[ ] and renounce[ ] . . . any and all of its riparian rights, in
relation to the waters and shores of Lower Klamath Lake.” Id. In
exchange, the United States agreed to “deliver to the Company

App. 12
claims of certain of the plaintiffs who receive water under what are called “Warren Act Contracts.” Id. at 656–
59.6 And third, the court ruled that plaintiffs who
receive their water through leases for lands in the National Wildlife Refuges that are located within the
Klamath Project were barred from recovering damages
from the government based upon the denial of water
because of certain provisions in their leases. Id. at 659.
The court turned finally to the taking and Compact
claims of the remaining plaintiffs. After examining the
during each and every irrigation season . . . a quantity of water,
not to exceed fifty second feet.” Id. Named plaintiffs James and
Cheryl Moore are landowner-shareholders in the Van Brimmer
Ditch Company. In 2001, they owned 135 shares of stock in the
company, each of which corresponded to one acre of irrigable land,
with an appurtenant right to receive irrigation water from the
company. Id.
6
These irrigation contracts were made pursuant to the Warren Act of 1911, Pub. L. No. 61-406, 36 Stat. 925 (codified at 43
U.S.C. §§ 523–25 (2012)). Baley, 134 Fed. Cl. at 630. They are between the United States on the one hand, and individual water
users and irrigation districts on the other. Id. The contracts cover
lands that were not part of the Klamath Project when it was originally developed and contain language stating that water rights
acquired under the contracts are inferior to prior rights reserved
for the lands of the Klamath Project. Id. The Warren Act contracts
also include language immunizing the United States from liability in the event of water shortages, although this language takes
two different forms. Id. at 631. The contracts with individuals and
certain irrigation districts include language limiting the United
States’ liability for shortages caused by droughts or “other cause.”
Id. at 631–32. Contracts with other irrigation districts do not include the “other cause” language. Id. at 631. The Court of Federal
Claims held that the claims of plaintiffs whose Warren Act contracts included the “other cause” language were barred. Id. at
658–59.

App. 13
facts and what it viewed to be the pertinent law, the
court held that Klamath Project operations in 2001 did
not result in takings or violate the plaintiffs’ rights under the Compact because the waters retained in Upper
Klamath Lake and the waters in the Klamath River
were within the scope of federal reserved water rights
for tribal fishing that were senior in priority to the
plaintiffs’ water rights. Baley, 134 Fed. Cl. at 659–80.
Following the entry of judgment in favor of the
government on October 24, 2017, the plaintiffs timely
appealed. We have jurisdiction pursuant to 28 U.S.C.
§ 1295(a)(3). For the reasons set forth below, we now
affirm the judgment of the Court of Federal Claims.
BACKGROUND
I.

The Klamath Project

The Reclamation Act of 1902, Pub. L. No. 57-161,
32 Stat. 388 (codified, as amended, at 43 U.S.C. § 371
et seq.) (“the Reclamation Act” or “the Act”) “laid the
groundwork for a vast and ambitious federal program
to irrigate the arid lands of the western states.” Grant
Cty. Black Sands Irrigation Dist. v. U.S. Bureau of Reclamation, 579 F.3d 1345, 1351 (Fed. Cir. 2009).7 Section
8 of the Reclamation Act requires the Secretary of the
Interior to comply with state law regarding the appropriation of water for irrigation, to the extent such law
7

Prior to passage of the Reclamation Act, at least part of the
Klamath Basin was not arid land, but wetlands or marshes that
were subsequently drained and converted to farmland pursuant
to the Klamath Project.

App. 14
is not inconsistent with federal law. Baley, 134 Fed. Cl.
at 626 (citing 43 U.S.C. § 383).
Relevant to this case, both Oregon and California
follow the doctrine of prior appropriation of water
rights. See Baley, 134 Fed. Cl. at 669 (citing Irwin v.
Phillips, 5 Cal. 140, 143 (1855) (California); Teel Irrigation Dist. v. Water Res. Dep’t of Or., 919 P.2d 1172,
1174 (Or. 1996) (Oregon)). Under the prior appropriation doctrine, “diversion and application of water to a
beneficial use constitute an appropriation, and entitle
the appropriator to a continuing right to use the water,
to the extent of the appropriation, but not beyond that
reasonably required and actually used. The appropriator first in time is prior in right over others upon the
same stream.” Arizona v. California, 298 U.S. 558, 565–
66 (1936). “[T]he doctrine provides that rights to water
for irrigation are perfected and enforced in order of
seniority, starting with the first person to divert water
from a natural stream and apply it to a beneficial use
(or to begin such a project, if diligently completed).”
Montana v. Wyoming, 563 U.S. 368, 375–76 (2011) (citing Hinderlider v. La Plata River & Cherry Creek Ditch
Co., 304 U.S. 92, 98 (1938); Arizona v. California, 298
U.S. at 565–66; Wyo. Const., Art. 8, § 3). “Once such a
water right is perfected, it is senior to any later appropriators’ rights and may be fulfilled entirely before
those junior appropriators get any water at all.” Id. at
376.
Subsequent to the passage of the Reclamation Act,
on February 22, 1905, the Oregon legislature enacted
a statute (“1905 Oregon Act”) codifying a procedure to

App. 15
assist the United States in appropriating water for the
irrigation works contemplated by the Act. Remand
Decision, 635 F.3d at 508 (citing Or. Gen. Laws, 1905,
ch. 228, § 2 (repealed 1953) and Or. Gen. Laws, 1905,
ch. 5, §§ 1–2); Baley, 134 Fed. Cl. at 626. Under that
procedure, once an officer of the United States filed in
the office of the State Engineer a written notice that
the United States intended to use certain previously
unappropriated waters, the waters were “deemed to
have been appropriated by the United States,” provided certain deadlines for the filing of plans and construction were met. Baley, 134 Fed. Cl. at 626 (quoting
Or. Gen. Laws, 1905, ch. 228, § 2). In authorizing the
United States to appropriate water for the construction of the Klamath Project irrigation works, “the Oregon legislature authorized the United States to
appropriate state water rights pursuant to the 1905
[Oregon A]ct for the benefit of those persons who the
Reclamation Act contemplated would put water to beneficial use.” Certification Decision, 227 P.3d at 1159; see
also Remand Decision, 635 F.3d at 518 n.8.
On May 17, 1905, the United States Reclamation
Service, the predecessor to the Bureau of Reclamation,
filed a notice with the Oregon State Engineer. The notice set forth plans for proposed works and proof of authorization for the Klamath Project, as required by the
1905 Oregon Act. Baley, 134 Fed. Cl. at 626. The notice
stated that “the United States intends to utilize . . .
[a]ll of the waters of the Klamath Basin in Oregon, constituting the entire drainage basins of the Klamath
River and Lost River, and all of the lakes, streams and

App. 16
rivers supplying water thereto or receiving water
therefrom” for purposes of “the operation of works for
the utilization of water . . . under the provisions of the
. . . Reclamation Act.” Id.8
Under the Klamath Project, water is stored in Upper Klamath Lake by means of the Link River Dam.
Water is diverted from Upper Klamath Lake and locations downstream from the lake on the Klamath River
and conveyed through canals and laterals to individual
users in Oregon and California. Id. As part of this process, water is stored and its flow is controlled using a
series of dams downstream from the Link River Dam,
which is at the south end of Upper Klamath Lake. The
last of these dams on the Klamath River is the Iron
Gate Dam in California. The works that divert water
were constructed by the United States between 1906
and 1966 and are currently owned by the United
States. Id.9 A map of the Klamath River Basin in Oregon and California is provided in the Appendix.

8

Private landowners and irrigation companies had begun to
divert water for irrigation purposes prior to the development of
the Klamath Project; most of those interests were integrated into
the Klamath Project. Baley, 134 Fed. Cl. at 626.
9
The operation and maintenance of all the federally-owned
works downstream of the headgates of Upper Klamath Lake and
the operation and maintenance of works that divert water directly
from the Klamath River have been transferred by contract to the
Klamath Irrigation District and Tulelake Irrigation District,
which distribute water to irrigators. Baley, 134 Fed. Cl. at 626–
27. Similarly, other irrigation districts and individuals have constructed, and own, their own diversion and delivery facilities pursuant to contracts with the United States. Id.

App. 17
Individual plaintiff landowners (or their lessees)
have applied water diverted from the Klamath River
to irrigate crops. Baley, 134 Fed. Cl. at 626. In this
manner, they have put Klamath Project water to beneficial use. As a result, the water became appurtenant
to their land. See Certification Decision, 227 P.3d at
1163, 1169; Remand Decision, 635 F.3d at 518. The
United States “holds the water right that it appropriated pursuant to the 1905 Oregon [A]ct for the use and
benefit of the landowners.” Certification Decision, 227
P.3d at 1163–64; see Remand Decision, 635 F.3d at
518.
In 1975, Oregon began a general adjudication for
the purpose of determining surface water rights in the
Klamath River Drainage Basin (“the Klamath Adjudication” or “the Adjudication”).10 Baley, 134 Fed. Cl. at
635. The Adjudication was undertaken pursuant to
the Oregon Water Rights Act of 1909, Or. Rev. Stat.
§§ 539.005–539.240. See id. The Adjudication covers
pre-1909 state-based water rights not previously adjudicated, as well as federal reserved water rights. Id.
Claims were filed beginning in 1990. Administrative
hearings were initiated in 2001, and on February 28,
2014, the adjudicator issued amended and corrected
versions of previous orders of determination. Those orders are now before Oregon state courts for judicial
confirmation. Id.; see Klamath Basin General Stream
10

An adjudication is a process through which water rights
can be quantified; i.e., quantities of water can be allocated to
holders of rights in a water source. See generally A. Tarlock & J.
Robison, Law of Water Rights and Resources §§ 1.1, 7.2 (2019).

App. 18
Adjudication, Corrected Partial Order of Determination (Feb. 28, 2014), https://www.oregon.gov/OWRD/
programs/WaterRights/Adjudications/KlamathAdj/KBA_
ACFFOD_07017.PDF.
II.

Tribal Fishing Rights

The Klamath Tribes, the Yurok Tribe, and the
Hoopa Valley Tribe of Native Americans (collectively,
the “Tribes”) each hold rights to take fish from water
sources on their reservations. These rights were set
aside for them when their reservations were created,
as discussed in further detail below. The Tribes’ rights
are non-consumptive, meaning that the Tribes are
“not entitled to withdraw water from the stream for
agricultural, industrial, or other consumptive uses.”
United States v. Adair, 723 F.2d 1394, 1411 (9th Cir.
1983). Instead, they hold “the right to prevent other
appropriators from depleting the streams[’] waters below a protected level in any area where the non-consumptive right applies.” Id.
The Klamath Tribes, which include the Klamath
and Moadoc Tribes and the Yahooskin Band of Snake
Indians, constitute a federally-recognized tribe which
has hunted, fished, and foraged in the Klamath Basin
for over a thousand years. Id. at 1397; see Or. Dep’t of
Fish & Wildlife v. Klamath Indian Tribe, 473 U.S. 753,
755 (1985). The basis for the Klamath Tribes’ fishing
rights is an 1864 treaty with the United States, in
which the Klamath Tribes “relinquished [their] aboriginal claim to some 12 million acres of land in return for

App. 19
a reservation of approximately 800,000 acres” of land
that abutted Upper Klamath Lake and included several of its tributaries. Adair, 723 F.2d at 1397–98. In
addition to other rights, the 1864 Treaty guaranteed
the Klamath Tribes “the exclusive right of taking fish
in the streams and lakes, included in said reservation.”
Treaty Between the United States of Am. & the Klamath & Moadoc Tribes & Yahooskin Band of Snake Indians, Art. I, Oct. 14, 1864, 16 Stat. 707 (“the Klamath
Treaty” or “the 1864 Treaty”). In Adair, the Ninth Circuit determined that “one of the ‘very purposes’ of establishing the Klamath [r]eservation was to secure to
the Tribe a continuation of its traditional hunting and
fishing lifestyle.” 723 F.2d at 1408–09.11 The Klamath
Tribes’ water rights “necessarily carry a priority date
of time immemorial. The rights were not created by the
1864 Treaty, rather, the treaty confirmed the continued
existence of these rights.” Adair, 723 F.2d at 1414 (collecting cases).
Until 1887, the Klamath Tribes lived on their reservation under the terms of the 1864 Treaty, holding
the reservation land in communal ownership. Adair,
723 F.2d at 1398. In 1887, Congress passed the General
Allotment Act, 24 Stat. 388. Under the General Allotment Act, approximately 25% of the reservation passed
from tribal to individual Indian ownership. Id. In 1954,
11

The Adair court referred to the “Klamath Tribe,” as opposed to the Klamath Tribes. The parties do not contend that
Adair does not apply to all the Klamath Tribes. See Baley, 134
Fed. Cl. at 633, 670–72; Appellants’ Br. 8, 27, 30, 31; Federation’s
Br. 23; United States’ Br. 22.

App. 20
Congress passed the Klamath Termination Act, 68
Stat. 718 (codified at 25 U.S.C. §§ 564–564w (1976))
(“the Termination Act”), largely terminating the reservation. Id. at 1398, 1411–12. This led a large majority
of tribal members to give up their interests in tribal
property for cash. Id. at 1398. However, § 564m(a) of
the Termination Act provides that “[n]othing in sections 564–564w of this title shall abrogate any water
rights of the tribe and its members,” id. at 1412, and
§ 564m(b) specifies that the Termination Act’s provisions will not “abrogate any fishing rights or privileges
of the tribe or the members thereof enjoyed under Federal treaty,” Oregon Department of Fish & Wildlife, 473
U.S. at 761–62. Courts have subsequently held that the
Klamath Tribes’ hunting, fishing and implied reserved
water rights survived passage of the Termination Act.
See, e.g., Adair, 723 F.2d at 1412; Mattz v. Superior
Court, 758 P.2d 606, 610 (Cal. 1988); Kimball v. Callahan, 590 F.2d 768, 774–75 (9th Cir. 1979); Kimball v.
Callahan, 493 F.2d 564, 568–69 (9th Cir. 1974).
The United States purchased parts of the former
Klamath reservation in 1958 and 1961, in order to establish a migratory bird refuge and in order to provide
for part of the Winema National Forest. Adair, 723 F.2d
at 1398. Thereafter, in 1973, the government condemned
most of the remaining tribal land, which essentially extinguished the original reservation. Id. The Klamath
Tribes were later restored as a federally-recognized
tribe under the Klamath Indian Tribe Restoration Act
of 1986. Pub. L. No. 99-398, 100 Stat. 849.

App. 21
The rights of the Yurok and Hoopa Valley Tribes,
both located in California, were secured by three presidential Executive Orders, issued in 1855, 1876, and
1891. The rights were confirmed by the 1988 HoopaYurok Settlement Act, 25 U.S.C. § 1300i et seq. See
Baley, 134 Fed. Cl. at 633–34 & n.4. Like the Klamath
Tribes, the Yurok and Hoopa Valley Tribes are federally-recognized tribes. Indian Entities Recognized and
Eligible To Receive Services From the Bureau of Indian Affairs, 77 Fed. Reg. 47,868, 47,869, 47,870,
47,872. The Hoopa Valley reservation is a nearly
twelve-mile square on the Trinity River at its confluence with the Klamath River. See Karuk Tribe of California v. Ammon, 209 F.3d 1366, 1370 (Fed. Cir. 2000).
The Yurok reservation runs along the Klamath River,
one mile on each side, from the Hoopa Valley reservation downstream to the Pacific Ocean. See id.; Parravano v. Babbitt, 70 F.3d 539, 542 (9th Cir. 1995).
Federal and California state courts have recognized
that the right of the Yurok and Hoopa Valley Tribes to
take fish from the Klamath River for ceremonial, subsistence, and commercial purposes was reserved when
the Hoopa Valley reservation was created. See Baley,
134 Fed. Cl. at 634, 671; United States v. Eberhardt,
789 F.2d 1354, 1359 (9th Cir. 1986); People v. McCovey,
685 P.2d 687, 697 (Cal. 1984). A January 9, 1997 Memorandum by the Department of the Interior’s Regional
Solicitors for the Pacific Southwest and Pacific Northwest Regions recognized that the Yurok and Hoopa
Valley Tribes “hold adjudicated water rights which
vested at the latest in 1891 and perhaps as early as
1855.” Baley, 134 Fed. Cl. at 634.

App. 22
III.

Events of 2001

As noted, the Klamath Project is subject to the requirements of the ESA. In addition, as we noted in the
Remand Decision, the Ninth Circuit has declared the
rights of Klamath Project water users to be subservient to the requirements of the ESA. Remand Decision,
635 F.3d at 508 (citing Klamath Water Users Protective
Ass’n v. Patterson, 204 F.3d 1206, 1213 (9th Cir. 2000)).
“Pursuant to the ESA, the Bureau has an obligation
not to engage in any action that is likely to jeopardize
the continued existence of an endangered or threatened species or result in the destruction or adverse
modification of the critical habitat of such a species.”
Id. at 509 (citing 16 U.S.C. § 1536(a)(1)). “As a result,
the Bureau is required to perform biological assessments to determine the impact of the diversion of
Klamath Project water for irrigation purposes upon
endangered and threatened species and to adjust water delivery to minimize the impact upon the habitat
of such species.” Id. (citing 16 U.S.C. § 1536(a)(2),
(c)(1)).
As the Bureau of Reclamation developed its operating plan for the 2001 water year, forecasts from the
Natural Resources Conservation Service indicated
that it would be a “critical dry” year due to drought
conditions. Baley, 134 Fed. Cl. at 637; Kandra v. United
States, 145 F. Supp. 2d 1192, 1198 (D. Or. 2001) (“As of
April 6, 2001, [the Bureau] determined that inflow volume into [Upper Klamath Lake] would be 108,000 acre
feet during the period of April through September, the
smallest amount of inflow on record.”). In response, the

App. 23
Bureau performed biological assessments of the Klamath Project’s operations on three species of fish that
inhabit associated waters: the endangered shortnose
sucker; the endangered Lost River sucker;12 and the
threatened Southern Oregon Northern California
Coast (“SONCC”) coho salmon.13 Baley, 134 Fed. Cl. at
637 (citing Klamath Irrigation Dist., 67 Fed. Cl. at
513).
On January 22, 2001, the Bureau of Reclamation
forwarded its biological assessment regarding the
SONCC coho salmon to the NMFS, which has
12

The shortnose and Lost River suckers were listed as endangered in 1988. Baley, 134 Fed. Cl. at 636 (citing Final Rule,
Determination of Endangered Status for Shortnose Sucker and
Lost River Sucker, 53 Fed. Reg. 27,130 (July 18, 1988)). The Lost
River and shortnose suckers’ only habitat is Upper Klamath Lake
and nearby Project waters. Baley, 134 Fed. Cl. at 636; Pac. Coast
Fed’n of Fishermen’s Ass’ns v. U.S. Bureau of Reclamation, 138
F. Supp. 2d 1228 (N.D. Cal. 2001).
13
The SONCC coho salmon was listed as threatened in 1997.
Baley, 134 Fed. Cl. at 636 (citing Final Rule, Threatened Status
for Southern Oregon/Northern California Coast Evolutionary Significant Unit (ESU) of Coho Salmon, 62 Fed. Reg. 24,588 (May 6,
1997)). SONCC coho salmon are anadromous fish, meaning they
“hatch in fresh water, migrate to the ocean where they are reared
and reach mature size, and eventually complete their life cycle by
returning to the fresh-water place of their origin to spawn.” Baley,
134 Fed. Cl. at 634 n.5 (quoting Washington v. Wash. State Commercial Passenger Fishing Vessel Ass’n, 443 U.S. 658, 662 (1979),
modified sub nom. Washington v. United States, 444 U.S. 816
(1979)). The Klamath River downstream of the Iron Gate Dam
in California has been designated a “critical habitat” for the
SONCC coho salmon. Pac. Coast Fed’n of Fishermen’s Ass’ns, 138
F. Supp. 2d at 1232 (quoting 64 Fed. Reg. 24,049, 24,062 (May 5,
1999)).

App. 24
jurisdiction over marine and anadromous species. See
id. On February 13, 2001, the Bureau also forwarded
its biological assessment regarding the shortnose and
Lost River suckers to the FWS, which has jurisdiction
over terrestrial and fresh-water species. See id. The
Bureau requested a formal consultation with both the
NMFS and FWS pursuant to § 7(a)(2) of the ESA. Also,
it notified the irrigation districts they should not divert
or use Project water until the consultations were complete. Id. at 637–38.14 On April 5, 2001, the FWS issued
a final Biological Opinion (“FWS Biological Opinion”),
concluding that the Bureau’s proposed 2001 operating
plan was “likely to jeopardize the continued existence
of the [Lost River and shortnose] suckers and adversely modify their proposed critical habitat.” See id.
at 638 (quoting FWS Biological Opinion, J.A. 2673).
The next day, the NMFS issued its final Biological
Opinion (“NMFS Biological Opinion”), concluding similarly that the Project’s 2001 operating plan was “likely
to jeopardize the continued existence of SONCC coho
salmon” and “to adversely modify critical habitat for

14

Notably, during this time period, the Federation was involved in litigation with the Bureau in the Northern District of
California. Specifically, the Federation brought a suit alleging,
inter alia, that the Bureau had violated the ESA by failing to consult with the NMFS concerning the impact of the Klamath Project’s 2000 Operations Plan. Pac. Coast Fed’n of Fishermen’s
Ass’ns, 138 F. Supp. 2d at 1240. The court in that case issued an
injunction on April 3, 2001, restricting the Bureau from delivering Project water when Klamath River flows at the Iron Gate Dam
dropped below certain minimum levels, until the Bureau complied with ESA consultation requirements. Id. at 1251.

App. 25
the SONCC coho salmon.” Id. (quoting NMFS Biological Opinion, J.A. 2995).
As required by the ESA, 16 U.S.C. § 1536(b)(3)(A),
the FWS and NMFS Biological Opinions each included
“reasonable and prudent alternatives” to address the
threat to the fish. The FWS Biological Opinion proposed, among other actions, that the Bureau “not divert
water from UKL [Upper Klamath Lake] for irrigation
purposes if surface elevations are anticipated to go below [certain minimum levels], regardless of inflow year
type.” Baley, 134 Fed. Cl. at 638 (alterations in original); J.A. 2919. The NMFS Biological Opinion’s reasonable and prudent alternative was to operate the
Project in a manner that provided certain levels of
minimum water releases from the Iron Gate Dam into
the Klamath River between April and September of
2001. Baley, 134 Fed. Cl. at 638; J.A. 2998–99.
On April 6, 2001, the Bureau issued a Revised
2001 Operations Plan for the Klamath Project (“the
Plan”). The Plan incorporated the reasonable and prudent alternatives set forth in the Biological Opinions.
The Plan stated that, “[d]ue to the requirements of the
biological opinions and the ESA [Endangered Species
Act] and the current drought conditions, only limited
deliveries of Project water will be made for irrigation.”
Baley, 134 Fed. Cl. at 639 (second alteration in original); J.A. 3177. The Plan also stated:
The United States has a trust responsibility
to protect rights reserved by or for federally
recognized Indian tribes by treaties, statutes

App. 26
and executive orders. Reclamation must operate the Project consistent with its trust obligations to the tribes in the Klamath River
Basin. . . .
...
Trust Responsibility of the United States to
Federally Recognized Tribes Within the Klamath River Basin The trust responsibility to
the Klamath Basin Tribes is shared by all federal agencies that undertake activities in the
Klamath Basin. Fishery and other resources
in the Klamath River, Upper Klamath Lake
. . . , and nearby lakes and streams are important tribal trust resources to the Klamath
Basin tribes. Reclamation’s Plan provides flow
regimes and lake levels for protection of tribal
trust resources within the limitations of the
available water supply.
...
Prior to listing of endangered and threatened
species and the increased scientific understanding of the needs of ESA-listed species
and tribal trust resources, the Project was operated to optimize irrigation diversions. . . .
...
. . . Under the current hydrology, the [Upper
Klamath Lake] levels and river flows under
this Plan are consistent with requirements of
the ESA and Reclamation’s obligation to protect Tribal trust resources.

App. 27
J.A. 3176–78. As a result, the Bureau ceased water deliveries from the Project until July 2001, when it released approximately 70,000 acre-feet of water. Baley,
134 Fed. Cl. at 640.15 The plaintiffs’ suits in the Court
of Federal Claims followed.
IV.

Prior Proceedings in the Federal Circuit

As indicated above, after the Court of Federal
Claims initially entered judgment against the plaintiffs and dismissed their taking, Compact, and breach
of contract claims, the plaintiffs appealed to this court.
Thereafter, as noted, in the Certification Order, we certified three questions of law to the Supreme Court of
Oregon.16 The Oregon court answered those questions
15

On April 9, 2001, a group of Klamath Project water users
filed a lawsuit in the United States District Court for the District
of Oregon seeking to enjoin the Bureau from implementing the
Plan. Baley, 134 Fed. Cl. at 640; see Kandra, 145 F. Supp. 2d at
1195–96, 1199. The Kandra plaintiffs alleged breach of contractual rights to irrigation water, as well as violations of the ESA
due to issues in the Biological Opinions. See Kandra, 145
F. Supp. 2d at 1201–02, 1206–11. The district court denied a
preliminary injunction, and the case was ultimately dismissed.
Id. at 1211; Baley, 134 Fed. Cl. at 640.
16
The certified questions were:
1. Assuming that Klamath Basin water for the
Klamath Reclamation Project “may be deemed to have
been appropriated by the United States” pursuant to
Oregon General Laws, Chapter 228, § 2 (1905), does
that statute preclude irrigation districts and landowners from acquiring a beneficial or equitable property interest in the water right acquired by the United States?
2. In light of the [1905 Oregon] statute, do the
landowners who receive water from the Klamath Basin

App. 28
in the Certification Decision.17 Following receipt of the
Certification Decision, we vacated the prior decision of
Reclamation Project and put the water to beneficial use
have a beneficial or equitable property interest appurtenant to their land in the water right acquired by the
United States, and do the irrigation districts that receive water from the Klamath Basin Reclamation Project have a beneficial or equitable property interest in
the water right acquired by the United States?
3. With respect to surface water rights where appropriation was initiated under Oregon law prior to
February 24, 1909, and where such rights are not
within any previously adjudicated area of the Klamath
Basin, does Oregon State law recognize any property
interest, whether legal or equitable, in the use of Klamath Basin water that is not subject to adjudication in
the Klamath Basin Adjudication?
Certification Order, 532 F.3d at 1377–78.
17
The Supreme Court of Oregon answered “no” to our first
certified question and “yes” to our third certified question. Certification Decision, 227 P.3d at 1157, 1166. The Court’s answer to
our second certified question was not definitive:
2. Under Oregon law, whether plaintiffs acquired
an equitable or beneficial property interest in the water
right turns on three factors: whether plaintiffs put the
water to beneficial use with the result that it became
appurtenant to their land, whether the United States
acquired the water right for plaintiffs’ use and benefit,
and, if it did, whether the contractual agreements between the United States and plaintiffs somehow have
altered that relationship. In this case, the first two factors suggest that plaintiffs acquired a beneficial or equitable property interest in the water right to which
the United States claims legal title, but we cannot provide a definitive answer to the court’s second question
because all the agreements between the parties are not
before us.
Certification Decision, 227 P.3d at 1169.

App. 29
the Court of Federal Claims and remanded the case to
the court with instructions:
[W]e remand plaintiffs’ takings and Compact
claims for (1) determination, based on the
Certification Decision, on a case-by-case basis,
of any outstanding property interest questions; and (2) determination on the merits, on
a case-by-case basis, of all surviving takings
and Compact claims. On remand, the Court of
Federal Claims should proceed as follows:
First, it should determine, for purposes of
plaintiffs’ takings and Compact claims,
whether plaintiffs have asserted cognizable
property interests. In making that determination, the court should direct its attention to
the third part of the three-part test set forth
by the Oregon Supreme Court in response to
our certified question 2. That is because it is
not disputed that, in this case, the first two
parts of the three-part test have been met.
Specifically, the parties do not dispute that
plaintiffs have put Klamath Project water to
beneficial use and that the United States acquired the pertinent water rights for plaintiffs’ use and benefit. As far as the third part
of the three-part test is concerned, the court
should address whether contractual agreements between plaintiffs and the government
have clarified, redefined, or altered the foregoing beneficial relationship so as to deprive
plaintiffs of cognizable property interests for
purposes of their takings and Compact claims.
Remand Decision, 635 F.3d at 519.

App. 30

V. Decision of the Court of Federal Claims on Remand
On remand, the Court of Federal Claims held a
ten-day trial. Baley, 134 Fed. Cl. at 645. As noted above,
following various pretrial rulings, what remained at issue for trial were the plaintiffs’ claims that the Bureau
of Reclamation’s actions in 2001 constituted a taking
and/or a violation of the Klamath Compact. In its subsequent final decision, the court began by dismissing
the claims of plaintiffs whose water rights are derived
from the Van Brimmer Ditch Company. It did so because the court determined that a November 13, 2003
Order of the Court of Federal Claims remained in effect and continued to bar the plaintiffs from “making
any claims or seeking any relief in this case based on
rights, titles, or interests that are or may be subject to
determination in the Adjudication.” Baley, 134 Fed. Cl.
at 650. The court determined that the Van Brimmer
Ditch Company’s claims were based on the same water
rights that were at issue in the Klamath Adjudication.
Id. at 651. Accordingly, the court held that plaintiffs
whose rights derived from shares in the Van Brimmer
Ditch Company were barred from bringing claims to
Klamath Project water based on those shares. Id. at
651–52.
The Court of Federal Claims next addressed the
claims of plaintiffs who receive water under Warren
Act Contracts. This was in response to our instruction
to “address whether contractual agreements between
plaintiffs and the government” had “clarified, redefined, or altered” the beneficial relationship such

App. 31
plaintiffs had obtained by putting to beneficial use
Klamath Project water “so as to deprive plaintiffs of
cognizable property interests for purposes of their takings and Compact claims.” Baley, 134 Fed. Cl. at 652
(quoting Remand Decision, 635 F.3d at 519). This instruction was prompted by the third part of the Supreme Court of Oregon’s answer to our second certified
question noted above. The Court of Federal Claims
held that plaintiffs whose Warren Act contracts include a shortage provision providing that the United
States is immune from liability caused “[o]n account of
drought, inaccuracy in distribution or other cause” had
had their rights altered in such a way that they were
barred from seeking compensation for a taking under
the Fifth Amendment or for an impairment of their
rights under the Klamath Compact. Baley, 134 Fed. Cl.
at 657–59 (emphasis added).18
Turning to plaintiffs who receive water through
leases for land in National Wildlife Refuges, the Court
of Federal Claims held such plaintiffs were barred
from recovering damages. Among other provisions,
those plaintiffs’ leases state that “the United States . . .
shall not be held liable for damages because irrigation
water is not available.” Id. at 659. Because those plaintiffs’ rights were subject to this provision and because
“[t]he provision contain[ed] no language requiring that
18

The court held that plaintiffs whose contracts do not include the “other cause” language hold beneficial rights to receive
Klamath water for which they could seek compensation under the
Fifth Amendment or the Klamath Compact. Baley, 134 Fed. Cl.
at 658.

App. 32
water be unavailable due to specific causes,” the court
concluded that the claims of plaintiffs who leased land
in the National Wildlife Refuges were barred. Id.
The Court of Federal Claims then addressed the
request of the United States and the Federation to reconsider the court’s December 21, 2016 ruling that the
Bureau of Reclamation’s 2001 actions should be analyzed under a physical taking rubric. Baley, 134 Fed.
Cl. at 660–66. The court rejected the United States’
and the Federation’s arguments, again concluding that
the Bureau’s diversion of water should be analyzed as
a potential physical taking. Id. at 663–66. In addition,
expanding upon its December 21, 2016 opinion, the
court concluded that the diversion of water should be
analyzed as a potential permanent physical taking. Id.
at 668.
Finally, turning to the issue of tribal water rights,
the Court of Federal Claims determined those rights
to be federal reserved rights. Id. at 669–70 (quoting
Cappaert v. United States, 426 U.S. 128, 138 (1976)
(“[W]hen the Federal Government withdraws its land
from the public domain and reserves it for a federal
purpose, the Government, by implication, reserves appurtenant water then unappropriated to the extent
needed to accomplish the purpose of the reservation.”)). The water rights stemming from tribal reservations established by treaties and executive orders
are “substantively the same, at least with respect to
non-federal interests,” the court observed. Id. at 670
(quoting Parravano, 70 F.3d at 545). Reserved rights,
the court stated, “represent an exception to the general

App. 33
rule that allocation of water is the province of the
states,” and “need not be adjudicated only in state
courts.” Id. (first quoting F. Cohen, Handbook of Federal Indian Law (“Cohen”) § 19.01[1] (2012), then quoting Cappaert, 426 U.S. at 145).
The Court of Federal Claims stated that the priority date of a tribe’s reserved rights is “no later than the
date on which a reservation was established.” Id. (quoting Cohen § 19.01[1]). When a treaty recognizes the
continued existence of a tribe’s water rights, as the
1864 Treaty with the Klamath Tribes did for those
tribes, the rights carry a priority date of “time immemorial,” the court stated. Id. (quoting Adair, 723 F.2d
at 1414). Although the Yurok and Hoopa Valley Tribes’
reserved water rights had not previously been assigned a priority date, the Court of Federal Claims
determined that the priority date for those rights must
be at least 1891, the year of the last executive order
creating the Yurok and Hoopa Valley reservations, possibly earlier. Id. In contrast, the court noted, the
United States first posted notice that it was appropriating water for the Klamath Project in 1905, making
the plaintiffs’ priority date 1905 at the earliest. Id.
Thus, the court concluded, the Tribes’ reserved rights
are senior to those of the plaintiffs. Id.
Continuing, the court stated that the Klamath
Tribes’ non-consumptive rights entitle them to “prevent other appropriators from depleting [Upper Klamath Lake and its tributaries’] waters below levels
that would prevent them from ‘support[ing] game and
fish adequate to the needs of Indian hunters and

App. 34
fishers.’ ” Id. at 671 (quoting Adair, 723 F.2d at 1410–
11). “The Lost River and short nose suckers are tribal
resources of the Klamath Tribes and uncontested evidence presented at trial demonstrated that the fish
have played an important role in the Klamath Tribes’
history,” the court noted. Id. “Thus,” the court held, “the
Klamath Tribes’ aboriginal right to take fish entitles
them to prevent junior appropriators from withdrawing water from Upper Klamath Lake and its tributaries in amounts that would cause the extinction of the
Lost River and short nose suckers.” Id. (citing United
States v. Anderson, 591 F. Supp. 1, 5–6 (E.D. Wash.
1982)).
Similarly, the Court of Federal Claims determined
that the SONCC coho salmon is a tribal trust resource
for the Yurok and Hoopa Valley Tribes, who hold the
right to take fish from the Klamath River for “ceremonial, subsistence, and commercial purposes.” Id. (quoting United States v. Eberhardt, 789 F.2d 1354, 1359
(9th Cir. 1986)). Citing Adair, the court held that the
Yurok and Hoopa Valley Tribes, like the Klamath
Tribes, hold a non-consumptive water right that entitles them, at a minimum, to prevent junior appropriators from withdrawing water from the Klamath River
in amounts that would cause the endangerment and
extinction of the SONCC coho salmon. Id. at 672.
Rejecting the plaintiffs’ argument that, absent
quantification of the Tribes’ water rights, the government could not show that all or any portion of the water in Upper Klamath Lake belonged to the Tribes,
the court pointed to the FWS and NMFS Biological

App. 35
Opinions, which set forth minimum elevations in Upper Klamath Lake and minimum flows into the Klamath River needed to avoid jeopardizing the continued
existence of the relevant fish. Id. at 673–76. The court
found the Biological Opinions to be reasoned and credible. Id. at 676. Moreover, the court “accept[ed] the conclusions of the FWS Biological Opinion, including that
the elevation levels for Upper Klamath Lake . . . were
necessary to avoid jeopardizing the continued existence of the Lost River and shortnose suckers.” Id. Likewise, the court “accept[ed] the conclusions of the
NMFS Biological Opinion, including that the release of
certain minimum flows of Klamath Project water . . .
were necessary to avoid jeopardizing the continued existence of the SONCC coho salmon.” Id. Next, the court
rejected the plaintiffs’ argument that the Bureau’s actions were intended solely to meet its obligations under the ESA and were not intended to satisfy the
Bureau’s tribal trust obligations. Id. at 677. In doing
so, the court agreed with an argument set forth in the
amicus brief filed by the Klamath Tribes that the Bureau’s motives are not dispositive. Id. at 678. The court
also rejected the plaintiffs’ contention that because the
Yurok and Hoopa Valley Tribes did not file a claim in
the Klamath Adjudication, they do not hold Oregon
water rights, pointing out that those tribes hold reserved rights arising out of federal, not state, law. Id.
at 679.
Concluding, the Court of Federal Claims noted
that plaintiffs had “perfected their water rights under
state law” and had “relied upon those rights” and that

App. 36
many plaintiffs “were severely and negatively impacted by the [Bureau of Reclamation]’s actions.” Id. at
679–80. The court nonetheless held that the Bureau’s
actions did not constitute a taking of the plaintiffs’ water rights or a violation of the plaintiffs’ rights under
the Compact. Id. The court stated:
[B]ecause the Tribes held water rights to Klamath Project water that were senior to those
held by all remaining plaintiff class members,
and because the Tribes[’] water rights were at
least co-extensive to the amount of water
that was required by defendant to satisfy its
obligations under the [ESA] concerning the
Lost River and shortnose suckers and the
coho salmon in 2001, plaintiffs had no entitlement to receive any water before the government had satisfied what it determined to be
its obligations under the [ESA] and its Tribal
Trust responsibilities.
Id. The court therefore entered judgment in favor of
the government. This appeal followed.19
DISCUSSION
I.

Standard of Review and Legal Framework

We review a judgment of the Court of Federal
Claims following a trial “to determine if [it is] incorrect
as a matter of law or premised on clearly erroneous
factual determinations.” Stockton East Water Dist. v.
19

From this point on, we refer to the remaining plaintiffs as
“appellants.”

App. 37
United States, 761 F.3d 1344, 1349 (Fed. Cir. 2014)
(quoting Dairyland Power Coop v. United States, 645
F.3d 1363, 1368–69 (Fed. Cir. 2011)). “We review the
Court of Federal Claims’ legal conclusions de novo and
its factual findings for clear error.” Meridian Eng’g Co.
v. United States, 885 F.3d 1351, 1354–55 (Fed. Cir.
2018) (citing John R. Sand & Gravel Co. v. United
States, 457 F.3d 1345, 1353 (Fed. Cir. 2006), aff ’d 552
U.S. 130 (2008)). “A finding may be held clearly erroneous when the appellate court is left with a definite and
firm conviction that a mistake has been committed.”
Id. at 1355 (quoting Ind. Mich. Power Co. v. United
States, 422 F.3d 1369, 1373 (Fed. Cir. 2005) (internal
quotation marks, ellipsis, and citation omitted)).
The Fifth Amendment to the United States Constitution proscribes the taking of private property “for
public use, without just compensation.” U.S. CONST.
amend. V, cl. 4. When evaluating whether governmental action constitutes a taking, a court employs a twopart test. First, the court determines whether the
claimant has identified a cognizable Fifth Amendment
property interest that is asserted to be the subject of
the taking. Second, if the court concludes that a cognizable property interest exists, it determines whether
the government’s action amounted to a compensable
taking of that property interest. See Alimanestianu v.
United States, 888 F.3d 1374, 1380 (Fed. Cir. 2018);
Aviation & General Ins. Co. v. United States, 882 F.3d
1088, 1096 (Fed. Cir. 2018).

App. 38
II.

Overall Contentions of the Parties

On appeal, appellants argue that the Court of Federal Claims erred in holding that their taking claims
were barred by the prior reserved water rights of the
Tribes.20 Appellants also challenge the court’s determinations that appellants who receive water under National Wildlife Refuge leases and that appellants who
receive water under Warren Act contracts that limit
the government’s liability for “other cause” are barred
20

In addition to requesting that we vacate and remand the
case for a determination and award of taking damages, appellants
request, in a single sentence in their opening brief, that we award
them damages for breach of the Klamath Compact. Appellants’
Br. 60; see also Reply Br. 13 (alleging that, under the Compact,
irrigation rights take priority over water rights for fish and wildlife). The Court of Federal Claims did not provide analysis regarding appellants’ rights under the Compact separate from its
analysis of their Fifth Amendment claims. See e.g., Baley, 134
Fed. Cl. at 652–53, 680. In any event, appellants’ cursory mention
of the Klamath Compact is insufficient to preserve any separate
arguments pertaining to the Compact. See Trading Techs. Int’l,
Inc. v. IBG, LLC, 921 F.3d 1378, 1385 (Fed. Cir. 2019) (“[A] conclusory assertion with no analysis is insufficient to preserve the
issue for appeal.”); United States v. Great Am. Ins. Co. of N.Y., 738
F.3d 1320, 1328 (Fed. Cir. 2013) (“It is well established that arguments that are not appropriately developed in a party’s briefing
may be deemed waived.”); SmithKline Beecham Corp. v. Apotex
Corp., 439 F.3d 1312, 1320 (Fed. Cir. 2006) (“[M]ere statements
of disagreement with the district court as to the existence of factual disputes do not amount to a developed argument.”); United
States v. Zannino, 895 F.2d 1, 17 (1st Cir. 1990) (“[W]e see no reason to abandon the settled appellate rule that issues adverted to
in a perfunctory manner, unaccompanied by some effort at developed argumentation, are deemed waived.”). We therefore decline
to separately address appellants’ rights under the Klamath Compact.

App. 39
from seeking compensation. Appellants’ Br. 43–55. In
addition, appellants challenge the court’s dismissal of
the claims of farmers whose water rights are derived
from the Van Brimmer Ditch Company. Appellants’ Br.
55–59.21
The government and the Federation (collectively,
“appellees”) respond that the Court of Federal Claims
did not err in ruling that superior tribal rights defeated appellants’ claims. They also contend that the
court did not err in its rulings with respect to claims
arising from National Wildlife Refuge leases, claims
arising from Warren Act contracts containing limiting
language, and claims of farmers deriving their water
rights from the Van Brimmer Ditch Company. United
States’ Br. 52–66. In addition, appellees argue that,
should we determine that the Court of Federal Claims
erred in its tribal rights ruling, we should vacate the
court’s decision and remand with the instruction that
the court analyze appellants’ claims as asserting regulatory, as opposed to physical, takings. Federation Br.
36-53; United States’ Br. 70–77.

21

In their opening brief, appellants assert that the water
rights deriving from the Van Brimmer Ditch Company date back
to 1883, which they claim makes them senior to the “alleged 1891
Hoopa Valley and Yurok tribes’ water rights.” Appellants’ Br. 36.
For its part, the government contends that the Yurok and Hoopa
Valley Tribes’ rights have priority dates of no later than 1855 and
1876, the dates on which their land was reserved. United States’
Br. at 32 & n.3. At oral argument, however, appellants’ counsel
agreed that the Van Brimmer Ditch Company appellants are “in
the same situation as everyone else.” Oral arg. 17:12–18:22 (July
8, 2019).

App. 40
The parties state, and we agree, that we must affirm the judgment of the Court of Federal Claims if we
conclude the court did not err in holding that, in 2001,
the superior water rights of the Tribes required that
the Bureau temporarily halt deliveries of water to appellants. Oral arg. 16:18–54, 17:10–18:22 (appellants);
37:28–43 (government) (requesting affirmance on two
independent bases).22 Accordingly, it is to the issue of
tribal rights that we turn first.
III. Contentions of the Parties Regarding Tribal Rights
A.
According to the Court of Federal Claims, the
rights of appellants to Klamath Project water constitute cognizable property interests for which they may
seek compensation. And appellees do not challenge
this ruling. As seen, however, the court also ruled that
those property interests were inferior to the Tribes’
non-consumptive water rights—another property interest. It therefore held that appellants could not establish their taking or Compact claims and entered
judgment for the government and the Federation.
Preliminarily, the parties agree that the Klamath
Tribes have federally-reserved non-consumptive water
22

If the Tribes’ rights control over appellants’ property interests, any taking claims asserted by appellants, as well as appellants’ other claims, are with respect to inferior property interests
and therefore must fail. See Winters v. United States, 207 U.S.
564, 568–70, 576–78 (1908) (holding that a tribe’s senior, federally-protected right had priority over irrigators’ junior, state-law
rights).

App. 41
rights to support fishing on their former reservation.
Appellants’ Br. 8; Federation’s Br. 10–11; United
States’ Br. 21–22. The parties also agree that the Klamath Tribes’ rights have priority to a date of “time immemorial.” Appellants’ Br. 8; Federation’s Br. 10–11;
United States’ Br. 21–23. Similarly, the parties do not
appear to dispute that the Yurok and Hoopa Valley
Tribes hold federally-reserved fishing rights, impliedly
created by executive order, that permit them to take
anadromous fish from waters adjacent to their reservations. See Federation’s Br. 12–13; United States’ Br.
23–24.23
23

In their briefs, appellants suggest that cases from this
court lead to the conclusion that Congress did not confer any property rights, including water rights, upon the Yurok and Hoopa
Valley tribes. Appellants’ Br. 27–28; Reply Br. 15–16. In making
this suggestion, appellants rely upon Karuk Tribe of California v.
Ammon, 209 F.3d 1366. In that case, we held that certain individuals and tribes, including the Yurok Tribe, did not possess vested,
compensable property interests in the land of the Hoopa Valley
reservation for purposes of the Fifth Amendment. Id. at 1370,
1375–76. At oral argument, appellants appear to have conceded
the existence of the water rights of the Yurok and Hoopa Valley
Tribes and to have focused their argument on the scope of those
rights. See Oral arg. at 5:40–6:16 (“[T]hey have only so much water as is necessary to fulfill the purposes of the reservation [which]
were of course to allow for fishing . . . adjacent to the reservation
for the Hoopa and Yurok. Those were the original purposes of the
reservation.”) & 1:15:00—1:16:12 (“Did Congress really intend
that [Upper Klamath Lake], 200 miles away, which might supply
. . . one percent, two percent, no percent of the flows needed for
the salmon runs at the Hoopa, did Congress really intend that
that would all come from Klamath Lake and not from anywhere
like say, the Trinity River, which has flows of over a million acrefeet per year?”). In any event, to the extent appellants maintain
this argument, we do not read Karuk Tribe as repudiating the

App. 42
B.
Appellants make three main arguments relating
to tribal rights. First, they argue that it was error for
the Court of Federal Claims to hold that, in 2001, the
Tribes held rights to an amount of water that was at
least equal to what was needed to satisfy the Bureau
of Reclamation’s ESA obligations. Appellants’ Br. 21.
The ESA requires that the Bureau not “jeopardize the
continued existence” of endangered and threatened
fish. 16 U.S.C. § 1536(a)(2). Appellants contend that
the Tribes’ water rights only entitled them to a catch
that was adequate to support a “reasonable livelihood”
or a “moderate living,” as stated in Washington v.
Washington State Commercial Passenger Fishing Vessel
Association, 443 U.S. at 685, 686. Appellants’ Br. 21–
23. In other words, appellants argue that the Court of
Federal Claims erred by looking to a standard that
gave the Tribes more water than they were entitled
to.
Continuing with this argument, appellants state
that the Klamath Tribes do not fish or use the suckers
“for any purpose today.” Id. at 25. Appellants claim
that, under Adair, the Tribes are entitled to only the
amount of water that is sufficient to support their
hunting and fishing rights as they currently are exercised. Oral arg. 6:58–10:55; Citation to Supplemental
Authority Fed. R. App. P. 28(j) (July 9, 2019). Turning
to the Yurok and Hoopa Valley Tribes, appellants state
Yurok and Hoopa Valley Tribes’ fishing rights. See Baley, 134
Fed. Cl. at 634, 671; Eberhardt, 789 F.2d at 1359; McCovey, 685
P.2d at 697.

App. 43
that those tribes catch sufficient fish to sustain their
“reasonable livelihood” since they harvest abundant
chinook salmon. Appellants’ Br. 23–25. In sum, appellants urge that the “reasonable livelihood” or “moderate living” needs of the Tribes did not require that the
Bureau halt water deliveries to the extent required to
comply with the ESA.
Second, appellants contend that the Court of Federal Claims erred in concluding that the Tribes have
senior rights in Klamath Project water. Appellants argue that the Tribes’ water rights were created before
the Klamath Project and therefore do not include a
right to the then nonexistent stored water produced by
the Klamath Project. Id. at 40–41. According to appellants, in Oregon Department of Fish & Wildlife v. Klamath Indian Tribe, 473 U.S. at 768, the Supreme Court
held that the Klamath Tribes’ fishing rights extend
only to lakes and streams within the tribes’ former reservation, which did not include Upper Klamath Lake,
where Project water is stored. Id. at 26, 31–33. Appellants argue that the Court of Federal Claims misread
Adair to extend the Klamath Tribes’ right to fish to include access to Upper Klamath Lake, since Adair dealt
only with the Klamath Tribes’ fishing rights in the
Williamson River, which, along with the Sprague River,
flows into Upper Klamath Lake.24 Appellants maintain
24

In Adair, the Ninth Circuit affirmed a decision declaring
that the “Klamath Tribe” and its members have water rights,
with a priority date of time immemorial, sufficient to maintain
their treaty rights to hunt and fish in the Williamson River watershed on the former Klamath reservation. 723 F.2d at 1397,
1415.

App. 44
there is no evidence showing that water in Upper Klamath Lake flows upstream into these rivers. On these
grounds, appellants assert that the Klamath Tribes do
not have implied rights to the water stored in Upper
Klamath Lake for purposes of the Klamath Project.
As far as the Yurok and Hoopa Valley Tribes are
concerned, appellants argue that the tribes have
waived any rights they have to Klamath Project water
because they declined to participate in the Klamath
Adjudication. In addition, appellants contend, because
the reservations of those tribes lie approximately 200
miles downstream of Upper Klamath Lake, Klamath
Project water is not “appurtenant” to their reservations, as required by Winters v. United States, 207 U.S.
564 (1908). Appellants’ Br. 26–30.
In Winters, the United States brought suit to enjoin upstream irrigators from constructing or maintaining dams on the Milk River, or from otherwise
preventing the water of the river or its tributaries from
flowing downstream to the Fort Belknap Indian Reservation in Montana. 207 U.S. at 565. Although there was
no express reservation of the river’s water in the 1888
agreement creating the reservation, the Supreme
Court noted that it was the “policy” of the government
and the “desire of the Indians” to become “a pastoral
and civilized people” and that, without the river water
to irrigate the land of the reservation, the land would
be “practically valueless.” Id. at 576. Noting that “[b]y
a rule of interpretation of agreements and treaties
with the Indians, ambiguities occurring will be resolved from the standpoint of the Indians,” the Court

App. 45
affirmed the permanent injunction of the district court
that prevented the irrigators from interfering with the
water flow needed by the reservation. Id. at 576–78.
The Supreme Court has subsequently restated this
“Reserved-Water-Rights Doctrine” as follows:
This Court has long held that when the Federal Government withdraws its land from the
public domain and reserves it for a federal
purpose, the Government, by implication, reserves appurtenant water then unappropriated to the extent needed to accomplish the
purpose of the reservation.
Cappaert, 426 U.S. at 138. Cases refer to these reserved
water rights as Winters rights. Crow Creek Sioux Tribe
v. United States, 900 F.3d 1350, 1352, 1355–56 (Fed.
Cir. 2018); Navajo Nation v. Dep’t of the Interior, 876
F.3d 1144, 1155 (9th Cir. 2017); see Arizona v. California, 373 U.S. 546, 600 (1963) (“The Court in Winters
concluded that the Government, when it created that
Indian Reservation, intended to deal fairly with the
Indians by reserving for them the waters without
which their lands would have been useless.”).
Appellants’ argument is that the distance of their
respective reservations from Upper Klamath Lake prevents the Yurok and Hoopa Valley Tribes from claiming Winters rights with respect to Klamath Project
water. Any reserved rights intended for those tribes,
appellants contend, would have been in the closer
Lower Klamath Basin or Trinity River. Appellants’ Br.
28–30.

App. 46
Third, appellants argue that the Court of Federal
Claims erred in several respects regarding the exercise
of the Tribes’ rights. Appellants’ Br. 33–43. Specifically,
according to appellants, the Bureau of Reclamation
should not have taken unilateral action in response to
the FWS and NMFS Biological Opinions, but instead
should have sought a “judicial determination regarding the existence, location, quantity, source, and lawful
purposes of the water rights [at issue], which had not
occurred by 2001.” Id. at 39. In making this argument,
appellants cite Section 8 of the Reclamation Act, which
states that the Bureau is to distribute water “in conformity with [state] laws.” See 43 U.S.C. § 383. The
“state” law to which appellants point is Or. Rev. Stat.
§ 540.045(4) (2017). In further support of their argument, appellants cite United States v. Puerto Rico, 287
F.3d 212 (1st Cir. 2002). Relatedly, appellants contend
that the Yurok and Hoopa Valley Tribes waived their
water rights because they did not participate in the
Klamath Adjudication. Appellants Br. 30. In addition,
appellants urge that the water of parties with rights
junior to the Klamath farmers and irrigators should
have been curtailed first, in reverse order of priority,
to satisfy any senior rights of the Tribes. Appellants’
Br. 33–36. Finally, relying on Gros Ventre Tribe v.
United States, 469 F.3d 801 (9th Cir. 2006), appellants
argue that the Bureau’s compliance with the ESA
“discharged any trust responsibility it had to the
tribes.” Appellants’ Br. 41. Appellants assert that
“[b]ecause the Government’s fiduciary duty attached
only to tribal property that it holds in trust, [the Bureau of ] Reclamation lacked any authority to withhold

App. 47
Klamath farmers’ water in 2001 to satisfy a nonexistent Hoopa/Yurok water right in Klamath Project water,
nor an as-yet-undetermined and unquantified Klamath Tribes’ water right.” Id. at 42.25
C.
In response to appellants’ first argument, appellees contend that the minimum lake and flow levels the
Bureau of Reclamation imposed in the Plan were critical to the survival of the relevant fish, and therefore
within the Tribes’ federal reserved rights. Indeed, appellees argue, avoiding jeopardy under the ESA is a
lower threshold than the “reasonable livelihood,” or
“moderate living,” standard for tribal trust resources.
Federation’s Br. 17–18. Appellees contend that the Klamath Tribes’ reserved rights are based on the historical circumstances surrounding the importance of the
suckers to the tribes’ diets. That the Klamath Tribes
no longer harvest suckers is irrelevant, appellees assert, as the tribes’ inability to harvest the suckers is
because of ESA restrictions and population loss due in
part to the Klamath Project. Appellees also contend
that, in the Court of Federal Claims, appellants presented no evidence that lower flow levels in the
25

Appellants also contend that the Court of Federal Claims
failed to address the rights of two entities, the Klamath Drainage
District and the Klamath Hills District Improvement Company,
whom they assert hold state water rights for irrigation independent of the Klamath Project. Appellants’ Br. 42–43. Those entities
are no longer parties to these proceedings, however. Therefore,
this issue is moot.

App. 48
Klamath River would protect the chinook salmon,
which are also declining in population, so as to afford
the Yurok and Hoopa Valley Tribes a “reasonable livelihood” or “moderate living.” United States’ Br. 41–42.
Second, appellees respond that the Court of Federal Claims correctly found that the retained waters
of Upper Klamath Lake and the Klamath River are
within the scope of federal reserved rights of the
Tribes. Federation’s Br. 8–13; United States’ Br. 33, 34–
39. According to appellees, the 1864 Klamath Treaty
reserved rights in water necessary to fulfill the fishingrelated purposes of the Klamath Tribes’ reservation,
and this reservation of rights extends to water in Upper Klamath Lake. Appellees point to the FWS Biological Opinion as demonstrating that Upper Klamath
Lake provides critical habitat for suckers that populate the fisheries on the former Klamath reservation.
United States’ Br. 36. Similarly, appellees contend, in
reserving lands for the purpose of preserving tribal
subsistence fishing, the United States reserved sufficient flow of the Klamath River to preserve adequate
habitat for salmon for the benefit of the Yurok and
Hoopa Valley Tribes. Federation’s Br. 12–13; United
States’ Br. 37–39. Further, once established, the Tribes’
rights exist, appellees urge, even if the Klamath Project was developed at a later point in time. Federation’s
Br. 9–10.
Third, appellees contend that the Tribes’ federal
reserved rights need not be quantified or adjudicated
to be enforced. Federation’s Br. 18–20; United States’
Br. at 46–49. This requirement, appellees contend,

App. 49
pertains to state rights, not federal reserved rights.
Appellees argue that state adjudications are limited to
waters within a state and cannot encompass water
rights to bodies of water that run through other states.
For that reason, appellees claim, the California-based
Hoopa Valley and Yurok Tribes could not have waived
their federal reserved water rights by failing to participate in Oregon’s Klamath Adjudication. Federation’s
Br. 21–22; United States’ Br. at 48–49.
IV.

Analysis

As the Court of Federal Claims noted, it is wellestablished that the creation of a tribal reservation
carries an implied right to unappropriated water “to
the extent needed to accomplish the purpose of the
reservation.” Baley, 134 Fed. Cl. at 669-70 (quoting
Cappaert, 426 U.S. at 138); Crow Creek Sioux Tribe v.
United States, 900 F.3d 1350, 1352, 1356 (Fed. Cir.
2018); see also United States v. New Mexico, 438 U.S.
696, 702 (1978) (“Where water is necessary to fulfill the
very purposes for which a federal reservation was created, it is reasonable to conclude, even in the face of
Congress’ express deference to state water law in other
areas, that the United States intended to reserve the
necessary water.”). Relevant to this case, courts have
concluded that the purposes of the Tribes’ reservations
were to secure to the Tribes a continuation of their traditional hunting and fishing lifestyle. Adair, 723 F.2d
at 1408–09 (Klamath); Parravano, 70 F.3d at 546
(Yurok and Hoopa Valley).

App. 50
We are not persuaded by appellants’ argument
that the Tribes’ entitlement to a “reasonable livelihood” or “moderate living” did not require that the
Bureau halt water deliveries to the extent required to
comply with the ESA. Beginning with the suckers and
the Klamath Tribes, appellants have not argued that
the Court of Federal Claims erred when it found that
the “Lost River and short nose suckers are tribal resources of the Klamath Tribes and uncontested evidence presented at trial demonstrated that the fish
have played an important role in the Klamath Tribes’
history.” Baley, 134 Fed. Cl. at 671. Given that the
standard of the ESA is to avoid jeopardizing the existence of the suckers, we do not see how, in this case, the
“reasonable livelihood” or “moderate living” standard
constitutes a standard lower than the requirement
that the very existence of this important tribal resource not be placed in jeopardy.
We also do not agree with appellants that the
Klamath Tribes have no rights to the suckers because
they do not fish or use the suckers “for any purpose today.” That the Tribes do not use endangered species
cannot be held against them. In fact, as appellants
point out, if the Klamath Tribes’ members were to take
the endangered suckers, they would be committing a
federal offense. Reply Br. 7 & n.23 (quoting 16 U.S.C.
§ 1538(a)(1)(B)). It does not follow that by not fishing
the endangered suckerfish, the Klamath Tribes have
abandoned their rights to fish them. See Navajo Nation, 876 F.3d at 1155 (“Winters rights, unlike water
rights gained through prior appropriation, are not lost

App. 51
through non-use.”) (citing Colville Confederated Tribes
v. Walton, 647 F.2d 42, 51 (9th Cir. 1981)).
Similarly, that the Yurok and Hoopa Valley Tribes
catch significantly more chinook salmon than SONCC
coho salmon does not necessarily mean that they can
sustain a “reasonable livelihood” or “moderate living”
through the chinook salmon alone.26 This is particularly true since the NMFS Biological Opinion indicates
that the habitat needs of the chinook and SONCC coho
salmon are similar and that “populations of chinook
salmon . . . have declined to levels that have warranted
their consideration for listing.” J.A. 2983. Indeed, the
NMFS Biological Opinion also indicates that the Bureau’s proposed 2001 operating plan to continue operating the Klamath Project would have reduced the
spawning habitat for the chinook salmon. J.A. 2963,
2988, 2995. Moreover, appellants do not dispute the
importance of salmon, generally, to the Yurok and
Hoopa Valley Tribes.27 Thus, we do not see how the
26

The amicus brief of the Hoopa Valley Tribe asserts that
“[e]ven the comparatively larger Chinook harvests in 2000–2001
cited by Plaintiff-Appellants equate to only 3 to 4 fish annually
per member.” Amicus Br. of Hoopa Valley Tribe Supporting Defendants-Appellees and Affirmance at 21 n.7.
27
The Court of Federal Claims cited Parravano with respect
to the general importance of salmon fisheries to the Yurok and
Hoopa Valley tribes. Baley, 134 Fed. Cl. at 671. In Parravano, the
Ninth Circuit determined that the Secretary of Commerce had
authority under the Magnuson Fishery Conservation and Management Act, 16 U.S.C. § 1801 et seq., to reduce the ocean harvest
rate of chinook salmon by non-tribal commercial fishermen and
fishing associations to protect the Yurok and Hoopa Valley Tribes’
federally-reserved fishing rights. 70 F.3d at 541, 547. Parravano

App. 52
requirement that these tribes maintain a “reasonable
livelihood” or a “moderate living” from the fish can possibly be a lesser standard than the requirement that
the SONCC coho salmon’s very existence not be placed
in jeopardy.
It is not necessary for us to determine the amount
of fish that would constitute a “reasonable livelihood”
or a “moderate living” for the Tribes. At the bare minimum, the Tribes’ rights entitle them to the government’s compliance with the ESA in order to avoid
placing the existence of their important tribal resources in jeopardy. We therefore reject appellants’ argument that the Court of Federal Claims erred when
it held that the Tribes had rights to an amount of water
that was at least equal to what was needed to satisfy
the Bureau of Reclamation’s ESA obligations.
We turn now to appellants’ second main argument
noted above: that there are geographic limitations on
the Tribes’ rights that exclude Upper Klamath Lake,
and accordingly Klamath Project water, from the reach
of those rights.
The record on appeal is not clear as to whether the
Klamath Tribes’ fishing rights include the right of tribe
members to take fish from Upper Klamath Lake while
was decided in 1995; the coho salmon was identified as being a
threatened species in 1997. The Final Rule listing the SONCC
coho salmon as “threatened” indicates that the population of
SONCC coho salmon had been in decline for years. See generally
62 Fed. Reg. 24,588. According to the Final Rule, “[d]ue to concerns over declining population status, directed harvest of coho
salmon has been eliminated since 1994.” Id. at 24,604.

App. 53
they stand on former reservation lands. At the same
time, appellants are correct that we do not have evidence before us establishing that water from Upper
Klamath Lake flows upstream into the Williamson and
Sprague rivers. However, there is evidence before us
establishing that the Lost River and shortnose suckers
do travel upstream from Upper Klamath Lake into its
tributaries. For example, in Baley, the Court of Federal
Claims relied upon the Determination of Endangered
Status for Shortnose Sucker and Lost River Sucker,
which states:
The present or threatened destruction, modification, or curtailment of its habitat or range.
Initial biological surveys of the Klamath Basin
indicated the presence of large populations of
fishes, and suckers in particular. Spawning
runs of suckers from Upper Klamath Lake
were large enough to provide a major food
source for Indians and local settlers. The
shortnose sucker and Lost River sucker were
staples in the diet of the Klamath Indians for
thousands of years. . . . Even through the
1960’s and 1970’s, runs of suckers moving
from Upper Klamath Lake up into the Williamson and Sprague Rivers were great
enough to provide a major sport fishery that
annually attracted many people from throughout the West. The primary species was the
larger Lost River sucker, locally known as
mullet, but significant numbers of shortnose
suckers also occurred in the runs. During the
past years, however, [t]he Klamath Tribe and
local biologists have been so alarmed by the

App. 54
population decline of both suckers that in
1987, the Oregon Fish and Wildlife Commission closed the fishery for both species and
place[d] them on the State’s list of protected
species.
53 Fed. Reg. at 27,130 (emphasis added, citations
omitted); see Baley, 134 Fed. Cl. at 636; FWS Biological
Opinion, § III, Part 2, p.44, J.A. 2820 (noting spawning
runs of the Lost River suckers in the Williamson and
Sprague Rivers).
As noted, the Klamath Tribes have an implied
right to water to the extent necessary for them to accomplish hunting, fishing, and gathering on the former
reservation, a primary purpose of the Klamath reservation. See Adair, 723 F.2d at 1408–09. This entitlement includes the right to prevent appropriators from
utilizing water in a way that depletes adjoined water
sources below a level that damages the habitat of the
fish they have a right to take. Id. While the Klamath
Project did not exist at the time of the creation of the
Klamath Tribes’ reservation, Upper Klamath Lake undisputedly did exist at that time, as it was the boundary of the reservation as it was created. See Klamath
Treaty, Art. I, 16 Stat. 707. The FWS Biological Opinion
indicated that maintaining minimum levels in Upper
Klamath Lake was “necessary to avoid jeopardy and
adverse modification of proposed critical habitat” for
the suckers. J.A. 2920. Appellants do not challenge the
findings of the FWS Biological Opinion. Thus, given
the facts of record, the Court of Federal Claims did not
err in finding that the Klamath Tribes’ implied water
rights include Upper Klamath Lake.

App. 55
As seen above, appellants cite Oregon Department
of Fish & Wildlife v. Klamath Indian Tribe, 473 U.S. at
768, for the proposition that “[t]he Supreme Court has
ruled that the Klamath Tribes’ treaty fishing right extends only to lakes and streams within the Tribes’ former reservation.” Appellants’ Br. 31. Accordingly, and
because the Klamath Project and its additional stored
water did not exist in 1864, appellants contend that
the Court of Federal Claims “lacked any basis, in law
or in fact, to declare a water right for the Tribes in
Upper Klamath Lake.” Id. Oregon Department of Fish
& Wildlife does not stand for the broad proposition that
appellants assert, however. The case did not involve
water rights on the Klamath Tribes’ former reservation. Rather, the question before the Court was
whether the tribes retained hunting and fishing rights
on land the tribes had ceded to the United States from
the reservation under a 1901 agreement. See 473 U.S.
at 764.
Even if the Klamath Tribes’ fishing rights extend
only to lakes and streams within their former reservation, this does not mean their reserved water right is
so limited. See John v. United States, 720 F.3d 1214,
1230 (9th Cir. 2013) (“No court has ever held that the
waters on which the United States may exercise its reserved water rights are limited to the water within the
borders of a given federal reservation.”). Winters itself
makes this clear. 207 U.S. at 568, 576–77. In addition,
in Cappaert, the United States had reserved Devil’s
Hole Monument, which included an underground pool
that was the only habitat for a type of desert pupfish,

App. 56
for the purpose of preserving the pool. 426 U.S. at 131–
32, 141. The Supreme Court held that the United
States could enjoin the pumping of groundwater at a
ranch two and a half miles from Devil’s Hole. Id. at 133,
147. In reaching this conclusion, the Court held that
the “Reserved-Water-Rights Doctrine” was not limited
to surface water and could be extended to groundwater
as it is “based on the necessity of water for the purpose
of the federal reservation.” Id. at 142–43. Likewise, water outside the Klamath Tribes’ former reservation is
necessary for the purposes of the tribes’ reservation—
to secure to the Tribes a continuation of their traditional hunting and fishing lifestyles.
Relatedly, we do not agree with appellants that the
geography of the Klamath Basin and the distance between Upper Klamath Lake and the Yurok and Hoopa
Valley Tribes’ reservations mean that Klamath Project
water is not subject to those tribes’ reserved water
rights. It is true that, downstream from Upper Klamath Lake, between the Iron Gate Dam and the Hoopa
Valley reservation (and subsequently, the Yurok reservation) there are other water sources. Specifically, the
Trinity River joins the Klamath River at the Hoopa
Valley reservation, and there are several other tributaries to the Klamath River along the way. However,
appellants’ focus on the distance between the tribes’
reservations, on the one hand, and the Project water in
Upper Klamath Lake and Iron Gate Dam, on the other
hand, is misplaced. In Winters, the Supreme Court
held that the 1888 treaty that established the Fort
Belknap reservation had also impliedly reserved water

App. 57
that was being diverted upstream from the reservation. 207 U.S. at 576–77; see also Cappaert, 426 U.S. at
133, 147. Not only does the Klamath River flow from
Upper Klamath Lake through the Yurok and Hoopa
Valley Tribes’ reservations,28 but the river’s very path
defines the borders of the Yurok reservation. Moreover,
as set forth in the NMFS Biological Opinion, the varying water flows at Iron Gate Dam were designed to
provide suitable habitat, and adequate water temperatures and quality, to avoid the likelihood of jeopardizing the existence of the SONCC coho salmon. They also
were designed to avoid the destruction or adverse modification of the critical habitat of the coho salmon.
Thus, while the fish may be taken by members of the
Yurok and Hoopa Valley Tribes as they stand on their
reservations, the habitat of the coho salmon includes
waters both downstream from the reservations and
also upstream from the reservations to the Iron Gate
Dam. The dam is the stopping point for the salmon’s
spawning migration because there is no way for the
fish to pass through the dam. J.A. 2109–10, J.A. 2616.
In addition, the dam controls the water of the Klamath
River that flows to it from Upper Klamath Lake. As it
is the habitat for the salmon they fish, and as it flows
through their reservations, the Yurok and Hoopa
28

Although it is difficult to ascertain the position of the
Klamath River as it relates to the Hoopa Valley reservation in
the pertinent maps in the record, e.g., J.A. 3182, the amicus
brief of the Hoopa Valley Tribe asserts that the Klamath River
flows through the Hoopa Valley reservation. Amicus Br. of Hoopa
Valley Tribe Supporting Defendants-Appellees and Affirmance at
1. Appellants do not state otherwise.

App. 58
Valley Tribes have an implied water right that includes the Klamath River and the flows therein as controlled by the Iron Gate Dam.29
We thus conclude that the Court of Federal Claims
did not err when it determined that the Tribes’ reserved water rights encompass Klamath Project water.
We turn now to the question of whether the Tribes’
rights were properly exercised.
As noted, appellants contend that it was contrary
to Oregon law, specifically, Or. Rev. Stat. § 540.045(4),
and thus the Reclamation Act, for Klamath Project water to be “delivered” to anyone other than the Klamath
farmers without there first being a final adjudication
and quantification. Appellants’ Br. 38–40. We disagree.
To begin with, the statute appellants cite simply
defines the term “existing water rights of record,” as it
relates to water to be distributed by a water district’s
watermaster, to include “all completed permits, certificates, licenses and ground water registration statements filed under [Or. Rev. Stat. § 537.605] and related
29

Appellants argue that “[t]he Court of Federal Claims . . .
made no finding to support a conclusion that the amount of water
Reclamation released to maintain instream flows was necessary
to fulfill the salmon-fishing rights of the Hoopa and Yurok
Tribes.” Reply Br. 3. However, as noted above, the court based its
conclusion on the reasoning laid out by the NMFS Biological
Opinion, which indicated that a reasonable and prudent alternative was to operate the Project in a manner that provided certain
levels of minimum water releases into the Klamath River between April and September of 2001 that, in NMFS’s judgment,
would be “sufficient to avoid jeopardizing the species.” J.A. 2997–
99. We see no clear error in this factual determination.

App. 59
court decrees.” Or. Rev. Stat. § 540.045(1), (4); see also
Or. Rev. Stat. §§ 540.010 (stating that the state shall
be divided into water districts), 540.020 (explaining
that each water district shall have an appointed watermaster). We fail to see how this statute relates to the
issue of tribal rights that is before us in this case.
More importantly, federal courts have consistently
held that tribal water rights arising from federal reservations are federal water rights not governed by
state law. Arizona v. California, 373 U.S. at 597; see also
Cappaert, 426 U.S. at 145; Colville Confederated Tribes
v. Walton, 752 F.2d 397, 400 (9th Cir. 1985).
As the “volume and scope of particular reserved
rights . . . are federal questions,” Colorado River Water
Conservation District v. United States, 424 U.S. 800,
813 (1976), there is no need for a state adjudication to
occur before federal reserved rights are recognized. See
Agua Caliente Band of Cahuilla Indians v. Coachella
Valley Water Dist., 849 F.3d 1262, 1272 (9th Cir. 2017)
(“[S]tate water rights are preempted by federal reserved rights.”). Thus, given the facts of record in this
case, it was not necessary for the Tribes’ rights to have
been adjudicated before the Bureau acted.30
30

In support of their argument that parties whose water
rights are junior to theirs should have been curtailed first, appellants point us to websites for executing water rights queries directed to Oregon’s Water Resource Department and to the
California State Water Resource Control Board. Appellants’ Br.
34 nn.131 & 132. A user selecting the relevant time period for
the Klamath Basin watersheds on these websites is presented
with lists of over a thousand entities claiming water rights.
Given that there are hundreds of plaintiffs in this case, to

App. 60
Appellants’ reliance on United States v. Puerto
Rico is misplaced. Puerto Rico involved the McCarran
Amendment, 43 U.S.C. § 666, a law that waived the
sovereign immunity of the United States in suits for
the general adjudication or administration of water
rights. 287 F.3d at 213. The issue before the court was
whether the statute divested the United States of its
sovereign immunity so as to compel the United States
Navy to participate in administrative proceedings concerning the Commonwealth of Puerto Rico’s efforts to
impose restrictions on the extraction of water from the
Rio Blanco River. Id. The court held that the McCarran
Amendment did not waive sovereign immunity with
respect to the proceedings because the proceedings
did not involve a “suit” within the meaning of the
McCarran Amendment. Id. at 214. In arriving at its
decision, the court discussed United States v. Oregon,
44 F.3d 758 (9th Cir. 1994), relied upon by Puerto Rico.
In that case, the court considered a statutory scheme
having both administrative and judicial components.
determine (1) which entities were junior to which appellants, and
(2) the basis for those entities’ junior status, is beyond the purview of this court, particularly when it is not clear from the record
that this information was before the Court of Federal Claims. See
Pullman-Standard v. Swint, 456 U.S. 273, 291–92 (1982) (“[A]
Court of Appeals should not . . . resolve[ ] in the first instance [a]
factual dispute which [was not] considered by the District Court.”)
(citing DeMarco v. United States, 415 U.S. 449, 450 n.* (1974)).
Further, given the ongoing, unfinished status of the Klamath
Adjudication in 2001, we see no reason for the Bureau to have
curtailed junior users’ water before curtailing appellants’ water,
particularly when it is not evident that doing so would have been
sufficient to satisfy the Tribes’ reserved water rights.

App. 61
Oregon, 44 F.3d at 767. The Puerto Rico court found
that the Oregon law in that case “construct[ed] a seamless proceeding, possessing both administrative and
judicial components. 287 F.3d at 219 (citing Oregon, 44
F.3d at 764). Puerto Rico’s administrative scheme, the
court determined, did not “establish a seamless process
with both administrative and judicial components.
Rather, it contemplates a purely administrative proceeding.” Id. We are unable to see how Puerto Rico is
pertinent to this case.
Nor do we believe that the Yurok and Hoopa Valley
Tribes waived their rights because they did not participate in the Klamath Adjudication. For the reasons discussed above, their rights are federal reserved water
rights not governed by state law. Moreover, states have
the ability to adjudicate rights in a water or river system within their jurisdiction, but they cannot adjudicate water rights in another state. United States v.
Dist. Court for Eagle County, Colo., 401 U.S. 520, 523
(1971) (“No suit by any State could possibly encompass
all of the water rights in the entire Colorado River
which runs through or touches many states. The ‘river
system’ must be read as embracing one within the
particular State’s jurisdiction.”). Thus, the Yurok and
Hoopa Valley Tribes’ lack of participation in the state
of Oregon’s Klamath Adjudication did not preclude
their entitlement to water that flows in the Klamath
River below the Iron Gate Dam in California.
Finally, we are not persuaded by appellants’ argument, relying upon Gros Ventre v. United States, that
the Bureau of Reclamation lacked authority in 2001 to

App. 62
withhold Klamath Project water. In the first place, as
noted above, in making this argument, appellants refer
to “a nonexistent Hoopa/Yurok water right in Klamath
Project water” and “an as-yet-undetermined and unquantified Klamath Tribes’ water right.” As just seen,
however, the Yurok and Hoopa Valley Tribes did in
fact have reserved rights in Klamath Project water,
while the Klamath Tribes also had reserved rights in
Klamath Project water. Furthermore, as we have just
demonstrated, none of these rights had to be quantified. Beyond that, appellants’ reliance on Gros Ventre
is misplaced. In that case, the Ninth Circuit determined that the Gros Ventre Tribe, Assiniboine Tribe,
and Fort Belknap Indian Community Council did not
have a cause of action for breach of the government’s
tribal trust obligations separate from any cause of action arising from a statutorily granted right. 469 F.3d
at 807, 809–14. Here, the Bureau’s actions to comply
with the ESA and to protect tribal resources were one
and the same. Whether the Tribes would have had a
separate cause of action against the United States had
the Bureau not complied with the ESA is not before us.
In sum, given the facts of this case, the federal reserved rights of the Tribes need not have been adjudicated or quantified before they were asserted to protect
the Tribes’ fishing rights.

App. 63
CONCLUSION
For the foregoing reasons, we agree with the Court
of Federal Claims that appellants’ water rights were
subordinate to the Tribes’ federal reserved water
rights. We therefore see no error in the court’s holding
that the Bureau of Reclamation’s action in temporarily
halting deliveries of Klamath Project water in 2001 did
not constitute a taking of appellants’ property. Because
the parties agree this ruling is dispositive of the case,
we need not reach appellants’ remaining arguments on
appeal noted above.31
AFFIRMED
COSTS
Each party shall bear its own costs.

31

In addition, in view of our disposition of the case, it is not
necessary for us to address appellees’ argument that the Court of
Federal Claims erred in employing a physical, instead of a regulatory, taking analysis. We therefore express no view on the issue.

APPENDIX

App. 64

U.S. Fish & Wildlife Serv., Map of the Klamath River Basin (2003),
available at https://www.fws.gov/yreka/Maps/KlamathRvBasinV4.jpg.

App. 65
In the United States Court of Federal Claims
*

*

*

*

*

*

*

*

* *
LONNY E. BALEY, et al., *
*
JOHN ANDERSON
*
FARMS, INC., et al.,
* Nos. 1-591L; 7-194C
Plaintiffs,
*
v.
* Filed: October 23, 2017
*
UNITED STATES,
*
Defendant. *
* * * * * * * * * *
CLASS CERTIFICATION ORDER

The above captioned cases, having been assigned
to two previous Judges, neither of whom had taken action on plaintiffs’ requests for class certification, on
January 5, 2017, plaintiffs filed a Renewed Motion
for Class Certification (ECF No. 479). On January 8,
2017, the United States filed its Opposition to Plaintiffs’ Renewed Motion for Class Certification (ECF No.
488). In order to get the opt-in process started, the
court orally granted plaintiffs’ Renewed Motion for
Class Certification during a telephone hearing conducted on January 10, 2017, and now issues this confirming Order GRANTING plaintiffs’ motion for class
certification.

App. 66
I.

CLASS CERTIFICATION
A. The Proposed Class Satisfies the Requirements of RCFC 23

Having considered plaintiffs’ Renewed Motion for
Class Certification and the United States’ opposition
to that motion, the court found that the proposed class
meets both the prerequisites for a class action and the
requirements to maintain a class action in Rule 23
(2017) of the Rules of the Court of Federal Claims
(RCFC). This court has summarized these prerequisites and requirements into five elements: (1) numerosity; (2) commonality; (3) typicality; (4) adequacy; and
(5) superiority. The court found that the proposed class
in this case meets each of these five elements and concluded that a class should be certified.
B. Class Definition and Identification of
Class Issues
1. Class Definition
The court adopted the class definition proposed by
plaintiffs, as modified below.
The class certified by the court was:
All owners (or their lessees) of agricultural
land who claim an appurtenant right to receive and put to beneficial use water from the
Klamath Project in 2001, and allege a Fifth
Amendment taking of their right to receive
and use such water in 2001 and impairment
of their water right in violation of the Klamath River Basin Compact. This includes

App. 67
owners or lessees of land located within or receiving Klamath Project water from the following districts:
Enterprise Irrigation District
Klamath Basin Improvement District
Klamath Drainage District
Klamath Hills District Improvement Company
Klamath Irrigation District
Malin Irrigation District
Midland District Improvement Company
Pine Grove Irrigation District
Poe Valley Improvement District
Shasta View Irrigation District
Sunnyside Irrigation District
Tulelake Irrigation District
Van Brimmer Ditch Company
Westside Improvement District No. 4
Excluded from the class are landowners (or
their lessees) located on the east side of the
Klamath Project who received Klamath Project water in 2001 from Gerber and Clear
Lake Reservoirs.
The court found that the creation of subclasses
was not necessary in order to provide notice to putative
class members and an opportunity for class members
to opt-in to this action at the time.
2. Identification of Class Claims and
Issues
The class alleged a taking and impairment of their
appurtenant right to receive and use irrigation water

App. 68
from the Klamath Project in 2001 without just compensation under the Fifth Amendment to the United
States Constitution and under the Klamath River Basin Compact. The class sought a monetary judgment
representing the fair market value of the water allegedly taken by the United States in 2001, plus interest,
and statutory attorneys’ fees and costs under section
304(c) of the Uniform Relocation Assistance and Real
Property Acquisition Policies Act of 1970, 42 U.S.C.
§ 4654(c). The issues raised included: (a) did the class
members have a property right that entitled them to
receive irrigation water from the Klamath Project in
2001, (b) was that right taken in 2001, and (c) if there
was a taking, what is the amount of just compensation
due. The United States contested whether the named
plaintiffs and proposed class members have a property right in the use of Klamath Project water and
whether there was a taking of any right to the use of
Klamath Project water held by the landowners or their
lessees.
3. Class Representatives
The following persons and entities were designated as class representatives: Lonny E. Baley, Mark
R. Trotman, Baley Trotman Farms, James L. Moore,
Cheryl L. Moore, Daniel G. Chin, Deloris D. Chin, Wong
Potatoes, Inc., Michael J. Byrne, Byrne Brothers, John
Anderson Farms, Inc., Buckingham Family Trust, Eileen Buckingham, Keith Buckingham, Shelly Buckingham, Constance and John Frank, Jeff and Sandra
Hunter, Hill Land & Cattle Co., Inc., McVay Farms,

App. 69
Inc., Barbara McVay, Matthew K. McVay, Michael
McVay, Ronald McVay, Suzan McVay, Tatiana V. McVay,
Henry and Patricia O’Keeffe, Shasta View Produce,
Inc., and Edwin Stastny, Jr.
C. Appointment of Class Counsel
Plaintiffs sought the appointment of Nancie G.
Marzulla of Marzulla Law, LLC, as class counsel under
RCFC 23(g). The court found that Nancie G. Marzulla
satisfied the requirements to serve as class counsel under RCFC 23(g) and, therefore, appointed Ms. Marzulla
as class counsel in this action.
II.

CLASS NOTICE PLAN

The parties conferred and filed a joint proposed
plan for providing notice to the class, the proposed
form of notice and opt-in forms to be returned by potential class members. The proposed notice met the requirements of RCFC 23(c)(2)(B). The proposed notice
plan was structured to allow notice to be provided and
for class members to opt-in by a deadline of May 19,
2017. In accordance with the verbal Order approved by
the court, on April 21, 2017, Class Counsel provided individual notice by first-class mail to prospective class
members, and notice by publication.
III. PROPORTED CLASS MEMBERS
Persons seeking to opt in to the class by the deadline of May 19, 2017 filled out Entry of Appearance

App. 70
Forms. In total, plaintiffs’ counsel received 4,376 Entry
of Appearance Forms, which counsel provided to the
defendant. Subsequently, on May 22, 2017, plaintiffs
filed their Amendment to the Complaint with a list of
all persons who submitted Entry of Appearance
Forms for the purpose of opting in to the class by the
deadline of May 19, 2017, and pursuant to the class notice plan, the class was closed upon the filing of this
entry of appearance list. The defendant began the process of reviewing the eligibility of purported class
members, and, as of the entry of this Order, notified
plaintiffs’ counsel of objections to initial eligibility for
the [sic] some Entry of Appearance Forms and agreement to others.
IV. TRIAL DECISION
On September 29, 2017, the court issued a decision
regarding the plaintiffs’ alleged taking and impairment claim. The court dismissed the claims of any class
members whose alleged beneficial right to Klamath
Project Water is derived from their ownership of shares
held in the Van Brimmer Ditch Company. Additionally,
the court found that for any remaining class members
who could ultimately prove they are properly in the
class, those class members held beneficial interests in
receiving water from the Klamath Project in 2001, but
that based on the superior water rights held by the
Klamath, Yurok, and Hoopa Valley Tribes, those remaining class members were not entitled to receive
water in 2001. Therefore, the court concluded that the
government’s actions in 2001, did not constitute a

App. 71
taking of these plaintiffs’ property under the Fifth
Amendment to the United States Constitution or effect an impairment of their rights under the Klamath
Compact.
A. Status of the Ongoing Class Certification Process
The class certification process, described above, is
not completed. Given that the court has issued a decision on liability, and will soon enter judgment dismissing the cases, and because resolution of defendant’s
objections to initial eligibility for the [sic] some Entry
of Appearance Forms may require extensive and expensive gathering and production of title records and
other documents, the court INSTRUCTS the parties
to stop work on the class certification process. If the
plaintiffs file an appeal of this court’s liability decision,
and the United States Court of Appeals for the Federal
Circuit reverses the decision and remands the cases
back to the undersigned, the court will revisit the class
certification process with the parties at that time. The
court’s instruction to stop work on the class certification process is not intended to act as a waiver of any
party, or individual’s rights, or to prevent any future
determination of individual plaintiffs’ class eligibility.
IT IS SO ORDERED.
s/Marian Blank Horn
MARIAN BLANK HORN
Judge

App. 72
In the United States Court of Federal Claims
Nos. 1-591L, 7-194C, 7-19401C, 7-19402C, 7-19403C,
7-19404C, 7-19405C, 7-19406C, 7-19407C, 7-19408C,
7-19409C, 7-19410C, 7-19411C, 7-19412C, 7-19413C,
7-19414C, 7-19415C, 7-19416C, 7-19417C, 7-19418C,
7-19419C, 7-19420C
Filed: September 29, 2017
* * * * * * * * *
LONNY BALEY, et al.,1
and JOHN ANDERSON
FARMS, INC., et al., For
Themselves, and as
Representatives of a
Class of Similarly
Situated People,
Plaintiffs,
v.
UNITED STATES,
v.
Defendant,
PACIFIC COAST
FEDERATION OF
FISHERMEN’S
ASSOCIATIONS,
Defendant-Intervenor.
*

*
1

*

*

*

*

*

*

*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
* *

Takings, Physical or
Regulatory Taking,
Permanent or
Temporary Taking,
Water Rights, Tribal
Rights, Endangered
Species Act, Federal
Reserved Rights;
Motions for
Reconsideration.

As discussed below, case number 1-591L was re-captioned
from Klamath Irrigation District, et al. v. United States to Lonny
Baley, et al. v. United States by order of the court on February
14, 2017 after the claims of Klamath Irrigation District, along
with a number of plaintiffs were dismissed from the case.

App. 73
Nancie Gail Marzulla, Marzulla Law, LLC,
Washington D.C. for plaintiffs. With her was Roger G.
Marzulla, Marzulla Law, LLC. Of Counsel were William M. Ganong, Special Counsel, Klamath Irrigation
District, Klamath Falls, OR and Alan I. Saltman and
Kathleen H. Barron, Smith Currie & Hancock LLP,
Washington, D.C.
Kristine S. Tardiff, Trial Attorney, for defendant.
With her were Jeffrey H. Wood, Acting Assistant Attorney General, and Edward C. Thomas, Natural Resources Section, Environment and Natural Resources
Division, United States Department of Justice, Washington, D.C. Of Counsel were Stephen Palmer, Office
of the Regional Solicitor, United States Department of
the Interior, Sacramento, CA, and Christopher
Keifer, Office of the General Counsel, National Oceanic and Atmospheric Administration, Long Beach,
CA.
Todd D. True, Earthjustice, Seattle, WA for defendant-intervenor.
Susan Y. Noe, Native American Rights Fund,
Boulder, CO for amicus Klamath Tribes.
FINDINGS OF FACT
Plaintiffs in the above-captioned cases are a consolidated class of farmers in southern Oregon and
northern California, who claim they held a right to receive water from the United States Department of the
Interior, Bureau of Reclamation’s Klamath River Basin

App. 74
reclamation project (the Klamath Project) in 2001. The
cases arise from the government’s actions in 2001,
when defendant, acting through the United States Department of the Interior, Bureau of Reclamation, temporarily terminated water deliveries to the plaintiffs in
order to meet the requirements of the Endangered
Species Act, 16 U.S.C. § 1531, et seq. (2000), as outlined
in two Biological Opinions from the United States Fish
and Wildlife Service (FWS) and the United States National Marine Fisheries Service (NMFS), and its tribal
trust obligations to several Native American tribes. After multiple opinions issued by earlier assigned judges,
and, following appeal of one of those earlier decisions
to the United States Court of Appeals for the Federal
Circuit, remand to this court, and reassignment to this
judge, a trial was held leading to the instant decision.
Plaintiffs allege, in their remaining claims, that the
government’s actions constituted compensable takings
of their property under the Fifth Amendment to the
United States Constitution by depriving them of their
alleged rights to use Klamath Project water, as well as
an impairment of their rights under the Klamath
River Basin Compact, Pub. L. No. 85-222, 71 Stat. 497
(1957) (the Klamath Compact).
I.

The Klamath Project

The Klamath Project, an irrigation project straddling the southern Oregon and northern California
borders, supplies water to hundreds of farms, comprising approximately 200,000 acres of agricultural land,
including those in the Klamath River Basin, as well as

App. 75
to certain National Wildlife Refuge lands owned by the
United States. The agricultural irrigation water is
used by the farmers and ranchers in the Klamath Project area to grow a variety of crops, including alfalfa,
irrigated pasture, small grains, potatoes, onions, sugar
beets, as well as several other miscellaneous crops. The
Klamath Project is managed and operated by the
United States Bureau of Reclamation. The Bureau of
Reclamation also manages the Klamath Project to protect tribal trust resources that depend on Klamath
Project Water, including the Lost River and shortnose
suckers and the Southern Oregon/Northern California
Coast (SONCC) coho salmon, all three of which species
that are also protected under the Endangered Species
Act.
A. Appropriation of Klamath Project Water Rights by the United States
The Klamath Project is one of the earliest federal
reclamation projects. Engineering investigations for
the Klamath Project began in 1903, and, in 1905, the
United States Congress authorized the Klamath Project pursuant to the Reclamation Act of 1902, which
provided for federal financing, construction, and operation of water storage and distribution projects. See
Reclamation Act of 1902, Pub. L. No. 57-161, 32 Stat.
388 (codified as amended at 43 U.S.C. § 371, et seq.
(2012)). Section 8 of the Act requires the Secretary of
the Interior to comply with state law regarding the appropriation of water for irrigation (to the extent it is
not inconsistent with federal law). See 43 U.S.C. § 383.

App. 76
Section 8 also provides that: “The right to the use of
water acquired under the provisions of this Act shall
be appurtenant to the land irrigated, and beneficial
use shall be the basis, the measure, and the limit of the
right.” 43 U.S.C. § 372.
On February 22, 1905, the Oregon legislature enacted a statute specifically related to appropriations of
water for Reclamation Act projects, such as the Klamath Project. See 1905 Or. Gen. Laws 401-02. The statute provided:
Whenever the proper officers of the United
States, authorized by law to construct works
for the utilization of water within this State,
shall file in the office of the State Engineer a
written notice that the United States intends
to utilize certain specified waters, the waters
described in such notice and unappropriated
at the time of the filing thereof shall not be
subject to further appropriation under the
laws of this State, but shall be deemed to have
been appropriated by the United States; provided, that within a period of three years from
the date of filing such notice the proper officer
of the United States shall file final plans of the
proposed works in the office of the State Engineer for his information; and provided further,
that within four years from the date of such
notice the United States shall authorize the
construction of such proposed work.
Id. (emphasis in original). Pursuant to the terms of the
1905 Oregon statute, on May 17, 1905, the United
States Reclamation Service, the predecessor to the

App. 77
United States Bureau of Reclamation, filed a notice
with the Oregon State Engineer stating that “the
United States intends to utilize . . . [a]ll of the waters
of the Klamath Basin in Oregon, constituting the entire drainage basins of the Klamath River and Lost
River, and all of the lakes, streams and rivers supplying water thereto or receiving water therefrom” for
purposes of “the operation of works for the utilization
of water . . . under the provisions of the . . . Reclamation Act.” Also pursuant to the terms of the 1905 Oregon statute, the Reclamation Service subsequently
filed with the State Engineer plans of proposed works
and proof of authorization of the Klamath Project.
Prior to the development of the Klamath Project, private landowners and irrigation companies in the area
ultimately to be served by the Klamath Project had begun to divert water for irrigation purposes. The Reclamation Service acquired the interests of such entities
in most of these pre-Klamath Project water rights or
appropriations and integrated them into the Klamath
Project.
The property rights claimed by the plaintiffs in
this litigation relate to water that is diverted from Upper Klamath Lake, a large, shallow lake in which water is stored by means of a dam (the Link River Dam),
and from locations downstream of Upper Klamath
Lake and the Link River Dam on the Klamath River in
Oregon. The water is diverted out of Upper Klamath
Lake and the Klamath River and then conveyed
through canals and laterals to individual users in both
California and Oregon within the Klamath Project.

App. 78
The works which divert the water were constructed by
the United States between 1906 and 1966 and are currently owned by the United States. The operation and
maintenance of all of the federally owned diversion
works downstream of the headgates of Upper Klamath
Lake, as well as works that divert water directly from
the Klamath River, however, have been transferred to
two Irrigation Districts, the Klamath Irrigation District and the Tulelake Irrigation District, by contract,
subject to the rules and regulations of the United
States Secretary of the Interior. These two Irrigation
Districts operate and maintain works that distribute
this diverted water to serve benefitted lands. Other Irrigation Districts and individuals that constructed and
own their own diversion and delivery facilities also are
parties to contracts with the United States for water
made available by the Klamath Project. The individual
plaintiff landowners (or their lessees) apply the diverted water to irrigate crops.
B. Contracts Between the United States
and Klamath Project Water Users
Water is generally diverted and delivered by the
Klamath Project pursuant to state law (to the extent it
is not inconsistent with federal law) and pursuant to
perpetual repayment contracts between the Bureau of
Reclamation and Irrigation Districts, or Warren Act
contracts between the Bureau of Reclamation and Irrigation Districts or individuals. Water also is delivered to a smaller number of users pursuant to
settlement contracts and as part of lease agreements

App. 79
for lands in the National Wildlife Refuges located
within the Klamath Project.
1. Repayment Contracts
The Bureau of Reclamation has entered into repayment contracts with two large Irrigation Districts,
the Klamath Irrigation District, which covers the
“Main Division” of the Klamath Project, the approximately 40,000 acres of land that were the first developed for irrigation as part of the Klamath Project, and
the Tulelake Irrigation District, which covers approximately 63,000 acres of reclaimed lands formerly submerged by Tule Lake in California.2 Related to these
contracts, however, are several other contracts that
were entered into in the early years of the Klamath
Project.
a. Form A and B Applications
Prior to the establishment of Irrigation Districts,
the Department of the Interior had adopted two forms
of applications to receive water from reclamation projects such as the Klamath Project, “Form A” and “Form
B.” See Laws and Regulations Relating to the Reclamation of Arid Lands, 45 L.D. 385, 406-08 (May 18,
1916). The Form A application was to be entered into
by homesteaders settling within reclamation project
lands. Id. at 406. As part of the Klamath Project, Tule
2

Although Tule Lake is spelled as two words, the name of
the Tulelake Irrigation District does not include the space between the two words.

App. 80
Lake was dewatered and its reclaimed lands were
opened to homesteaders in segments between 1922
and 1948. Pursuant to the terms of the HomesteadReclamation Act, Pub. L. No. 62-256, 37 Stat. 265
(1912), these homesteaders were permitted to settle
these lands in exchange for payments, which varied
over time, designed to repay Klamath Project costs.
Twenty eight of these Form A applications, entered
into by the predecessors of class members owning
property within the Tulelake Irrigation District, were
admitted into evidence during the trial. The Form A
application was titled “APPLICATION FOR PERMANENT WATER RIGHT,” (capitalization in original),
and contained the following provision describing the
“water right” at issue in the application:
3. Description of water right.—The
quantity of water to be furnished hereunder
shall be that quantity which may be applied
beneficially in accordance with good usage in
the irrigation of the land described in paragraph 2: Provided, That in case of a shortage
at any time the amount to be furnished shall
be an equitable proportionate share, as nearly
as practical operations will permit, of the water actually available at the time for all of the
area being watered from the same source of
supply, such proportionate share to be determined by the project manager. . . . On account
of drought, inaccuracy in distribution, or other
cause, there may occur at times a shortage in
the water supply, and while the United States
will use all reasonable means to guard
against such shortages, in no event shall any

App. 81
liability accrue against the United States, its
officers, agents, or employees, for any damage
direct or indirect arising therefrom.
(emphasis in original). Additionally, a provision of the
Form A application titled: “Conditions of application to be continuing” stated: “All of the within
terms and conditions, in so far as they relate to said
land, shall be a charge upon said land to run with the
title to same.” (emphasis in original).
Upon completion of the homesteading process, the
United States issued a patent deed to the homesteader.
Twenty eight patent deeds were admitted into evidence at trial, one for each of the parcels for which a
Form A application was admitted into evidence.
Twenty seven of the twenty eight patent applications
admitted at trial involved land in California and the
other patent deed involved land in Oregon. Each of
these patent deeds states:
NOW KNOW YE, That the UNITED STATES
OF AMERICA, in consideration of the premises, and in conformity with the several Acts
of Congress in such case made and provided,
HAS GIVEN AND GRANTED, and by these
presents DOES GIVE AND GRANT, unto the
said [name] and to his heirs, the Tract above
described, together with the right to the use of
water from the Klamath Reclamation Project
as an appurtenance to the irrigable lands in
said tract; TO HAVE AND TO HOLD the
same, together with all the rights, privileges,
immunities, and appurtenances, of whatsoever nature, thereunto belonging, unto the

App. 82
said [name] and to his heirs and assigns forever . . . but excepting, nevertheless, and reserving unto the United States, rights of way
over, across, and through said lands for canals
and ditches constructed, or to be constructed,
by its authority. . . .
(capitalization in original). Additionally, some of the
patent deeds contained clauses reserving to the United
States “all uranium, thorium or any other material
which is or may be determined to be peculiarly essential to the production of fissionable materials” or rights
of way for the maintenance of power transmission
lines.
The Form B application was to be entered into by
owners of private lands that were included as part of
reclamation projects. See Laws and Regulations Relating to the Reclamation of Arid Lands, 45 L.D. 385, 40607. One Form B application was admitted into evidence
at trial. Regarding the water to be provided to the applicant, Form B stated:
2. The quantitative measure of the water
right hereby applied for is that quantity of water which shall be beneficially used for the irrigation of said irrigable lands up to, but not
exceeding [a quantity which varied by applicant] acre-fee per acre per annum, measured
at the land; and in no case exceeding the
share, proportionate to irrigable acreage, of
water supply actually available as determined
by the Project Engineer or other proper officer
of the United States, or of its successors in the
control of the project, during the irrigation

App. 83
season for the irrigation of lands under said
unit. . . .
Under the Department of Interior regulations which
governed Form B applications, upon acceptance by the
Bureau of Reclamation, a Form B application “becomes
a water-right contract.” 45 L.D. 385, 408.
b. Klamath Water Users Association
Form B also included a provision requiring that
Form B applicants enter into a contract with a water
users’ association, stating:
This application must bear the certificate, as
hereto attached, of the water users’ association under said project, which has entered
into contract with the Secretary of the Interior. . . . If the Secretary of the Interior has
made no contract with a water users’ association under said project, the applicant agrees
to file, upon his direction, evidence of membership in the water users’ association organized
under the said project. . . .
George Moss Driscoll, who, at the time of trial, held the
position of senior water and land specialist for the Bureau of Reclamation’s Klamath Basin area office, and
previously was a water contracts specialist for the Bureau of Reclamation, testified at trial that, “in addition
to the form A/form B water right applications, [the Bureau of ] Reclamation as a matter of policy initially intended to contract” with such water users associations,
which “would be the entity through which Reclamation

App. 84
intended to directly work with and communicate with
water users on the project.” In the case of the Klamath
Project, the relevant association was the Klamath Water Users Association (KWUA). The contract between
the United States and the KWUA, dated November 6,
1905, was admitted into evidence at trial. Under the
contract, KWUA guaranteed payments for the Klamath Project works, to be apportioned among its members. In exchange, only members of the KWUA would
be accepted as applicants for water rights in the Klamath Project. Regarding such rights, the contract specified:
That the aggregate amount of such rights to
be issued shall, in no event, exceed the number of acres of land capable of irrigation by the
total amount of water available for the purpose . . . and that the Secretary of the Interior
shall determine the number of acres so capable of such irrigation as aforesaid, his determination to be made upon due and expert
consideration of all available data, and to be
based upon and measured and limited by the
beneficial use of water.
The KWUA contract entitles the signor to receive
a specified number of shares in the KWUA. These
shares, as well as “all rights and interest represented
thereby or existing or accruing by reason thereof or incident thereto,” were to be “inseparably appurtenant”
to the real estate parcels specified in the contract.
Ownership of KWUA shares entitled their holder to
“the right to have such water delivered to the owner
thereof by the Association for the irrigation of said

App. 85
lands, as the Association shall from time to time acquire or control means for that purpose.” A copy of the
stock subscription and contract used by KWUA also
was admitted into evidence at trial.
c. Klamath Irrigation District and
Tulelake Irrigation District Repayment Contracts
The November 6, 1905 contract between the
United States and the KWUA was eventually supplanted by a July 6, 1918 repayment contract between
the United States, the KWUA, and the newly formed
Klamath Irrigation District. The July 6, 1918 contract
“dissolved” KWUA and transferred to the Klamath Irrigation District, an Oregon municipal corporation, all
irrigable lands for which water rights applications to
the United States had been made and/or which were
covered by stock subscriptions with the KWUA, as well
the entirety of KWUA’s liability to the United States
for Klamath Project construction costs. The July 6,
1918 contract was supplemented by a November 29,
1954 “Amendatory Contract” between the United
States and the Klamath Irrigation District. The preamble of the November 29, 1954 contract states that
“the District is obligated, among other things, to repay
to the United States that part of the expenditures
made by the United States in the construction of the
Project which is properly allocable to the District” and
that “the District, as the duly authorized representative of the water users within its geographic boundaries, desires to enter into an amendatory contract with

App. 86
the United States, which would provide for the District
to take over the operation and maintenance of certain
of the Project works.” Under the November 29, 1954
repayment contract, the Klamath Irrigation District
assumed responsibility for the operation and maintenance of certain works in the Klamath Project from the
United States and agreed to provide water and drainage services through those works to certain other Irrigation Districts, including the Tulelake Irrigation
District, and certain individuals located outside the
Klamath Irrigation District. The November 29, 1954
contract also contained the following provision regarding water shortages:
UNITED STATES NOT LIABLE
FOR WATER SHORTAGE
26. On account of drought or other causes,
there may occur at times a shortage in the
quantity of water available in Project reservoirs and, while the United States will use all
reasonable means to guard against such
shortage, in no event shall any liability accrue
against the United States or any of its officers,
agents, or employees for any damage, direct or
indirect, arising therefrom and the payments
to the United States provided for herein shall
not be reduced because of any such shortages.
(capitalization in original). The November 29, 1954
contract between the United States and the Klamath
Irrigation District was in effect in 2001.
The Tulelake Irrigation District, a California municipal corporation, services water users in the

App. 87
reclaimed lands of Tule Lake that were opened to
homesteaders between 1908 and 1948. These homesteaders would have submitted a Form A application
to receive their water rights from the Klamath Project.
The preamble of the contract between the Tulelake Irrigation District and the United States states:
[T]he District desires to contract, pursuant to
the Federal reclamation laws and the laws of
the State of California, for the furnishing by
the United States of a water supply form the
[Klamath] Project works and for the repayment of the construction charges hereinafter
set forth, less such credits as are applicable
under the Federal reclamation laws and the
provisions of this contract; and . . . the parties
desire by this contract to provide, in accordance with and subject to the terms and conditions hereinafter provided, for the transfer to
the District of the operation and maintenance
of works and properties used or useful for the
delivery of water to and protection of the
lands within the District. . . .
Similar to the Klamath Irrigation District, under a
September 10, 1956 contract with the United States,
the Tulelake Irrigation District assumed responsibility
for the operation and maintenance of Klamath Project
works used to supply water to the lands within the district. The September 10, 1956 contract contained a water shortage provision that was identical to the one
contained in the November 29, 1954 contract between
Klamath Irrigation District and the United States. The
September 10, 1956 contract between the United

App. 88
States and the Tulelake Irrigation District was in effect in 2001.
2. Warren Act Contracts
Warren Act contracts were made with both individual water users and Irrigation Districts which supplied water to individuals within their boundaries.
Warren Act contracts cover lands that, unlike those
within the Klamath Irrigation District and Tulelake
Irrigation District, were not part of the Klamath Project when it was originally developed. Geographically,
these lands are scattered throughout the Klamath
Project. These contracts were made pursuant to the
Warren Act of 1911, Pub. L. No. 61-406, 36 Stat. 925
(codified at 43 U.S.C. §§ 523-25 (2012)). The Warren Act
authorizes the Secretary of the Interior “to cooperate
with irrigation districts, water-users’ associations, corporations, entrymen, or water users for the construction or use of such reservoirs, canals, or ditches as may
be advantageously used by the Government and irrigation districts, water-users’ associations, corporations, entrymen, or water users for impounding,
delivering, and carrying water for irrigation purposes.”
43 U.S.C. § 524. In the Klamath Project, water is delivered to Warren Act contractors through works operated by the Klamath Irrigation District and the Van
Brimmer Ditch Company, an Oregon business discussed below. Irrigation Districts relevant to this action who have Warren Act contracts with the United
States include: the Enterprise Irrigation District; the
Klamath Basin Improvement District; the Klamath

App. 89
Drainage District; the Malin Irrigation District; the
Midland District Improvement Company; the Pine
Grove Irrigation District; the Poe Valley Improvement
District; the Shasta View Irrigation District; the
Sunnyside Irrigation District; and the Westside Improvement District. Warren Act contracts for each of
these Irrigation Districts were admitted into evidence
at trial. These Irrigation District contracts were entered into between 1920 and 1962, although some individual contracts were entered into as early as 1915.
The Warren Act contracts entered into by the Irrigation Districts all contain similar or identical language in several key provisions relevant in the current
cases. In each of the contracts, the Irrigation District
agrees to pay the United States a specified sum of
money in exchange for delivery of Klamath Project water. All of these contracts contain language stating that
rights to the use [sic] the water acquired under the contracts are inferior to prior rights reserved for the lands
of the Klamath Project. The Bureau of Reclamation
has interpreted this to mean that these rights are junior to those held by the Van Brimmer Ditch Company,
Klamath Lake Irrigation District, and Tulelake Irrigation District and, in the case of a drought, would receive Klamath Project water only after the rights of
users of these three entities had been fully satisfied.
Each of the contracts defines an upper limit to the
amount of water the Irrigation District is entitled to
receive, although, the exact limit varies by contract.
The contracts for the Malin Irrigation District, the
Sunnyside Irrigation District, the Shasta View

App. 90
Irrigation District, the Enterprise Irrigation District,
and the Pine Grove Irrigation District limit the
amount to “two acre feet per acre of irrigable land during the usual irrigation season.” The contracts for the
Malin Irrigation District, the Sunnyside Irrigation
District, and the Shasta View Irrigation District contain additional language stating that the amount of
water provided “shall not exceed the amount that can
be furnished, as determined by the Secretary, at a cost
of Thirty-four Dollars ($34.00) . . . and in no event shall
it exceed 0.6 acre-feet of water per irrigable acre in any
one month.” The Westside Improvement District’s contract entitles them to receive a maximum of “two and
one-half (2½) acrefeet per-acre per annum,” while the
Klamath Basin Irrigation District’s contract limits
them to an amount of water “not to exceed an average
of three and six-tenths (3.6) acrefeet per irrigable
acre.” Finally, the contracts for the Klamath Drainage
District, Midlands Irrigation District, and Poe Valley
Irrigation District simply limit them to the amount of
water that can be put to beneficial use for irrigation on
the irrigable lands within their districts.
Finally, each of the Warren Act contracts for Irrigation Districts admitted into evidence at trial also
contains a provision limiting the United States’ liability in the event of water shortages, although there are
two different forms this language takes. Those contracts entered into by the Klamath Drainage District,
Malin Irrigation District, the Klamath Basin Improvement District, the Shasta View Irrigation District, the
Sunnyside Irrigation District, and the Westside

App. 91
Improvement District contain language relating to
shortages caused by droughts or “other cause,” stating,
in language similar to that of the contract with the Malin Irrigation District, with only minor, non-relevant
variations, that:
On account of drought, inaccuracy in distribution or other cause, there may occur at times
a shortage in the quantity of water provided
for herein, and while the United States will
use all reasonable means to guard against
such shortage, in no event shall any liability
accrue against the United States, its officers,
agents or employees, for any damage, direct or
indirect, arising therefrom, and the payments
due hereunder shall not be reduced because of
any such shortage.
The shortage provisions in the rest of the contracts, including for the Enterprise Irrigation District, the Midland District Improvement Company, the Poe Valley
Improvement District, and the Pine Grove Irrigation
District, however, are missing the “other causes” language and state:
The United States shall not be liable for failure to supply water under this contract
caused by hostile diversion, unusual drought,
interruption of service made necessary by repairs, damages caused by floods, unlawful acts
or unavoidable accidents.
At trial, three Warren Act contracts between the
United States and individuals, under which three
named plaintiffs received water in 2001, were also

App. 92
admitted into evidence. Named Baley plaintiffs Daniel
G. and Delores Chin owned two parcels that received
water pursuant to individual Warren Act contracts in
2001 entered into by their predecessor-in-interest.
Named John Anderson Farms plaintiff Hill Land &
Cattle LLC owned one parcel that received water pursuant to an individual Warren Act contract in 2001
that was entered into by its predecessor-in-interest.
The Warren Act contracts for these three parcels are
identical, or close to identical, in almost all respects
and very similar to the Warren Act contracts entered
into by the Malin Irrigation District, the Sunnyside Irrigation District, and the Shasta View Irrigation District. Like those Irrigation District contracts, the three
individual Warren Act Contracts place upper limits on
the water that will be furnished, “two acre-feet per acre
of irrigable land during the usual irrigation season” for
one of the Chin parcels and “two and one-half (2½)
acre-feet per acre of irrigable land during the usual irrigation season) for the Hill Land & Cattle LLC parcel
and the other Chin Parcel, while also further stating
that this amount “shall not exceed the amount that can
be furnished, as determined by the Secretary, at a cost
of Thirty-four Dollars ($34.00) . . . and in no event shall
it exceed 0.6 acre-feet of water per irrigable acre in any
one month.” The individual Warren Act contracts also
contain the same shortage provision as those Irrigation Districts immunizing the United States from liability in the event of a droughts [sic] or “other cause.”
Finally, each of the three individual Warren Act Contracts has a provision stating: “The terms of this contract shall inure to the benefit of and be binding upon

App. 93
the successors in interest and assigns of the parties
hereto.”
3. Settlement Contracts: the Van Brimmer Ditch Company
The third type of contract governing delivery of
water in the Klamath Project, settlement contracts, covers the distribution of water to lands that held a water right or a claim to a water right, prior to the
Klamath Project’s inception. George Driscoll testified
at trial that the settlement contractors are a “very minor group” that, among the original named plaintiffs
at the time of trial, includes only the Van Brimmer
Ditch Company. The Van Brimmer Ditch Company is
not an Irrigation District, but is instead an Oregon
business corporation that delivers irrigation water to
landowners. Each share of Van Brimmer Ditch Company stock corresponds with one acre of irrigable land
with an appurtenant right to receive water from the
company. As a former president of the Van Brimmer
Ditch Company, James Moore, a named plaintiff in the
Baley case, testified at trial, the Van Brimmer Ditch
company traces its history back to the 1880s, prior to
the genesis of the Klamath Project, when its founders,
the Van Brimmer brothers, posted notices of appropriation and started drawing water from White Lake,
which was associated with Lower Klamath Lake, via
trenches they and others had dug. Subsequently, the
creation of the Klamath Project resulted in the draining of White Lake and the Van Brimmer Ditch

App. 94
Company entered into a contract with the United
States to receive water from Upper Klamath Lake instead.
The contract between Van Brimmer Ditch Company and the United States, entered into on November
6, 1909, begins by recognizing that “the changing by
the United States of the course or water-level of the . . .
Lower Klamath Lake [as a result of the construction of
the Klamath Project] will in all probability completely
destroy or impair the present source of water supply
used for irrigation purposes of the [Van Brimmer
Ditch] Company” and that “the Company claims that
it has established a vested right to the use of fifty second-feet of water for irrigation purposes from the water of Lower Klamath Lake.” In the contract, the Van
Brimmer Ditch Company agreed to “waive[ ] and renounce[ ] to the use and benefit of the United States
any and all of its riparian rights, in relation to the waters and shores of Lower Klamath Lake appurtenant
or incident to the lands now being irrigated by the
Company,” and, in exchange, the United States agreed
to “deliver to the Company during each and every irrigation season . . . a quantity of water, not to exceed fifty
second feet.” The United States also “recognize[d] the
right as existing in the Company to the perpetual use
of said fifty (50) second feet of water.” Named plaintiffs
James and Cheryl Moore are landowner-shareholders
in Van Brimmer Ditch Company. In 2001, the Moores
owned 135 shares of stock in the Van Brimmer Ditch
Company, each of which corresponded with one acre of

App. 95
irrigable land with an appurtenant right to receive irrigation water.
4. Leased Lands in the National Wildlife Refuges
The Klamath Project also administers federal
lease contracts with farmers on about 23,000 acres of
land within two national wildlife refuges that sit
within the Klamath Project, the Tule Lake and the
Lower Klamath Wildlife Refuges, pursuant to the
Kuchel Act, Pub. L. No. 88-567, 78 Stat. 850 (1964).
These lands are among the most productive lands in
the Klamath Basin. Contracts in the refuges are issued
for five to eight years, but require annual renewal. The
Bureau of Reclamation uses a standard lease contract
on these lands. The leases do not specify an amount of
water to which the lessor is entitled, but instead state
that: “[t]he Bureau of Reclamation will handle all deliveries of irrigation water to the leased premises and
all draining of the leased premises.” The leases also
contain the following shortage provision: “[T]he United
States, its officers, agents and employees, and its successors and assigns shall not be held liable for damages because irrigation water is not available or
because of an inability to drain the leased premises in
a timely manner.” Of the named plaintiffs, only one,
James Frank, alleges that he received water through a
lease contract for lands in one of the National Wildlife
Refuges within the Klamath Project. A lease signed by
Mr. Frank on April 19, 1999, and renewable up to

App. 96
October 31, 2003, for lands in a National Wildlife Refuge was admitted into evidence at trial.
C. Tribal Rights in Klamath Project Waters
Three Native American tribes, the Klamath,
Yurok, and Hoopa Valley Tribes, (collectively, the
Tribes) hold rights to take fish from Klamath Project
waters. The rights of the Klamath Tribes are derived
from an 1864 treaty between the Klamath Tribes and
the United States, in which the Klamath Tribes “relinquished its aboriginal claim to some 12 million acres of
land in return for a reservation of approximately
800,000 acres in south-central Oregon.” United States
v. Adair, 723 F.2d 1394, 1398 (9th Cir. 1983). Among
other provisions, the treaty guaranteed the Klamath
Tribes “the exclusive right of taking fish in the streams
and lakes” that were included as part of the Klamath
Indian Reservation.3 See Treaty Between the United
States of Am. & the Klamath & Moadoc Tribes & Yahooskin Band of Snake Indians, Art. I., Oct. 14, 1864,
16 Stat 707. The Klamath Tribes’ reservation abutted
Upper Klamath Lake and included several of its tributaries. Based on the language of the 1864 treaty, a federal court water rights adjudication determined that
the Klamath Tribe holds “[a] water right to support
game and fish adequate to the needs of Indian hunters
and fishers.” United States v. Adair, 723 F.2d at 1411.
3

The Klamath Indian Reservation was terminated in 1954
pursuant to an act of Congress, but the act explicitly preserved
the Klamath Tribes’ water rights. See United States v. Adair, 723
F.2d at 1411-12 (quoting 25 U.S.C. § 564m(a) (1976)).

App. 97
This right is “non-consumptive,” meaning that the Klamath Tribes are “not entitled to withdraw water from
the stream for agricultural, industrial, or other consumptive uses,” but instead hold “the right to prevent
other appropriators from depleting the streams[’] waters below a protected level in any area where the nonconsumptive right applies.” Id. (citing 1 R. Clark, Waters and Water Law § 55.2, at 578-81 (1967) and Cappaert v. United States, 426 U.S. 128, 143 (1976)).
Because the 1864 Treaty amounted to “a recognition of
the Tribe’s aboriginal water rights,” the Klamath
Tribes’ water rights “carry a priority date of time immemorial.” Id. at 1414. The Klamath Tribes’ water
rights in Upper Klamath Lake had not been quantified
in 2001.
The rights of the Yurok and Hoopa Valley Tribes
are derived from three presidential Executive Orders
issued in 1856, 1876, and 1891, which established, extended, and combined the Klamath and Hoopa Valley
Reservations in California. The first Executive Order,
signed by President Franklin Pierce on November 16,
1855, established the Klamath Reservation in California. See Charles J. Kappler, Indian Affairs: Laws and
Treaties 817 (1904). The second, signed by President
Ulysses Grant on June 23, 1876, created the Hoopa
Valley Indian Reservation, declaring certain lands in
California to be “withdrawn from public sale, and set
apart for Indian purposes, as one of the Indian reservations authorized to be set apart, in California, by act
of Congress approved April 8, 1864.” Id. at 815. The
third Executive Order, signed by President Benjamin

App. 98
Harrison on October 16, 1891, combined the Klamath
and Hoopa Valley reservations into a single Hoopa Valley reservation by extending the Hoopa Valley reservation to include additional portions of the Klamath
River. See id. Ultimately, the combined reservation
“ran along both sides of the Klamath River, from the
mouth of the Trinity River [in California] down to the
Pacific Ocean.” Parravano v. Babbitt, 70 F.3d 539, 542
(9th Cir. 1995) (citing Mattz v. Arnett, 412 U.S. 481,
493-94 (1973)).4 Federal and California state courts
have recognized that the right of the Yurok and Hoopa
Valley Tribes “to take fish from the Klamath River was
reserved to the Indians when the [Hoopa Valley] reservation was created.” United States v. Eberhardt, 789
F.2d 1354, 1359 (9th Cir. 1986) (citing Blake v. Arnett,
663 F.2d 906, 911 (9th Cir. 1981); People v. McCovey,
685 P.2d 687, 697 (Cal.), cert. denied, 469 U.S. 1062
(1984)); see also Parravano v. Babbitt, 70 F.3d at 547
(“The 1876 and 1891 executive orders that created the
extended Hoopa Valley Reservation and the 1988
Hoopa–Yurok Settlement Act vested the Tribes with
federally reserved fishing rights. . . .”). “[T]he right reserved includes fishing for ceremonial, subsistence,
and commercial purposes.” United States v. Eberhardt,
4

In 1988, Congress enacted the Hoopa–Yurok Settlement
Act, 25 U.S.C. § 1300i, to divide the extended Hoopa Valley Reservation into the Yurok Reservation and the Hoopa Valley Reservation. “One of the concerns of Congress at the time of the 1988
partitioning was to protect the [Yurok and Hoopa Valley] Tribes’
fisheries.” Parravano v. Babbitt, 70 F.3d at 542. “Although the
1988 Hoopa–Yurok Settlement Act did not explicitly set aside
fishing rights, it did make clear that the partitioning would not
dispossess the Tribes of their assets.” Id. at 546.

App. 99
789 F.2d at 1359. The Department of the Interior, in a
July 25, 1995 memorandum prepared by the Department’s Regional Solicitor for the Pacific Southwest Region, recognized that “[t]he Yurok and Hoopa Valley
Tribes have federal Indian reserved fishing rights to
take anadromous fish[5] within their reservations in
California” and that “[t]hese rights were secured to the
Yurok and Hoopa Indians by a series of nineteenth century executive orders.” A January 9, 1997 memorandum by the Department of the Interior’s Regional
Solicitors for the Pacific Southwest and Pacific Northwest Regions recognized that the Yurok and Hoopa
Valley Tribes “hold adjudicated water rights which
vested at the latest in 1891 and perhaps as early as
1855.” In a letter the Yurok Tribe submitted to the
NMFS on March 23, 2001 commenting on the NMFS’
draft Biological Opinion regarding Klamath Project
operations, the Yurok Tribe maintained that it held a
federally reserved water right with a priority date of
time immemorial. There is no evidence in the record
that the rights held by the Yurok and Hoopa Valley
Tribes have ever been quantified as water rights.

5

“Anadromous fish hatch in fresh water, migrate to the
ocean where they are reared and reach mature size, and eventually complete their life cycle by returning to the fresh-water place
of their origin to spawn.” Washington v. Washington State Commercial Passenger Fishing Vessel Ass’n, 443 U.S. 658, 662, modified sub nom. Washington v. United States, 444 U.S. 816 (1979).
Salmon are a species of anadromous fish. See id. at 663.

App. 100
D. The Klamath Compact
On August 30, 1957, Congress gave its consent to
the Klamath Compact, an interstate compact between
the states of California and Oregon, which plaintiffs
allege defendant has violated. See 71 Stat. 497, 497508. The stated purposes of the Klamath Compact are,
“with respect to the water resources of the Klamath
River Basin”: “[t]o facilitate and promote the orderly,
integrated, and comprehensive development, use, conservation, and control thereof for various purposes”;
and “[t]o further intergovernmental cooperation and
comity with respect to these resources and programs
for their use and development and to remove causes of
present and future controversies.” Id. at 497. Article III
of the Klamath Compact recognizes certain water
rights within the Klamath basin, stating:
A. There are hereby recognized vested
rights to the use of water originating in the
Upper Klamath River Basin validly established and subsisting as of the effective date
of this compact under the laws of the state in
which the use or diversion is made, including
rights to the use of waters for domestic and
irrigation uses within the Klamath Project.
There are also hereby recognized rights to the
use of all waters reasonably required for domestic and irrigation uses which may hereafter be made within the Klamath Project.
B. Subject to the rights described in subdivision A of this article and excepting the uses of
water set forth in subdivision E of Article XI
[regarding waterfowl management areas],

App. 101
rights to the use of unappropriated waters
originating within the Upper Klamath River
Basin for any beneficial use in the Upper Klamath River Basin, by direct diversion or by
storage for later use may be acquired by any
person after the effective date of this Compact
by appropriation under the laws of the state
where the use is to be made, as modified by
the following provisions of this subdivision B
and subdivision C of this article, and may not
be acquired in any other way. . . .
Id. at 498. Article XIII of the Klamath Compact contains the language regarding the United States obligations not to “impair” water rights without just
compensation, which plaintiffs allege defendant has violated, stating:
The United States shall not, without payment
of just compensation, impair any rights to the
use of water for use (a) [domestic use] or (b)
[irrigation use] within the Upper Klamath
River Basin by the exercise of any powers or
rights to use or control water (i) for any purpose whatsoever outside the Klamath River
Basin by diversions in California or (ii) for any
purpose whatsoever within the Klamath
River Basin other than use (a) or (b).
Id. at 507. Article XIII, however, limits this obligation
of the United States to pay just compensation to those
rights acquired after the effective date of the Klamath
Compact, stating:
But the exercise of powers and rights by the
United States shall be limited under this

App. 102
paragraph 2 only as against rights to the use
of water for use (a) or (b) within the Upper
Klamath River Basin which are acquired as
provided in subdivision B of Article III after
the effective date of this compact, but only to
the extent that annual depletion in the flow of
the Klamath River at Keno resulting from the
exercise of such rights to use water for uses
(a) and (b) do not exceed 340,000 acre-feet in
any one calendar year.
Id. Finally, with respect to the rights of Native Americans [sic] tribes, Article X of the Klamath Compact
states: “Nothing in this compact shall be deemed . . .
[t]o deprive any individual Indian, tribe, band or community of Indians of any rights, privileges, or immunities afforded under Federal treaty, agreement or
statute.” Id. at 505.
E. The Klamath Adjudication
In 1975, pursuant to the Water Rights Act of 1909,
the Oregon Water Resources Department initiated the
Klamath Basin General Stream Adjudication (the Klamath Adjudication), a general adjudication to determine the ownership of rights to the waters of the
Klamath Basin. The Klamath Adjudication covers pre1909 state-based surface water rights not previously
adjudicated, as well as federal reserved water rights in
the Klamath Basin. Claims were filed beginning in
1990, and administrative hearings were initiated in
2001. On March 7, 2013, the adjudicator for the Klamath Adjudication issued orders of determination on

App. 103
all claims filed in the Klamath Adjudication. On February 28, 2014, the adjudicator issued amended and
corrected versions of the orders of determination,
which have been submitted to Oregon state courts for
judicial confirmation.6
Case 003 in the Klamath Basin Adjudication addressed water rights associated with the Klamath Project. Three claims in case 003, claims 298, 321-6 and
321-7, concerned the water rights appropriated by the
Van Brimmer brothers and subsequently at issue in
the 1909 contract between the Van Brimmer Ditch
Company and the United States. Claim 298 was filed
by the United States, which “assert[ed] that it own[ed]
the water right appropriated because Van Brimmer
transferred the right to the United States” as part of
the November 6, 1909 contract. In the corrected partial
order of determination for case 003,7 the adjudicator
denied the government’s claims on the grounds that,
although, in the 1909 contract, the Van Brimmer Ditch
Company transferred its riparian rights to the government, the 50 cubic feet per second (cfs) of water identified in the agreement were appropriative water rights,
rather than riparian rights, and nothing in the agreement could be construed as transferring Van Brimmer’s appropriative rights to the government. Claims
6

The findings of the Klamath Adjudication are available on
the Oregon Water Resources’ Department website at http://www.
oregon.gov/owrd/Pages/adj/ACFFOD.aspx.
7
The corrected order of partial determination for case 003 is
available at http://www.oregon.gov/owrd/ADJ/ACFFOD/KBA_
ACFFOD_07017.PDF.

App. 104
321-6 and 321-7 were brought by the Van Brimmer
Ditch Company along with a number of other Klamath
Project water users. The two claims were “essentially
duplicative,” but based on different appropriation
dates. Claim 321-6 was based on a second notice of appropriation made by the Van Brimmer brothers on
September 4, 1883. The adjudicator granted this claim
to the Van Brimmer Ditch Company with a priority
date of September 4, 1883, but limited it “to a quantity
of 50 cfs, as defined in a 1909 contract between Van
Brimmer and the United States,” on the grounds that
any additional water rights held at that time were
abandoned by the Van Brimmer Ditch Company. Claim
321-7 was based on a second notice of appropriation
filed by the Van Brimmer brothers on September 19,
1884. The adjudicator denied the claim on the grounds
that the earlier priority date was supported by the evidence.8
II.

Events in 2001
A. The Endangered and Threatened Fish

“In light of its dual purposes of serving agricultural uses and providing for the needs of wildlife, the
Klamath Project is subject to the requirements of the
Endangered Species Act. See Pub.L. No. 93–205, 87
8

In a joint status report filed October 28, 2014, the parties
informed the court that, in 2014, the Klamath Adjudication also
issued an order of partial determination finding that “the United
States, BIA [Bureau of Indian Affairs], as trustee for the Klamath
Tribes, holds a water right for specified elevations in Upper Klamath Lake with a priority date of ‘time immemorial.’ ”

App. 105
Stat. 884 (1973) (codified, as amended, at 16 U.S.C.
§ 1531 et seq.) (the ‘ESA’).” Klamath Irr. Dist. v. United
States, 635 F.3d at 508. “Pursuant to the ESA, the Bureau [of Reclamation] has an obligation not to engage
in any action that is likely to jeopardize the continued
existence of an endangered or threatened species or result in the destruction or adverse modification of the
critical habitat of such a species.” Id. at 509 (citing 16
U.S.C. § 1536(a)(1)). “In a 1999 Ninth Circuit decision,
the interests of [Klamath] Project water users were declared subservient to the ESA, the result being that, as
necessary, the Bureau has a duty to control the operation of the Link River Dam in order to satisfy the requirements of the ESA.” Id. at 508 (citing Klamath
Water Users Protective Ass’n v. Patterson, 204 F.3d
1206, 1213 (9th Cir. 1999), amended by 203 F.3d 1175
(9th Cir. 2000)). Of relevance to this litigation, Klamath Project operations potentially affect three species of fish protected under the Endangered Species
Act: the endangered Lost River sucker; the endangered
shortnose sucker; and the threatened SONCC coho
salmon. The Lost River and short nose suckers were
listed as endangered in 1988, see Final Rule, Determination of Endangered Status for Shortnose Sucker and
Lost River Sucker, 53 Fed. Reg. at 27130 (July 18,
1988), while the SONCC coho salmon was listed as
threatened in 1997. See Final Rule, Threatened Status
for Southern Oregon/Northern California Coast Evolutionary Significant Unit (ESU) of Coho Salmon, 62 Fed.
Reg. 24588 (May 6, 1997). The Lost River and shortnose
suckers reside in Upper Klamath Lake and nearby waters, while the SONCC coho salmon use the mainstream

App. 106
and tributaries of the Klamath River downstream from
the Upper Klamath Lake and the Link River Dam.
B. Importance of the Fish to the Tribes
Evidence was presented at trial regarding the importance of the Lost River and short nose suckers and
of the SONCC coho salmon to Native American tribes
living in the Klamath basin. Dr. Ronald Larson, a retired FWS biologist, who had served for fourteen years
as the lead biologist for consultations dealing with the
endangered suckers in FWS’s Klamath Falls office, testified that the two species of suckers are considered
tribal trust species for the Klamath Tribes because of
their long history with the fish. In the Klamath language the Lost River suckers are known as “c’waam”
and the shortnose suckers as “qapdo.” According to Dr.
Larson, prior to the beginning of the Klamath Project,
the Klamath and Modoc Indians would harvest suckers during the spring time when the fish were spawning. An April 5, 2001 Biological Opinion issued by FWS
for the Klamath Project, discussed in more detail below, similarly noted that the suckers were once abundant and important seasonal foods for Native
Americans in the upper Klamath basin. The July 25,
1995 memorandum prepared by the Regional Solicitor
for the Pacific Southwest Region of the Department of
the Interior regarding the rights and obligations related to the Klamath Project noted that the Klamath
Tribes held treaty-based rights to fish, hunt, and
gather on the lands that were formerly part of their
reservation along the Upper Klamath Lake and its

App. 107
tributaries. The memorandum also noted that “[t]he
Tribes’ primary interest is in the operation of Upper
Klamath Lake because it serves as habitat for fish protected by their treaty rights, including two endangered
species of fish, the Lost River and shortnose suckers.
These fish are a traditional food source for the Tribes.”
Don Reck, at the time of the trial, a fisheries biologist at NMFS, whose primary responsibility was to
implement the Endangered Species Act, and who has
worked on Klamath Basin fishery issues since 1994,
testified that the Yurok Tribe and Hoopa Valley Tribes,
both located downstream of the Iron Gate Dam along
the Klamath River, have a federally-recognized reserve
fishery right for SONCC coho salmon and other fish
species. The July 25, 1995 Department of the Interior
Solicitor’s Office memorandum similarly stated that
the Yurok and Hoopa Valley Tribes held “federal Indian reserved fishing rights to take anadromous fish
within their reservations in California.” Mr. Reck noted
that, when he had previously served as NMFS’s area
manager for the Klamath Basin office from 1996 to
2001, he had dealt with both the Yurok and Hoopa Valley Tribes and that they were “very interested in project operations” and were concerned that the Bureau of
Reclamation pay sufficient attention to their reserved
water rights and water level issues. Consistent with
this concern, the Yurok Tribe sent the NMFS a letter
on March 23, 2001 with extensive comments on NMFS’
draft 2001 Biological Opinion in which they stated that
they “concur[red] with NMFS that despite the presence of other factors that have contributed to the

App. 108
decline of the Klamath River’s coho and other anadromous resources, the Klamath Project was and continues to be a major factor in the decline of these
resources.” The final April 6, 2001 Biological Opinion
prepared by NMFS regarding the SONCC coho
salmon, discussed in more detail below, noted that “Indian tribes in the Klamath River Basin . . . have a profound interest in water management” and that
“[d]ownstream tribal reserved water rights consist of
an instream flow sufficient to protect the right to take
fish within their reservations.”
C. The Revised 2001 Operations Plan
Prior to 2001, the Klamath Project had been
through wet and dry years, including two recent dry
years, 1992 and 1994, that were even drier than was
2001. Numerous plaintiff water users, including Lonny
Baley, Frank Anderson, Keith Buckingham, Michael
Byrne, John Frank, Harold Hartman, Luther Horsley,
Edwin Stastny, Jr., and Robert Unruh, testified at trial,
however, that even during those earlier, severe drought
years Klamath Project water users still received all of
the water they needed. As the Bureau of Reclamation
developed its operating plan for the 2001 water year,
water supply forecasts indicated that it would be a
“critical dry” year due to drought conditions. See Kandra v. United States, 145 F. Supp. 2d 1192, 1198 (D. Or.
2001). In response, the Bureau of Reclamation performed a biological assessment of the Klamath Project’s operations on the Lost River sucker and the
shortnose sucker, and a similar assessment regarding

App. 109
the SONCC coho salmon. See Klamath Irrigation Dist.
v. United States, 67 Fed. Cl. 504, 513 (2005) (citing
Kandra v. United States, 145 F. Supp. 2d at 1198).
“Both assessments concluded that operation of the
Project was likely to affect adversely the three species
in violation of the ESA, 16 U.S.C. § 1531, et seq.” Id. On
January 22, 2001, the Bureau of Reclamation forwarded its biological assessment regarding the
SONCC coho salmon to NMFS and requested the initiation of a formal consultation with the NMFS pursuant to section 7(a)(2) of the Endangered Species Act.
On February 13, 2001, the Bureau of Reclamation similarly forwarded its biological assessment regarding
the Lost River sucker and the shortnose sucker to the
FWS and requested the initiation of a formal consultation with the FWS.
On March 2, 2001, the Bureau of Reclamation sent
out a letter, signed by Karl Wirkus, to the Irrigation
Districts in the Klamath Project notifying them of the
status of the Endangered Species Act consultation process and that no water was to be diverted or used until
a revised operations plan for 2001 was finalized. In relevant part, the March 2, 2001 letter stated:
Reclamation is in the process of developing
the 2001 Annual Operations Plan. Biological
opinions resulting from current consultations
will be a critical part of the plan’s formulation.
While it is possible that there may be drastic
reductions in project agriculture and refuge
deliveries in 2001, Reclamation is working diligently to avoid such an outcome. However,

App. 110
until Reclamation completes the consultation
process, no diversion of Project water may
occur that would result in a violation of Section 7(d) of the ESA which prohibits “ . . . any
irreversible or irretrievable commitment of resources . . . ” pending completion of consultation. To date, Reclamation has not made a
determination as to whether and to what extent Project water could be delivered in advance of completed consultations. Thus, until
such a determination is made or the consultations are completed, no Project water may be
diverted or used unless expressly authorized
by Reclamation.
(emphasis in original).
On March 30, 2001, the Bureau of Reclamation
sent out a similar letter to the Irrigation Districts, also
signed by Mr. Wirkus, updating Klamath Project water
users on the status of the Endangered Species Act consultation process. The March 30, 2001 letter stated, in
relevant part:
We had previously indicated that a new Annual Operations Plan would be announced on
April 1, 2001. We will not be announcing any
new Operating Plan at that time. We anticipate announcing such a plan by April 6, 2001.
We will continue to keep everyone advised of
our progress in this regard. Once again, however, until such a determination is made
or the consultations are completed, no
Project water shall be diverted or used

App. 111
unless expressly authorized by Reclamation.
(emphasis in original).
On April 5, 2001, the FWS, acting in furtherance
of its statutory duties under the Endangered Species
Act, issued a final Biological Opinion (the FWS Biological Opinion), concluding that the Bureau of Reclamation’s proposed 2001 operation plan for the Klamath
Project was “likely to jeopardize the continued existence
of the LRS [Lost River sucker] and SNS [shortnose
sucker] and adversely modify their proposed critical
habitat.” On the next day, April 6, 2001, NMFS issued
its final Biological Opinion (the NMFS Biological Opinion) concluding that the proposed operation plan was
“likely to jeopardize the continued existence of SONCC
coho salmon” and “to adversely modify critical habitat
for the SONCC coho salmon.” As required by the Endangered Species Act, 16 U.S.C. § 1536(b)(3)(A), the
Biological Opinions of both agencies included “reasonable and prudent alternatives” to address the threat to
the three species. FWS’ reasonable and prudent alternatives required, among other actions, that the Bureau
of Reclamation maintain “not divert water from UKL
[Upper Klamath Lake] for irrigation purposes if surface elevations are anticipated to go below [certain
minimum levels], regardless of inflow year type.” The
FWS Biological Opinion determined that “[i]mplementation of the [Klamath] Project with these minimum
elevations is necessary to avoid jeopardy and adverse
modification of proposed critical habitat” for the Lost
River and short nose suckers. The NMFS’ only

App. 112
reasonable and prudent alternative required the Bureau of Reclamation to operate the Klamath Project in
such a way so as to provide certain levels of “minimum
IGD [Iron Gate Dam, a dam downstream from the Link
River Dam,] water releases” into the Klamath River
between April and September 2001. The NMFS Biological Opinion stated that this reasonable and prudent
alternative was “intended to prevent further decline of
the listed fish . . . while longer-term protections can be
implemented to affect the recovery of the species.”9
On April 6, 2001, the Bureau of Reclamation issued a revised 2001 operations plan for the Klamath
Project (the Revised 2001 Operations Plan) that incorporated the reasonable and prudent alternatives proposed by the FWS and the NMFS Biological Opinions.
The Revised 2001 Operations Plan listed four “Guiding
Principles and Objectives” which it stated were “described” in the July 25, 1995 memorandum from the
Department of the Interior’s Regional Solicitor for the
Pacific Southwest Region, and “further addressed” in a
second memorandum, dated January 9, 1997, prepared
by the Department of the Interior’s Regional Solicitors
9

“In addition, at this time, the Bureau was subject to a preliminary injunction order issued by the U.S. District Court for the
Northern District of California in the Pacific Coast [Federation of
Fishermen’s Associations v. United States Bureau of Reclamation,
138 F. Supp. 2d 1228 (N.D. Cal. 2001)] case.” Klamath Irr. Dist.
v. United States, 635 F.3d at 509. “The order barred the delivery
of Klamath Project water for irrigation purposes when water flow
was below certain minimum levels, until the Bureau complied
with ESA consultation requirements.” Id. (citing Pac. Coast Fed’n
of Fishermen’s Ass’ns v. United States Bureau of Reclamation,
138 F. Supp. 2d at 1251).

App. 113
for the Pacific Northwest and Pacific Southwest Regions. (emphasis in original). The principles and objectives were: “Meeting the Requirements of the
Endangered Species Act”; “Trust Responsibility of the
United States to Federally Recognized Tribes Within
the Klamath River Basin”; “Providing Deliveries of
Project Water”; and “Conserving Wetland and Wildlife
Values.” With regard to the Endangered Species Act,
the Revised 2001 Operations Plan stated: “The Lost
River and shortnose suckers, coho salmon, and bald eagles are listed under the ESA. Reclamation will manage Project water supplies in accordance with the
April, 2001, [sic] biological opinions issued by NMFS
and the U.S. Fish and Wildlife Service (FWS) for this
year’s Project operation. . . .” With regard to the tribal
trust responsibilities, the Revised 2001 Operations
Plan stated, in full:
The trust responsibility to the Klamath Basin
Tribes is shared by all federal agencies that
undertake activities in the Klamath Basin.
Fishery and other resources in the Klamath
River, Upper Klamath Lake (UKL), and
nearby lakes and streams are important
tribal trust resources to the Klamath Basin
tribes. Reclamation’s Plan provides flow regimes and lake levels for protection of tribal
trust resources within the limitations of the
available water supply.
With regard to deliveries to Klamath Project water users, the Revised 2001 Operations Plan stated: “Due to
the requirements of the biological opinions and the
ESA [Endangered Species Act] and the current

App. 114
drought conditions, only limited deliveries of Project
water will be made for irrigation.” The Revised 2001
Operations Plan summarized its ultimate decisions regarding operation of the Klamath Project, as follows:
Reclamation prepared the 2001 Plan . . . for
certain UKL [Upper Klamath Lake] levels
and Klamath River flows at Iron Gate Dam
consistent with the guiding principles and objectives. . . .
Prior to listing of endangered and threatened
species and the increased scientific understanding of the needs of ESA-listed species
and tribal trust resources, the Project was operated to optimize irrigation diversions, with
UKL releases and resulting flows at Iron Gate
Dam (IGD) targeted to meet Federal Energy
Regulatory Commission (FERC) minimums.
Lake elevations were the result of hydropower
releases judged against irrigation demand.
Minimum UKL levels and Klamath River
flows have been specified as a result of ESA
consultation on listed species. . . . As a result,
current conditions indicate water deliveries to
farms and refuges within the Project service
area will be severely limited. Under the current hydrology, the UKL levels and river flows
under this Plan are consistent with requirements of the ESA and Reclamation’s obligation to protect Tribal trust resources.
At trial, Karl Wirkus, the Area Manager of the Bureau
of Reclamation’s Klamath Basin area office and the author of the Revised 2001 Operations Plan, testified that

App. 115
as he put the Revised 2001 Operations Plan together
and “ran the numbers,” he determined that meeting
the minimum Upper Klamath Lake levels and Klamath River flows set forth in the FWS and NMFS Biological Opinions would require all available Klamath
Project water and that there would not be any additional quantity of water available to meet other obligations.
On the same day the Revised 2001 Operations
Plan was released, April 6, 2001, the Department of the
Interior issued a news release stating that, based on
the FWS and NMFS Biological Opinions “and the requirements of [the] Endangered Species Act, the Bureau of Reclamation announced today that no water
will be available from Upper Klamath Lake to supply
the farmers of the Klamath Project.” The news release
continued:
To provide some assistance to farmers affected by what is expected to be one of the driest years since the Project began in 1907, the
United States Department of Agriculture
(USDA) announces that most crops in the affected area are eligible for Federal crop insurance (if it had been purchased before the sales
closing date) or other assistance. . . . For producers carrying coverage, a portion of their
otherwise irrigated crop losses resulting from
the determination announced by the Bureau
of Reclamation may be eligible for prevented
planting payments. . . . Assistance is also provided through the Non-insured Crop Disaster

App. 116
Assistance Program (NAP) to producers growing crops that are currently uninsurable.
After the issuance of the Revised 2001 Operations
Plan, on April 9, 2001, a group of Klamath Project water users, including the Klamath and Tulelake Irrigation Districts, filed a lawsuit in the United States
District Court for the District of Oregon seeking to enjoin the Bureau of Reclamation from implementing the
Revised 2001 Operations Plan and an order requiring
the Bureau of Reclamation “to release unspecified ‘historic’ amounts of irrigation water.” See Kandra v.
United States, 145 F. Supp. 2d 1192, 1195-96 (D. Or.
2001). Plaintiffs alleged that the Revised 2001 Irrigation Plan “breache[d] their contractual rights to irrigation water and [was] arbitrary and capricious under
the Administrative Procedure Act (‘APA’), 5 U.S.C.
§ 706, in that its implementation violate[d] the National Environmental Policy Act (‘NEPA’), 42 U.S.C.
§ 4321, et seq., and the Endangered Species Act (‘ESA’),
16 U.S.C. § 1531, et seq.” Id. at 1196. With respect to
their allegations regarding the Endangered Species
Act, the Kandra plaintiffs alleged that a number of provisions of the FWS and NMFS Biological Opinions violated the Endangered Species Act, and therefore, that
the adoption of the findings of the Biological Opinions
as part of the Revised 2001 Operation Plan rendered
the Revised 2001 Operations Plan arbitrary and capricious. See id. at 1206. The Kandra plaintiffs’ alleged issues with the Biological Opinions included that “FWS
failed to consider scientific evidence of variable lake elevations and the impact on sucker fish populations”

App. 117
and that “NMFS relied on a lack of relevant information about the effects of variable flow regimes on
salmon and the salmon’s utilization of the Klamath
River.” Id. The District Court rejected the Kandra
plaintiffs’ request for a preliminary injunction, holding
that they had failed to show a likelihood of success on
the merits of their claims or that they were entitled to
injunctive relief. See id. at 1211. On October 15, 2017,
the Kandra plaintiffs filed a notice to voluntarily dismiss their claims, and the District Court dismissed the
case on October 27, 2017. See Notice of Dismissal, Kandra v. United States, No. 01-6124 (D. Or. Oct. 15, 2017);
Order of Dismissal, Kandra v. United States, No. 016124 (D. Or. Oct. 27, 2017).
D. Effect on Farmers in the Klamath Basin
Ultimately, the delivery of irrigation water from
Upper Klamath Lake to the plaintiffs in the abovecaptioned cases was totally terminated following the
issue of the Revised 2001 Operations Plan in April
2001 until July 2001, when the Bureau of Reclamation
released approximately 70,000 acre-feet of water. At
trial, plaintiffs consistently testified that this late release of water was of very little, or more often, no use.
Moreover, some individual plaintiffs testified that they
never received any of this water. For example, farmer
David Cacka testified that the water was of no use to
him in July because his crops had already died due to
lack of water. Similarly, Mark Stuntenbeck, the assistant manager of Klamath Irrigation District in 2001,
testified that, in his District, “there were an awful lot

App. 118
of farmers that had no need for the water at that point”
because, “[s]ince they were denied water early in the
irrigation season, a lot of farmers did not plant any
crops. And those that unfortunately did, the crops did
not survive without any water.” Even those who received some water, such as Malin Irrigation District
manager Harold Hartman, whose District received
10% of its normal delivery, described the amount as
“not overall beneficial” because it was “[v]ery difficult
to wet the system,” which had dried out due to lack of
water deliveries. At best, in the words of Don Russell,
a ditch rider for over forty years in the Klamath Project, who served the farmers of the Enterprise Irrigation District and the Pine Grove Irrigation District in
2001,10 for the farmers of the Klamath Basin, the July
2001 water deliveries were “too little, too late.”
Evidence introduced at trial also indicated that at
least some of the plaintiffs received payments from
various federal government programs after water deliveries were cut off in 2001. Many of the plaintiffs testified that they applied for funds from the Klamath
Basin Water Conservation Program, a federal program
administered by the Farm Service Agency which paid
farmers $129.00 per irrigable acre for which no water
was received. Several plaintiffs testified that they received payments under the Klamath Basin Emergency
Operation and Maintenance Act of 2001, Pub. L. No.
10

As Mr. Russell explained, a ditch rider takes water requests from farmers and other water users and inspects the conditions in canals and other works to ensure that they will not
prevent the delivery of water.

App. 119
107-349, 116 Stat. 2973 (2002), which reimbursed
farmers for the operation and maintenance costs they
had paid for water deliveries in 2001. Other plaintiffs
testified that they received payments from the federal
government’s crop disaster program, the federal government’s non-insured assistance program, and for
placing cover crops on fields through the Emergency
Conservation Program. Finally, some plaintiffs also received payments from the Risk Management Agency’s
crop insurance program.
III. Procedural History
A. Lonny Baley, et al., v. United States
The procedural history of the above-captioned
cases is long and complicated, including assignment to
and review by multiple judges in the United States
Court of Federal Claims and review by the United
States Court of Appeals for the Federal Circuit, which
resulted in a remand, and reassignment after the remand, to the undersigned judge. The plaintiffs in
Lonny Baley, et al., v. United States, case number 1591L, were initially a mixture of Irrigation Districts
and individual water users. The Baley plaintiffs filed
their initial complaint on October 11, 2001, an
amended complaint on March 24, 2003, and a second
amended complaint on January 31, 2005. In their second amended complaint, plaintiffs alleged that the
government’s actions in terminating their water deliveries through the Klamath Project in 2001 constituted a taking of their water rights without just

App. 120
compensation in violation of the Fifth Amendment to
the United States Constitution, an impairment of their
water rights in violation of the Klamath Compact, and
a breach of certain contracts between the Bureau of
Reclamation and the named plaintiffs.
The case was initially assigned to Judge Diane G.
Sypolt. On May 10, 2002, defendant filed a motion requesting that the case be stayed pending completion of
the Klamath Adjudication, discussed above. In its motion, defendant argued that
because a number of the core elements of
Plaintiffs’ takings claims turn on state law –
and because these state law issues are presently the subject of the ongoing Klamath Basin Adjudication, in which both sides are
participating – a stay of this case pending final resolution of the Adjudication is fully justified. . . .
On June 14, 2002, plaintiffs filed a response opposing
defendant’s motion in which they argued that “plaintiffs’ water rights are vested under Oregon law and do
not depend upon the adjudication for recognition.”
To resolve this issue, on May 12, 2003, Judge Sypolt, ordered plaintiffs to
file a motion for summary judgment on the
question of whether their water rights . . . are
property that is compensable under the Fifth
Amendment . . . notwithstanding any adverse
determination, including a retroactive one,
regarding the existence, extent, or character
of such rights by the Hearing Officer Panel in

App. 121
Case No. 003 of the State of Oregon’s ongoing
Klamath Basin Adjudication.
Accordingly, on September 22, 2003, plaintiffs filed a
motion for partial summary judgment seeking a finding that the property rights determination in the Klamath Adjudication was irrelevant to plaintiffs’ interest
in the litigation, in support of which plaintiffs stated
that, “regardless of the outcome of the Adjudication,
plaintiffs will retain the beneficial interest in the Klamath Project water because plaintiff water users, not
the government, put the water to beneficial use.” On
November 3, 2003, defendant filed an opposition to
plaintiffs’ motion for partial summary judgment.
On November 13, 2003, Judge Sypolt, in a very
brief and somewhat unclear motion, granted plaintiffs’
revised motion for partial summary judgment and denied defendant’s motion to stay, stating that:
It appears from their motion for partial summary judgment that plaintiffs not only assert
no property interest determinable in the Adjudication, but also concede that they claim no
legal title to, but only “vested beneficial interests” in, the Klamath Basin Project water. Defendant, far from disputing this assertion,
makes it the basis for its cross-motion for
summary judgment, that these beneficial interests consist of contract rights that are not
compensable as takings.
Accordingly, plaintiffs’ motion for partial
summary judgment that their water interests
are not property interests at issue in the

App. 122
Adjudication is granted and defendant’s motion for a stay pending the outcome of the
Adjudication is denied. Based on plaintiffs’ assertion that no rights or interests in this case
are affected by the Adjudication, plaintiffs are
barred from making any claims or seeking
any relief in this case based on rights, titles,
or interests that are or may be subject to determination in the Adjudication.
The Baley case was re-assigned to Judge Francis
Allegra on December 9, 2004 after Judge Sypolt retired
from the United States Court of Federal Claims. Subsequently, on August 31, 2005, Judge Allegra entered
summary judgment in favor of the defendant on the
takings and Klamath Compact claims, see Klamath
Irr. Dist. v. United States, 67 Fed. Cl. 504, and, on
March 16, 2007, summary judgment in favor of the defendant on the breach of contract claims. See Klamath
Irr. Dist. v. United States, 75 Fed. Cl. 677 (2007), rev’d,
635 F.3d 505 (2011). Plaintiffs filed a timely appeal
with the United States Court of Appeals for the Federal Circuit, which, on July 16, 2008, certified three
questions to the Oregon Supreme Court regarding the
nature of plaintiffs’ alleged water rights under Oregon
law.11 See Klamath Irr. Dist. v. United States, 532 F.3d
11

The three questions certified by the Federal Circuit were:
1. Assuming that Klamath Basin water for the Klamath Reclamation Project “may be deemed to have
been appropriated by the United States” pursuant to
Oregon General Laws, Chapter 228, § 2 (1905), does
that statute preclude irrigation districts and landowners from acquiring a beneficial or equitable property interest in the water right acquired by the United States?

App. 123
1376 (Fed. Cir. 2008). The Oregon Supreme Court issued an opinion answering the certified questions on
March 11, 2010.12 See Klamath Irr. Dist. v. United
2. In light of the statute, do the landowners who receive water from the Klamath Basin Reclamation Project and put the water to beneficial use have a
beneficial or equitable property interest appurtenant to
their land in the water right acquired by the United
States, and do the irrigation districts that receive water from the Klamath Basin Reclamation Project have
a beneficial or equitable property interest in the water
right acquired by the United States?
3. With respect to surface water rights where appropriation was initiated under Oregon law prior to February 24, 1909, and where such rights are not within
any previously adjudicated area of the Klamath Basin,
does Oregon State law recognize any property interest,
whether legal or equitable, in the use of Klamath Basin
water that is not subject to adjudication in the Klamath
Basin Adjudication?
Klamath Irr. Dist. v. United States, 532 F.3d at 1377–78.
12
The Oregon Supreme Court answered the Federal Circuit’s three certified questions as follows:
1. The 1905 Oregon act did not preclude plaintiffs
from acquiring an equitable or beneficial property interest in a water right to which the United States holds
legal title. Moreover, under the 1905 act, a formal written release from the United States is not necessary for
plaintiffs to have acquired an equitable or beneficial
property interest in the water right that the United
States appropriated.
2. Under Oregon law, whether plaintiffs acquired an
equitable or beneficial property interest in the water
right turns on three factors: whether plaintiffs put the
water to beneficial use with the result that it became
appurtenant to their land, whether the United States
acquired the water right for plaintiffs’ use and benefit,
and, if it did, whether the contractual agreements

App. 124
States, 227 P.3d 1145 (Or. 2010). Thereafter, on February 17, 2011, the United States Court of Appeals for
the Federal Circuit issued an opinion vacating Judge
Allegra’s Court of Federal Claims decision and remanding the case back to the Court of Federal Claims
for further proceedings. See Klamath Irr. Dist. v.
United States, 635 F.3d 505. With regard to plaintiffs’
takings and Klamath Compact claims, the Federal Circuit instructed that:
On remand, the Court of Federal Claims
should proceed as follows: First, it should determine, for purposes of plaintiffs’ takings and
Compact claims, whether plaintiffs have asserted cognizable property interests. . . . To
the extent the Court of Federal Claims determines that one or more plaintiffs have
between the United States and plaintiffs somehow
have altered that relationship. In this case, the first
two factors suggest that plaintiffs acquired a beneficial
or equitable property interest in the water right to
which the United States claims legal title, but we cannot provide a definitive answer to the court’s second
question because all the agreements between the parties are not before us.
3. To the extent that plaintiffs assert only an equitable or beneficial property interest in the water right to
which the United States claims legal title in the Klamath Basin adjudication, plaintiffs are not “claimants”
who must appear in that adjudication or lose the right.
As a general rule, equitable or beneficial property interests in a water right to which someone else claims
legal title are not subject to determination in a state
water rights adjudication.
Klamath Irr. Dist. v. United States, 227 P.3d 1145, 1169 (Or.
2010).

App. 125
asserted cognizable property interests, it then
should determine whether, as far as the takings and Compact claims are concerned, those
interests were taken or impaired. That determination will turn on existing takings law.
Id. at 519–20 (footnotes omitted). After the remand, on
November 22, 2013, Judge Allegra dismissed the
breach of contract claims of three plaintiffs, the Klamath Irrigation District, the Tulare [sic] Irrigation
District, and Lonny Baley, on 28 U.S.C. § 1500 (2012)
grounds. See Klamath Irr. Dist. v. United States, 113
Fed. Cl. 688 (2013). On June 3, 2014, Judge Allegra, at
plaintiffs’ request, dismissed all remaining plaintiffs’
contract claims, without prejudice.
B. John Anderson Farms, et al., v. United
States
The plaintiffs in John Anderson Farms, et al. v.
United States, case numbers 7-194C, 7-19401C, 719402C, 7-19403C, 7-19404C, 7-19405C, 7-19406C, 719407C, 7-19408C, 7-19409C, 7-19410C, 7-19411C, 719412C, 7-19413C, 7-19414C, 7-19415C, 7-19416C, 719417C, 7-19418C, 7-19419C, 7-19420C, who are all individual water users, filed their original complaint on
March 22, 2007. The cases were initially assigned to
Judge Allegra. Although, initially, the Baley and John
Anderson Farms cases were assigned to separate attorneys in different divisions of the United States Department of Justice, reporting to different Assistant
Attorney Generals, more recently, the Department of
Justice counsel of record responsibilities in both cases

App. 126
were assigned to the above-listed attorney of record.
On August 2, 2007, Judge Allegra stayed the John Anderson Farms cases pending resolution of the appeal to
the Federal Circuit in the then-named Klamath Irrigation District, et al. v. United States case, number 1591L. The stay was lifted on August 25, 2011 and an
amended complaint was filed on October 4, 2011. In
their 2011 amended complaint, the John Anderson
Farms plaintiffs alleged that the government’s actions
constituted breach of contracts between the government and the plaintiffs and a taking of plaintiffs’ property, in the form of their water rights, without
compensation in violation of the Fifth Amendment to
the United States Constitution. On March 13, 2014,
Judge Allegra granted plaintiffs’ motion to voluntarily
dismiss all remaining breach of contract claims with
prejudice.
C. The Consolidated Cases Before the Undersigned Judge
On June 25, 2015, after a significant amount of
discovery following the remand had already occurred,
the above-captioned cases were re-assigned to the undersigned judge upon Judge Allegra’s illness and subsequent passing. On July 22, 2015, after holding a
status conference with the parties, the court issued an
order, which modified a previous May 7, 2015 order issued by Judge Allegra. The new order set a trial date
and set various pretrial deadlines. On January 12,
2016, after holding a status conference with the parties, the court issued an order consolidating the Baley

App. 127
and John Anderson Farms cases. The parties subsequently filed cross-motions in limine on the issue of
whether plaintiffs’ takings claims should be analyzed
as regulatory or physical takings, which, on December
21, 2016, the court decided. In its December 21, 2016
Opinion, the court found in favor of the plaintiffs, holding that “the government’s actions in the present cases
‘should be analyzed under the physical takings rubric.’ ” Klamath Irr. Dist. v. United States, 129 Fed. Cl.
722, 737 (2016) (quoting Casitas Mun. Water Dist. v.
United States, 543 F.3d 1276, 1296 (Fed. Cir. 2008)).
The court was careful to note, however, “that in making
this decision, it is in no way making any determinations as to the nature or scope of plaintiffs’ alleged
property rights, which remain at issue in the abovecaptioned cases.” Id.
The parties subsequently finished discovery, submitted their pretrial filings, and filed a series of additional motions in limine regarding various issues. The
court ruled on a number of these at a status hearing
on January 4, 2017 and at the pretrial conference on
January 10, 2017. On January 5, 2017, plaintiffs filed
a renewed motion for class certification in both the consolidated Baley, case no. 1-591L, and John Anderson
Farms, case no. 7-194C and 7-19401-19419C, cases.
Judge Allegra had previously denied, without prejudice, a class certification request in the Baley case. This
court granted the consolidated class certification motion at the January 10, 2017 pretrial conference.13 The
13

The January 5, 2017 motion sought to renew an earlier
motion to certify a class filed by the plaintiffs in case number

App. 128
court granted the renewed motion for class certification in order to ensure that all parties would be included in the event of a future appeal should either
party choose to do so after this court issues its current,
trial opinion. As subsequently modified by the parties,
and approved by this court, the consolidated class in
the above-captioned cases is comprised of:
All owners (or their lessees) of agricultural
land who claim an appurtenant right to receive and put to beneficial use water from the
Klamath Project in 2001, and allege a Fifth
Amendment taking of their right to receive
1-591L on October, 11, 2001, along with their initial complaint in
case number 1-591L. In their October 11, 2001 motion, plaintiffs
sought to certify a class comprised of: “All landowners who possess appurtenant water rights in the Klamath Basin and who receive their irrigation water from the Upper Klamath lake through
the Link River Dam.” On the same day, October 11, 2001, plaintiffs in case number 1-591L filed a motion to hold their motion for
class certification in abeyance until the issue of liability was determined. On December 10, 2001, defendant filed an unopposed
motion requesting that the issue of class certification be addressed after the close of discovery. The earlier motions relating
to class certification before Judges Sypolt and Allegra were apparently not addressed before Judge Allegra decided the issue of
liability, the case was appealed to the Federal Circuit, and then
remanded to this court. On June 25, 2014, plaintiffs filed a motion
before Judge Allegra renewing their October 11, 2001 motion for
class certification in case number 1-591L. On October 2, 2014,
Judge Allegra denied the renewed motion for class certification,
without prejudice, on the grounds that “such a certification would
require that discovery in this case be reopened, further delaying
resolution of this matter.” In the view of Judge Allegra, “the better
course [was] to complete discovery as to the plaintiffs currently
before the court, with the hopes of bringing at least some of the
issues in this case to completion.”

App. 129
and use such water in 2001 and impairment
of their water right in violation of the Klamath River Basin Compact. This includes
owners or lessees of land located within or receiving Klamath Project water from the following districts:
Enterprise Irrigation District
Klamath Basin Improvement District
Klamath Drainage District
Klamath Hills District Improvement
Company
Klamath Irrigation District
Malin Irrigation District
Midland District Improvement Company
Pine Grove Irrigation District
Poe Valley Improvement District
Shasta View Irrigation District
Sunnyside Irrigation District
Tulelake Irrigation District
Van Brimmer Ditch Company
Westside Improvement District No. 4
Excluded from the class are landowners (or
their lessees) located on the east side of the
Klamath Project who received Klamath

App. 130
Project water in 2001 from Gerber and Clear
Lake Reservoirs.[14]
On January 10, 2017, plaintiffs filed a motion to amend
their amended complaint in the John Anderson Farms
case to include a claim for a violation of the Klamath
Compact, in order to conform the allegations in the
John Anderson Farms case with those in the Baley
case. The court granted plaintiffs motion on January
27, 2017.
A trial was held in the above-captioned cases in
Washington, D.C. over the course of ten days, which included an opportunity for a selection of the affected
farmers to testify and be heard. After a separate posttrial hearing on a pre-trial motion filed by defendant
to dismiss the Irrigation Districts as plaintiffs from the
Baley case, plaintiffs filed a motion to voluntarily dismiss the Irrigation Districts as plaintiffs. The court
granted the motion, and, because the previous lead
plaintiff in case number 1-591L, Klamath Irrigation
District, was among those dismissed, also ordered that
case number 1-591L be recaptioned from Klamath Irrigation District, et al. v. United States to Lonny Baley,
et al. v. United States. Defendant filed a motion to dismiss, or in the alternative for summary judgment, on
the claims of any shareholders in the Van Brimmer
14

The class originally proposed by the plaintiffs and approved by the court on January 10, 2017 contained slightly different language. The parties subsequently modified the class
definition to the version quoted above as part of their joint proposed class notice filed on February 27, 2017, which the court approved on the same day.

App. 131
Ditch Company, including those of named plaintiffs
James and Cheryl Moore, which was briefed by the
parties. The issue raised in this motion is addressed in
the current opinion.
Just prior to trial, defendant and plaintiffs also
filed cross-motions for partial summary judgment on
the nature of plaintiffs’ beneficial interest in the use of
Klamath Project water, and the possible effect of the
contracts governing delivery on that interest. In its
motion, defendant asked the court to hold that “plaintiffs’ appurtenant right to receive and use Klamath
Project water is defined and limited by the contracts
between the districts and the United States and any
individual Warren Act contracts that remain in place”
and that “plaintiffs’ interest in Project water, to the extent it may exist separately from those contracts, cannot be severed from plaintiffs’ respective ownership of
land for the purposes of the Fifth Amendment.” In
their cross-motions, plaintiffs asked the court to hold
that their alleged water rights were “property protected by the Fifth Amendment, established under
Oregon law, and that these property rights were unmodified by contract in 2001 at the time of the taking.”
This motion also is addressed in this opinion.
Defendant, plaintiffs, and third-party intervenor
Pacific Coast Federation of Fisherman’s Associations
simultaneously filed post-trial briefs. The Klamath
Tribes filed a motion for leave to file a memorandum
as amicus curiae, which was granted by the court.
Defendant, plaintiffs, and third-party intervenor subsequently filed their post-trial reply briefs, with

App. 132
defendant filing a sur-reply on issues raised for the
first time in plaintiffs’ reply brief. On May 22, 2017,
plaintiffs filed a third amended complaint that reflected the class certification approved by the court and
the class notice plan subsequently approved by the
court. As noted above, in order to allow plaintiffs to
begin the process of perfecting the class in the event of
a favorable decision or an appeal of this court’s decision, along with their amended complaint, plaintiffs
filed an entry of appearance list listing 1,151 landowners or lessees (or their representatives) who had submitted timely entry of appearance forms.15
DISCUSSION
As noted above, defendant’s motion to dismiss or
for summary judgment as to the claims of any shareholders of the Van Brimmer Ditch Company was deferred to trial and remains outstanding. The court will
15

At the request of the court, on September 8, 2017, defendant filed a status report summarizing the initial results of its review of the entry of appearance forms. In its status report,
defendant states that its review of the entry of appearance forms
indicates that there are over 3,600 individual parcels of land identified by the claimants in their entry of appearance forms. Defendant states that it has no objection to the claims based on 709 of
these parcels. Defendant states that there are additional claims
for which it does not object to the initial eligibility of the claimant
who submitted the form, but notes that there is more than one
landowner identified for the parcel on the relevant Irrigation District’s assessment roll. For those claims, defendant states that additional information and clarification will be required. Finally,
defendant notes that it has stated objections to the initial eligibility to claims based on hundreds of other parcels.

App. 133
turn to that motion first. The court will then proceed to
the merits of the case, plaintiffs’ claims that the government’s actions in 2001 constituted takings under
the Fifth Amendment to the United States Constitution or, as it relates to some of the plaintiffs, a violation
of the Klamath Compact.
I.

Claims of Van Brimmer Ditch Company
Shareholders

Although defendant’s motion regarding the claims
of the Van Brimmer Ditch Company shareholders is titled as a motion to dismiss or alternatively for summary judgment, the motion never cites the standard of
review for a motion to dismiss under Rule 12 of the
Rules of the Rules of the United States Court of Federal Claims (RCFC) (2017) or the particular provision
of RCFC 12 under which defendant seeks to bring its
motion. Indeed, defendant’s motion never even mentions RCFC 12. Instead, the only standard of review
discussed by defendant in its motion is the standard
for summary judgment under RCFC 56. Moreover, certain evidence defendant cites in support of its motion,
such as a declaration submitted by former Van Brimmer Ditch Company President Gary Orem, the 1909
contract between the Van Brimmer Ditch Company
and the United States, and even the trial testimony of
James Moore, would generally be inappropriate to consider under a motion to dismiss under RCFC 12. The
court, therefore, will treat defendant’s motion as one
for summary judgment under RCFC 56.

App. 134
RCFC 56 is similar to Rule 56 of the Federal Rules
of Civil Procedure in language and effect. Both rules
provide that “[t]he court shall grant summary judgment if the movant shows that there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” RCFC 56(a) (2017);
Fed. R. Civ. P. 56(a) (2017); see also Alabama v. North
Carolina, 560 U.S. 330, 344 (2010); Hunt v. Cromartie,
526 U.S. 541, 549 (1999); Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 247-48 (1986); Adickes v. S. H. Kress
& Co., 398 U.S. 144, 157 (1970); Biery v. United States,
753 F.3d 1279, 1286 (Fed. Cir.), reh’g and reh’g en banc
denied (Fed. Cir. 2014); Ladd v. United States, 713 F.3d
648, 651 (Fed. Cir. 2013); Minkin v. Gibbons, P.C., 680
F.3d 1341, 1349 (Fed. Cir. 2012); Noah Sys., Inc. v. Intuit Inc., 675 F.3d 1302, 1309-10 (Fed. Cir. 2012); Advanced Fiber Techs. (AFT) Trust v. J & L Fiber Servs.,
Inc., 674 F.3d 1365, 1372 (Fed. Cir.), reh’g and reh’g en
banc denied (Fed. Cir. 2012); Fujitsu Ltd. v. Netgear
Inc., 620 F.3d 1321, 1325 (Fed. Cir.), reh’g denied (Fed.
Cir. 2010); Consol. Coal Co. v. United States, 615 F.3d
1378, 1380 (Fed. Cir.), reh’g and reh’g en banc denied
(Fed. Cir. 2010), cert. denied, 131 S. Ct. 2990 (2011); 1st
Home Liquidating Trust v. United States, 581 F.3d
1350, 1355 (Fed. Cir. 2009); Arko Exec. Servs., Inc. v.
United States, 553 F.3d 1375, 1378 (Fed. Cir. 2009); Casitas Mun. Water Dist. v. United States, 543 F.3d 1276,
1283 (Fed. Cir. 2008), reh’g and reh’g en banc denied,
556 F.3d 1329 (Fed. Cir. 2009); Moden v. United States,
404 F.3d 1335, 1342 (Fed. Cir.), reh’g and reh’g en banc
denied (Fed. Cir. 2005); Am. Pelagic Fishing Co., L.P. v.
United States, 379 F.3d 1363, 1370-71 (Fed. Cir.), reh’g

App. 135
en banc denied (Fed. Cir. 2004), cert. denied, 545 U.S.
1139 (2005); Mata v. United States, 114 Fed. Cl. 736,
744 (2014); Leggitte v. United States, 104 Fed. Cl. 315,
317 (2012); Arranaga v. United States, 103 Fed. Cl. 465,
467-68 (2012); Cohen v. United States, 100 Fed. Cl. 461,
469 (2011); Boensel v. United States, 99 Fed. Cl. 607,
610 (2011).
A fact is material if it will make a difference in the
result of a case under the governing law. See Anderson
v. Liberty Lobby, Inc., 477 U.S. at 248; see also Marriott
Int’l Resorts, L.P. v. United States, 586 F.3d 962, 968
(Fed. Cir. 2009) (quoting Anderson v. Liberty Lobby,
Inc., 477 U.S. at 248); Mata v. United States, 114 Fed.
Cl. at 744; Arranaga v. United States, 103 Fed. Cl. at
467-68; Thompson v. United States, 101 Fed. Cl. 416,
426 (2011); Cohen v. United States, 100 Fed. Cl. at 469.
Irrelevant or unnecessary factual disputes do not preclude the entry of summary judgment. See Anderson v.
Liberty Lobby, Inc., 477 U.S. at 247-48; see also Scott v.
Harris, 550 U.S. 372, 380 (2007); Monon Corp. v.
Stoughton Trailers, Inc., 239 F.3d 1253, 1257 (Fed. Cir.
2001); Gorski v. United States, 104 Fed. Cl. 605, 609
(2012); Walker v. United States, 79 Fed. Cl. 685, 692
(2008); Curtis v. United States, 144 Ct. Cl. 194, 199, 168
F. Supp. 213, 216 (1958), cert. denied, 361 U.S. 843
(1959), reh’g denied, 361 U.S. 941 (1960).
When reaching a summary judgment determination, the judge’s function is not to weigh the evidence
and determine the truth of the case presented, but to
determine whether there is a genuine issue for trial.
See Anderson v. Liberty Lobby, Inc., 477 U.S. at 249;

App. 136
see, e.g., Schlup v. Delo, 513 U.S. 298, 332 (1995); Ford
Motor Co. v. United States, 157 F.3d 849, 854 (Fed. Cir.
1998) (“Due to the nature of the proceeding, courts do
not make findings of fact on summary judgment.”); TigerSwan, Inc. v. United States, 118 Fed. Cl. 447, 451
(2014); Dana R. Hodges Trust v. United States, 111
Fed. Cl. 452, 455 (2013); Cohen v. United States, 100
Fed. Cl. at 469-70; Boensel v. United States, 99 Fed. Cl.
at 611; Macy Elevator, Inc. v. United States, 97 Fed. Cl.
708, 717 (2011); Dick Pacific/GHEMM, JV ex rel. W.A.
Botting Co. v. United States, 87 Fed. Cl. 113, 126
(2009); Johnson v. United States, 49 Fed. Cl. 648, 651
(2001), aff ’d, 52 F. App’x 507 (Fed. Cir. 2002), published
at 317 F.3d 1331 (Fed. Cir. 2003). The judge must determine whether the evidence presents a disagreement
sufficient to require submission to fact finding, or
whether the issues presented are so one-sided that one
party must prevail as a matter of law. See Anderson v.
Liberty Lobby, Inc., 477 U.S. at 250-52; Jay v. Sec’y of
Dep’t of Health and Human Servs., 998 F.2d 979, 982
(Fed. Cir.), reh’g denied and en banc suggestion declined (Fed. Cir. 1993); Leggitte v. United States, 104
Fed. Cl. at 316. When the record could not lead a rational trier of fact to find for the nonmoving party,
there is no genuine issue for trial, and the motion must
be granted. See, e.g., Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986); Advanced Fiber Techs. (AFT) Trust v. J & L Fiber Servs., Inc., 674
F.3d at 1372; Marriott Int’l Resorts, L.P. v. United
States, 586 F.3d at 968; Am. Seating Co. v. USSC Grp.,
Inc., 514 F.3d 1262, 1266 (Fed. Cir.), reh’g en banc denied (Fed. Cir. 2008); Rothe Dev. Corp. v. U.S. Dep’t of

App. 137
Def., 262 F.3d 1306, 1316 (Fed. Cir. 2001); Hall v. Aqua
Queen Mfg., Inc., 93 F.3d 1548, 1553 n.3 (Fed. Cir.
1996). In such cases, there is no need for the parties to
undertake the time and expense of a trial, and the
moving party should prevail without further proceedings.
In appropriate cases, summary judgment:
saves the expense and time of a full trial when
it is unnecessary. When the material facts are
adequately developed in the motion papers, a
full trial is useless. “Useless” in this context
means that more evidence than is already
available in connection with the motion for
summary judgment could not reasonably be
expected to change the result.
Dehne v. United States, 23 Cl. Ct. 606, 614-15 (1991)
(quoting Pure Gold, Inc. v. Syntex, (U.S.A.) Inc., 739
F.2d 624, 626 (Fed. Cir. 1984)), vacated on other
grounds, 970 F.2d 890 (Fed. Cir. 1992) (citation omitted); see also Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc.,
200 F.3d 795, 806 (Fed. Cir. 1999) (“The purpose of
summary judgment is not to deprive a litigant of a
trial, but to avoid an unnecessary trial when only one
outcome can ensue.”); Metric Constr. Co., Inc. v. United
States, 73 Fed. Cl. 611, 612 (2006).
Summary judgment, however, will not be granted
if “the dispute about a material fact is ‘genuine,’ that
is, if the evidence is such that a reasonable [trier of
fact] could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. at 248; see

App. 138
also Long Island Sav. Bank, FSB v. United States, 503
F.3d 1234, 1244 (Fed. Cir.), reh’g and reh’g en banc denied (Fed. Cir. 2007), cert. denied, 555 U.S. 812 (2008);
Eli Lilly & Co. v. Barr Labs., Inc., 251 F.3d 955, 971
(Fed. Cir.), reh’g and reh’g en banc denied (Fed. Cir.
2001), cert. denied, 534 U.S. 1109 (2002); Gen. Elec. Co.
v. Nintendo Co., 179 F.3d 1350, 1353 (Fed. Cir. 1999);
TigerSwan, Inc. v. United States, 118 Fed. Cl. at 451;
Stephan v. United States, 117 Fed. Cl. 68, 70 (2014);
Gonzales-McCaulley Inv. Group, Inc. v. United States,
101 Fed. Cl. 623, 629 (2011). In other words, if the nonmoving party produces sufficient evidence to raise a
question as to the outcome of the case, then the motion
for summary judgment should be denied. Any doubt
over factual issues must be resolved in favor of the
party opposing summary judgment, to whom the benefit of all presumptions and inferences runs. See Ricci
v. DeStefano, 557 U.S. 557, 586 (2009); Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. at 58788; Yant v. United States, 588 F.3d 1369, 1371 (Fed. Cir.
2009), cert. denied, 131 S. Ct. 69 (2010); Dethmers Mfg.
Co. v. Automatic Equip. Mfg. Co., 272 F.3d 1365, 1369
(Fed. Cir. 2001), reh’g and reh’g en banc denied, 293
F.3d 1364 (Fed. Cir. 2002), cert. denied, 539 U.S. 957
(2003); Monon Corp. v. Stoughton Trailers, Inc., 239
F.3d at 1257; Wanlass v. Fedders Corp., 145 F.3d 1461,
1463 (Fed. Cir.), reh’g denied and en banc suggestion
declined (Fed. Cir. 1998); see also Am. Pelagic Co. v.
United States, 379 F.3d at 1371 (citing Helifix Ltd. v.
Blok-Lok, Ltd., 208 F.3d 1339, 1345-46 (Fed. Cir.
2000)); Dana R. Hodges Trust v. United States, 111
Fed. Cl. at 455; Boensel v. United States, 99 Fed. Cl. at

App. 139
611 (“ ‘The evidence of the nonmovant is to be believed,
and all justifiable inferences are to be drawn in his favor.’ ” (quoting Anderson v. Liberty Lobby, Inc., 477 U.S.
at 255) (citing Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. at 587-88; Casitas Mun. Water Dist.
v. United States, 543 F.3d at 1283; Lathan Co. Inc. v.
United States, 20 Cl. Ct. 122, 125 (1990))); see also Am.
Seating Co. v. USSC Grp., Inc., 514 F.3d at 1266-67;
Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d at
807. “However, once a moving party satisfies its initial
burden, mere allegations of a genuine issue of material
fact without supporting evidence will not prevent entry of summary judgment.” Republic Sav. Bank, F.S.B.
v. United States, 584 F.3d 1369, 1374 (Fed. Cir. 2009);
see also Anderson v. Liberty Lobby, Inc., 477 U.S. at
247-48.
The initial burden on the party moving for summary judgment to produce evidence showing the absence of a genuine issue of material fact may be
discharged if the moving party can demonstrate that
there is an absence of evidence to support the nonmoving party’s case. See Celotex Corp. v. Catrett, 477 U.S.
317, 325 (1986); see also Riley & Ephriam Constr. Co.
v. United States, 408 F.3d 1369, 1371 (Fed. Cir. 2005);
Crown Operations Int’l Ltd. v. Solutia Inc., 289 F.3d
1367, 1377 (Fed. Cir.), reh’g denied (Fed. Cir. 2002);
Trilogy Commc’ns, Inc. v. Times Fiber Commc’ns, Inc.,
109 F.3d 739, 741 (Fed. Cir.) (quoting Conroy v. Reebok
Int’l, Ltd., 14 F.3d 1570, 1575 (Fed. Cir. 1994), reh’g denied and en banc suggestion declined (Fed. Cir. 1995)),
reh’g denied and en banc suggestion declined (Fed. Cir.

App. 140
1997); Lockwood v. Am. Airlines, Inc., 107 F.3d 1565,
1569 (Fed. Cir. 1997); Vivid Techs., Inc. v. Am. Sci. &
Eng’g, Inc., 200 F.3d at 807; RQ Squared, LLC v. United
States, No. 12-527C, 2015 WL 170230, at *6 (Fed. Cl.
Jan. 14, 2015). If the moving party makes such a showing, the burden shifts to the nonmoving party to
demonstrate that a genuine dispute regarding a material fact exists by presenting evidence which establishes the existence of an element essential to its case
upon which it bears the burden of proof. See Celotex
Corp. v. Catrett, 477 U.S. at 322; see also Wavetronix
LLC v. EIS Elec. Integrated Sys., 573 F.3d 1343, 1354
(Fed. Cir. 2009); Long Island Sav. Bank, FSB v. United
States, 503 F.3d at 1244; Florida Power & Light Co. v.
United States, 375 F.3d 1119, 1124 (Fed. Cir. 2004);
Schoell v. Regal Marine Indus., Inc., 247 F.3d 1202,
1207 (Fed. Cir. 2001); Am. Airlines, Inc. v. United
States, 204 F.3d 1103, 1108 (Fed. Cir. 2000); Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d at 807;
Rasmuson v. United States, 109 Fed. Cl. 267, 271
(2013). However, “a non-movant is required to provide
opposing evidence under Rule 56(e) only if the moving
party has provided evidence sufficient, if unopposed, to
prevail as a matter of law.” Saab Cars USA, Inc. v.
United States, 434 F.3d 1359, 1369 (Fed. Cir. 2006).
Even if both parties argue in favor of summary
judgment and allege an absence of genuine issues of
material fact, the court is not relieved of its responsibility to determine the appropriateness of summary
disposition in a particular case, and it does not follow
that summary judgment should be granted to one side

App. 141
or the other. See Prineville Sawmill Co. v. United
States, 859 F.2d 905, 911 (Fed. Cir. 1988) (citing Mingus Constructors, Inc. v. United States, 812 F.2d 1387,
1391 (Fed. Cir. 1987)); see also Marriott Int’l Resorts,
L.P. v. United States, 586 F.3d 962, 968-69 (Fed. Cir.
2009); B.F. Goodrich Co. v. U.S. Filter Corp., 245 F.3d
587, 593 (6th Cir. 2001); Atl. Richfield Co. v. Farm
Credit Bank of Wichita, 226 F.3d 1138, 1148 (10th Cir.
2000); Chevron USA, Inc. v. Cayetano, 224 F.3d 1030,
1037 n.5 (9th Cir. 2000), cert. denied, 532 U.S. 942
(2001); Bubble Room, Inc. v. United States, 159 F.3d
553, 561 (Fed. Cir. 1998) (“The fact that both the parties have moved for summary judgment does not mean
that the court must grant summary judgment to one
party or the other.”), reh’g denied and en banc suggestion declined (Fed. Cir. 1999); Allstate Ins. Co. v. Occidental Int’l, Inc., 140 F.3d 1, 2 (1st Cir. 1998); Massey
v. Del Labs., Inc., 118 F.3d 1568, 1573 (Fed. Cir. 1997);
LewRon Television, Inc. v. D.H. Overmyer Leasing Co.,
401 F.2d 689, 692 (4th Cir. 1968), cert. denied, 393 U.S.
1083 (1969); Rogers v. United States, 90 Fed. Cl. 418,
427 (2009), subsequent determination, 93 Fed. Cl. 607
(2010); Consol. Coal Co. v. United States, 86 Fed. Cl.
384, 387 (2009), aff ’d, 615 F.3d 1378, (Fed. Cir.), and
reh’g and reh’g en banc denied (Fed. Cir. 2010), cert.
denied, 131 S. Ct. 2990 (2011); St. Christopher Assocs.,
L.P. v. United States, 75 Fed. Cl. 1, 8 (2006), aff ’d, 511
F.3d 1376 (Fed. Cir. 2008); Reading & Bates Corp. v.
United States, 40 Fed. Cl. 737, 748 (1998). The court
must evaluate each party’s motion on its own merits,
taking care to draw all reasonable inferences against
the party whose motion is under consideration, or,

App. 142
otherwise stated, in favor of the non-moving party. See
First Commerce Corp. v. United States, 335 F.3d 1373,
1379 (Fed. Cir.), reh’g and reh’g en banc denied (Fed.
Cir. 2003); see also DeMarini Sports, Inc. v. Worth, Inc.,
239 F.3d 1314, 1322 (Fed. Cir. 2001); Gart v. Logitech,
Inc., 254 F.3d 1334, 1338-39 (Fed. Cir.), reh’g and reh’g
en banc denied (Fed. Cir. 2001), cert. denied, 534 U.S.
1114 (2002); Oswalt v. United States, 85 Fed. Cl. 153,
158 (2008); Telenor Satellite Servs., Inc. v. United
States, 71 Fed. Cl. 114, 119 (2006).
Cross-motions are no more than a claim by each
party that it alone is entitled to summary judgment.
The making of such inherently contradictory claims,
however, does not establish that if one is rejected the
other necessarily is justified. See B.F. Goodrich Co. v.
United States Filter Corp., 245 F.3d at 593; Atl. Richfield Co. v. Farm Credit Bank of Wichita, 226 F.3d at
1148; Allstate Ins. Co. v. Occidental Int’l, Inc., 140 F.3d
at 2; Rogers v. United States, 90 Fed. Cl. at 427; Reading & Bates Corp. v. United States, 40 Fed. Cl. at 748.
Defendant moves for the dismissal of the claims of
any plaintiffs who are shareholders of the Van Brimmer Ditch Company on the grounds that such claims
are barred by Judge Sypolt’s November 13, 2003 Order.
Among the named plaintiffs, only James and Cheryl
Moore were shareholders of the Van Brimmer Ditch
Company, although the decision on defendant’s motion
applies to any and all plaintiff class members who receive their water as shareholders of the Van Brimmer
Ditch Company. According to defendant, the November
13, 2003 Order remains in effect because it was not

App. 143
challenged by plaintiffs on appeal and the Federal Circuit ultimately declined to rule on defendant’s argument that Van Brimmer’s claim was barred by the
November 2003 Order. See Klamath Irr. Dist. v. United
States, 635 F.3d at 519 n.10. Defendant argues that
both the claims in the present cases of plaintiffs who
are shareholders in the Van Brimmer Ditch Company
and those that were at issue in case 003 of the Klamath
Adjudication are based on the right to use the 50 cfs of
water identified in Van Brimmer’s 1909 contract with
the United States. Defendant argues that for plaintiffs
who are shareholders of the Van Brimmer Ditch Company, such as James and Cheryl Moore, their shares in
Van Brimmer Ditch Company stock are the source of
their right to receive Klamath Project water. According
to defendant, this means that, unlike other plaintiffs
in these cases, the plaintiffs who are shareholders of
the Van Brimmer Ditch Company do not claim a beneficial interest in Klamath Project waters, but, instead,
hold a proportionate share of the 50 cfs of water that
was the subject of the Van Brimmer Ditch Company’s
1909 contract with the United States. According to defendant, these rights are identical to the rights asserted by the Van Brimmer Ditch Company in the
Klamath Adjudication and, therefore, barred by Judge
Sypolt’s November 13, 2003 Order.
Plaintiffs reject defendant’s argument that the
November 13, 2003 Order remains valid and continue
to argue that the rights asserted by the Van Brimmer
shareholders are not the same as those that were at
issue in the Klamath Adjudication. Plaintiffs argue

App. 144
that the Judge Sypolt’s November 13, 2003 Order “no
longer serves any legitimate purpose” because “[t]he
reason for the 2003 order no longer exists.” According
to the plaintiffs, the purpose of Judge Sypolt’s November 13, 2003 Order was to address defendant’s May 10,
2002 motion to stay the then-titled Klamath Irrigation
District case, now identified as the Baley case, case
number 1-591L, until the Klamath Adjudication was
decided, and because the Klamath Adjudication was
completed on February 28, 2014, the Order is “now
moot.” Plaintiffs also argue that the claims of the
Moores and other plaintiffs who are Van Brimmer
Ditch Company shareholders are not based on their
ownership of Van Brimmer Ditch Company stock, but,
instead, are based on their beneficial interests in Klamath Project waters just like all other plaintiffs in the
above-captioned cases.
The court turns first to plaintiffs’ argument that
Judge Sypolt’s November 13, 2003 Order is “now moot”
because it was intended only to address defendant’s
May 10, 2002 motion to stay case number 1-591L,
pending the conclusion of the Klamath Adjudication.
Initially, the court notes that the plain language of the
November 13, 2003 Order contains no language describing its effects as temporary. Instead, the Order appears to impose, without qualification, a permanent
bar on the types of claims plaintiffs may bring, stating:
“plaintiffs are barred from making any claims or seeking any relief in this case based on rights, titles, or interests that are or may be subject to determination in

App. 145
the Adjudication,” clearly referring to the Klamath Adjudication.
Although Judge Sypolt’s Order is extremely short
and not the clearest, the language of the November 13,
2003 Order does not support plaintiffs’ argument that
the only purpose of the Order was to address defendant’s motion so [sic] stay. The November 13, 2003
Order decided both defendant’s May 10, 2002 motion
to stay the case on the grounds that issues relevant to
the case were the subject of the then ongoing Klamath
Adjudication and plaintiffs’ September 22, 2003 motion for summary judgment that the property rights
determination in the Klamath Adjudication was irrelevant to plaintiffs’ interest in the then-titled Klamath
Irrigation District case. After finding, in favor of plaintiffs, that “it appear[ed]” that plaintiffs in Klamath
Irrigation District “assert no property interest determinable in the Adjudication” and, therefore, denying
defendant’s motion to stay the case and granting
plaintiffs’ summary judgment motion, the court added
language barring claims subject to the Klamath Adjudication, stating that it was doing so “[b]ased on plaintiffs’ assertion that no rights or interests in this case
are affected by the Adjudication.” This language from
Judge Sypolt’s November 13, 2003 Order indicates that
a purpose of the Order was to prevent plaintiffs from
later disavowing their assertion that none of the rights
they asserted in the Klamath Irrigation District case
would be affected by the Klamath Adjudication, the
basis on which Judge Sypolt made her decision. To hold
now that the November 13, 2003 Order is no longer

App. 146
binding on the parties would not only be contrary to its
plain language, but also would undermine its apparent
intent of holding plaintiffs accountable for the statements they made in order to receive the benefit of the
court’s decision and avoid the stay sought by defendant. The court, therefore, holds that the November 13,
2003 Order remains in effect and continues to bar
plaintiffs from [sic] “from making any claims or seeking any relief in this case based on rights, titles, or interests that are or may be subject to determination in
the Adjudication.”16
Having determined that the November 13, 2003
Order remains in effect, the court now turns to the issue of whether the claims of the Van Brimmer Ditch
Company’s shareholders are “based on rights, titles, or
interests that are or may be subject to determination
in the [Klamath] Adjudication” and, thus, are barred
by the November 13, 2003 Order. In claims 298, 321-6,
and 321-7 of case 003 of the Klamath Adjudication, the
Van Brimmer Ditch Company and the United States
brought competing claims based on the water rights
appropriated by the Van Brimmer brothers in 1883
and 1884, and subsequently at issue in the 1909 contract between Van Brimmer and the United States.
The Klamath adjudicator granted the Van Brimmer
Ditch Company’s claim and denied the claim of the
16

The court notes that, although the November 13, 2003 Order was addressed only to plaintiffs in the Klamath Irrigation
District case (the John Anderson Farms had not yet been filed on
November 13, 2003), a single class has since been certified for all
of the consolidated cases, Baley and John Anderson Farms.

App. 147
United States, finding that the Van Brimmer Ditch
Company held appropriative water rights to 50 cfs of
water, with a priority date of September 4, 1883, and
that the 1909 agreement limited Van Brimmer’s water
rights to 50 cfs, but did not transfer these rights to the
United States. In a July 16, 2003 declaration submitted in case 1-591L in this court, Van Brimmer Ditch
Company President Gary D. Orem describes the water
rights held by the Van Brimmer Ditch Company as
arising in a virtually identical way to the water rights
the Van Brimmer Ditch Company claimed and was
awarded in the Klamath Adjudication. In his declaration, Mr. Orem describes the Van Brimmer brothers’
1883 and 1884 notices of appropriation of water from
Lower Klamath Lake, the completion of an irrigation
ditch and beginning of irrigation in 1886, the conveyance of the Van Brimmer brothers’ water rights to the
Van Brimmer Ditch Company in 1903, and the 1909
contract between the Van Brimmer Ditch Company
and the United States, in which the United States
Agreed to deliver 50 cfs of water from Lower Klamath
Lake to the Van Brimmer Ditch Company for irrigation
purposes. Mr. Orem alleges, consistent with the Van
Brimmer Ditch Company’s claims in the Klamath Adjudication, that in the 1909 contract the United States
“recognized” the Van Brimmer Ditch Company’s
“vested right to the use of fifty second feet of water for
irrigation purposed from the water of Lower Klamath
Lake” and that the Van Brimmer Ditch Company’s
right to the 50 cfs of water “was never owned by the
United States.” Based on the declaration of its own
president, therefore, the Van Brimmer Ditch

App. 148
Company’s claims in the present case appear to be
based on the same water rights that were at issue in
the Klamath Adjudication.
Despite this evidence, plaintiffs argue that plaintiffs who are Van Brimmer Ditch Company shareholders claims in the present litigation differ from those
that were before the Klamath Adjudication because, in
the present cases, these plaintiffs’ claims are based
solely on their beneficial rights to Klamath Project water, rather than on their shares in the Van Brimmer
Ditch Company. The evidence, however, demonstrates
that any interests that the Van Brimmer Ditch Company’s users may have in Klamath Project water are
simply derivative of the Van Brimmer Ditch Company’s water rights. The Van Brimmer Ditch Company’s articles of incorporation state that its purpose
was to use the waters of Lower Klamath Lake “as has
heretofore been appropriated and used” by the Van
Brimmer brothers for irrigation purposes, and that
each share was to be distributed for one acre of irrigable land dependent upon the Van Brimmer Ditch Company ditch for its water supply. Today, the Van
Brimmer Ditch Company continues to distribute water
to its users based on the number of shares they hold in
the company, with each share corresponding to the
right to receive water for one acre of irrigable land.
Thus, the water rights held by the Van Brimmer Ditch
Company’s users are to a portion of the water rights
held by the Van Brimmer Ditch Company, i.e., to a portion of the water that was at issue in claims 298, 3216, and 321-7 of case 003 of the Klamath Adjudication.

App. 149
As such, any claims brought by the Van Brimmer Ditch
Company’s users in the present litigation would be
based on water rights that were at issue in the Klamath adjudication and barred by the Judge Sypolt’s
November 13, 2003 Order. Defendant’s motion for summary judgment is granted, and plaintiffs who are
shareholders of the Van Brimmer Ditch Company, such
as James and Cheryl Moore, therefore, are barred from
bringing any claims based on their rights to receive
Klamath Project water based on these shares. The
claims of such plaintiffs are dismissed.
II.

Plaintiffs’ Takings and Klamath Compact
Claims

Turning to the merits of the takings and Klamath
Compact claims, the remaining plaintiffs in the class
actions allege that the government’s actions in 2001
constituted a taking under the Fifth Amendment to
the United States Constitution of their beneficial interest in Klamath Project water and an impairment of
their right to receive Klamath Project water in violation of the Klamath Compact, for which they are owed
just compensation. In its February 17, 2011 decision
remanding case number 1-591 to this court, the United
States Court of Appeals for the Federal Circuit instructed this court to proceed with plaintiffs’ takings
and Klamath Compact claims using the following twostep process:
First, it should determine, for purposes of
plaintiffs’ takings and Compact claims,
whether plaintiffs have asserted cognizable

App. 150
property interests. . . . To the extent the Court
of Federal Claims determines that one or
more plaintiffs have asserted cognizable property interests, it then should determine
whether, as far as the takings and Compact
claims are concerned, those interests were
taken or impaired.
Klamath Irr. Dist. v. United States, 635 F.3d at 519-20.
A. Have Plaintiffs Asserted
Property Interests

Cognizable

The court turns first to the issue of “whether plaintiffs have asserted cognizable property interests.” Id. at
519. In response to a certified question sent by the Federal Circuit in case number 1-591, the Supreme Court
of Oregon set forth the following three factor test for
determining, “[u]nder Oregon law, whether plaintiffs
acquired an equitable or beneficial property interest in
the water right”:
whether plaintiffs put the water to beneficial
use with the result that it became appurtenant to their land, whether the United States
acquired the water right for plaintiffs’ use and
benefit, and, if it did, whether the contractual
agreements between the United States and
plaintiffs somehow have altered that relationship. In this case, the first two factors suggest
that plaintiffs acquired a beneficial or equitable property interest in the water right to
which the United States claims legal title, but
we cannot provide a definitive answer to the

App. 151
court’s second question because all the agreements between the parties are not before us.
Klamath Irr. Dist. v. United States, 635 F.3d at 515
(quoting Klamath Irr. Dist. v. United States, 227 P.3d
at 1169). In its February 17, 2011 decision, the Federal
Circuit instructed that, in determining whether plaintiffs have asserted cognizable property interests, this
court “should direct its attention to the third part of
the three-part test set forth by the Oregon Supreme
Court in response to our certified question 2.” Id. at
519. The Federal Circuit explained:
That is because it is not disputed that, in this
case, the first two parts of the three-part test
have been met. Specifically, the parties do not
dispute that plaintiffs have put Klamath Project water to beneficial use and that the
United States acquired the pertinent water
rights for plaintiffs’ use and benefit.
Id. With regard to the third part of the Oregon Supreme Court’s test, the Federal Circuit instructed this
court to “address whether contractual agreements between plaintiffs and the government have clarified, redefined, or altered the foregoing beneficial relationship
so as to deprive plaintiffs of cognizable property interests for purposes of their takings and Compact claims.”
Id. The Federal Circuit specified that this court
should give the government the opportunity
to demonstrate how plaintiffs’ beneficial/
equitable rights to the use of Klamath Project
water have been clarified, redefined, or altered. In that context, it will be the

App. 152
government’s burden to demonstrate with
specificity how the beneficial/equitable rights
of one or more plaintiffs have been clarified,
redefined, or altered. After the government
has come forward with its showing, plaintiffs
will have the opportunity to respond.
Id. at 519–20 (footnotes omitted).
As instructed by the Federal Circuit, the court
turns to the issue of whether “contractual agreements
between plaintiffs and the government have clarified,
redefined, or altered the foregoing beneficial relationship so as to deprive plaintiffs of cognizable property
interests for purposes of their takings and Compact
claims.” Id. at 519. Defendant argues that plaintiffs’
beneficial rights have been altered by language, including the various shortage provisions, contained in the
various contracts governing delivery of Klamath Project water, in particular the Form A and B applications,
the repayment contracts with the Klamath Irrigation
District and the Tulelake Irrigation District, the Warren Act contracts, and the leases for lands in the National Wildlife Refuges. Plaintiffs reject defendant’s
assertion that the contracts have altered plaintiffs’
rights, on the grounds that plaintiffs never signed any
of the contracts that allegedly altered their rights, nor
are they in privity with anyone who did.
Initially, the court notes that, throughout its posttrial brief, defendant alleges that the contracts governing the delivery of water from the Klamath Project
“created” any property rights in the Klamath Project
water plaintiffs may have held. As a matter of law, this

App. 153
is incorrect. Although it is unclear precisely what defendant means by this statement, the Oregon Supreme
Court explained in its March 11, 2010 decision that,
“[u]nder Oregon law, the water right became appurtenant to the land once the persons taking the water
from the Klamath Project applied it to their land and
put it to beneficial use.” Klamath Irr. Dist. v. United
States, 227 P.3d at 1163. The Oregon Supreme Court
went on to note that any contractual agreements between plaintiffs and the United States could have
“clarified, redefined, or even altered” the relationship
between the United States and the plaintiffs on whose
behalf the United States originally appropriated the
waters of the Klamath Project. Id. at 1165. For instance, such agreements could have caused plaintiffs
to have either acquired or lost rights to water that had
also been put to beneficial use. See id. (“For instance,
we cannot foreclose the possibility that plaintiffs could
have bargained away any equitable or legal right to the
water in return for a reduced payment schedule or forgiveness of their debt. Conversely, the United States
may have granted plaintiffs either patents, water
rights, or contractual rights that would be sufficient,
as a matter of state law, for plaintiffs to have acquired
at a minimum an equitable property interest in the
water.”). The contracts, could not, however, by themselves create a right to beneficial use in water. See id.
at 1169 (setting forth the three factors that, under Oregon law, determine “whether plaintiffs acquired an
equitable or beneficial property interest in the water
right”). The court now turns to the specifics of each of
the contracts governing the delivery of Klamath

App. 154
Project water in order to determine if they clarified, redefined, or altered the rights held by plaintiffs in Klamath Project water. Because the various agreements
defendant alleges affected plaintiffs’ rights differ significantly in history and language, the court examines
each set of contracts separately.
1. Form A and B Applications
The court first reviews the Form A and B applications. These applications for water rights were used by
the United States Department of the Interior in the
early days of the Klamath Project, prior to the establishment of Irrigation Districts. See Laws and Regulations Relating to the Reclamation of Arid Lands, 45
L.D. 385, 406-8. The Form A application was to be used
by homesteaders settling into reclaimed lands, while
the Form B application was to be used by owners of
private lands. Id. Defendant does not allege, and there
is no evidence in the record to suggest, that any of the
plaintiffs signed any of these applications. Instead, defendant argues that, because the terms and conditions
of the contracts continue to run with the land, the
plaintiffs who are the successors-in-interest to the signors of the Forms A and B applications remain bound
by these terms and conditions.
In support of its argument that the terms and conditions of Form A applications run with the land, defendant points to the provision in the Form A
applications which states: “All of the within terms and
conditions, in so far as they relate to said land, shall be

App. 155
a charge upon said land to run with the title to same.”
The meaning of the word “charge” in this clause appears to be: “An encumbrance, lien, or claim.” Charge,
Black’s Law Dictionary 282 (10th ed. 2014) (“<a charge
on property.”). Thus, it would appear, based on this provision, that all of the applications’ provisions, including
the shortage provisions, were intended to run with the
lands the applications concerned, and, therefore, bind
the signors’ successors-in-interest in those lands.
In response to the evidence offered by the defendant, plaintiffs point out that after homesteaders who
signed Form A applications completed the homesteading process, they were issued patent deeds giving them
ownership over the lands they homesteaded. Such patent deeds were issued for each of properties identified
with each of the Form A applications admitted during
trial. These patent deeds conveyed to the homesteaders
the Tract above described [in the patent deed],
together with the right to the use of water
from the Klamath Reclamation Project as an
appurtenance to the irrigable lands in said
tract; TO HAVE AND TO HOLD the same, together with all the rights, privileges, immunities, and appurtenances, of whatsoever
nature, thereunto belonging, unto the said
[name] and to his heirs and assigns forever
. . . but excepting, nevertheless, and reserving
unto the United States, rights of way over,
across, and through said lands for canals and
ditches constructed, or to be constructed, by
its authority. . . .

App. 156
(capitalization in original). The patent deeds, thus, conveyed the land and an appurtenant water right, while
reserving the right of the United States to enter the
lands for Klamath Project purposes. Additionally, some
of the patent deeds contained clauses reserving to the
United States any “fissionable” minerals contained in
the lands or rights of way for the maintenance of power
transmission lines. The deeds make no mention, however, of any other conditions on the property rights.
Although defendant argues that the “water right”
conveyed by these patents “is the water right described
and defined by the Form A contract,” there is no indication in the patent deeds that they were intended to
incorporate the terms of the Form A applications. “The
general rule, long recognized in California, is that
‘ “where a deed is executed in pursuance of a contract
for the sale of land, all prior proposals and stipulations
are merged, and the deed is deemed to express the final
and entire contract between the parties.” ’ ” Ram’s Gate
Winery, LLC v. Roche, 235 Cal. App. 4th 1071, 1079,
(Cal. App. 2015) (quoting Bryan v. Swain, 56 Cal. 616,
618 (1880); Riley v. North Star Mining Co. 93 P. 194
(Cal. 1907); Palos Verdes Corp. v. Housing Authority,
202 Cal. App. 2d 827, 836 (Cal. App. 1962)). Similarly,
in Oregon, “[t]he general rule is that, when a deed to
property is delivered and accepted, that deed embodies
the entire agreement of the parties to a property sale.
Any prior agreements or understandings regarding ‘title, possession, quantity, or emblements of the land’
merge into the deed and are superseded by the deed’s
terms.” Winters v. Cty. of Clatsop, 150 P.3d 1104, 1108

App. 157
(Or. App. 2007) (citing City of Bend v. Title & Trust Co.,
134 Or. 119, 126-27 (1930); Archambault v. Ogier, 194
Or. App. 361, 369 (2004))). Thus, any obligations that
encumbered the lands for which Form A applications
were signed were extinguished by the patent deeds unless they also were included in the patent deeds. The
Form A applications do not, therefore, alter the plaintiffs’ equitable interests in Klamath Project water.
The Form B application does not contain a provision similar to the Form A application stating that its
conditions run with title to the lands. The only evidence defendant offers in support of its contention that
the provisions in the Form B applications run with the
land is that both the Form A and Form B applications
were recorded in the county records and that a Bureau
of Reclamation senior water and land specialist,
George Driscol, testified at trial that the Bureau of
Reclamation continues to refer to provisions of the applications concerning the government’s rights to use
the lands for constructing Klamath Project facilities. It
is not obvious why recording a contract with a county
recorder would bind anyone other than the signor of
that contract to its terms, nor does defendant offer an
explanation. Further, general statements about the
policies of the Bureau of Reclamation regarding records are not evidence as to the legal significance of
those records. As such, the court holds that the Form B
applications do not alter any plaintiffs’ beneficial interests in Klamath Project water.

App. 158
2. Repayment Contracts with Klamath
Irrigation District and Tulelake Irrigation District
Defendant also argues that the provisions of the
repayment contracts between the United States and
the Klamath Irrigation District and between the
United States and Tulelake Irrigation District, including their shortage provisions, alter the water rights of
plaintiffs who receive water from these Irrigation Districts. Defendant’s reasoning is essentially identical
with respect to both of these contracts. Initially, defendant concedes that no landowners within the Klamath Irrigation District or the Tulelake Irrigation
District are signatories to the Districts’ contracts with
the United States. With regard to landowners within
the Klamath Irrigation District, defendant notes that
plaintiffs’ predecessors-in-interest, after filing their
Form B applications, formed the Klamath Irrigation
District. Defendant then asserts that, when the Klamath Irrigation District entered into a contract with
the government on November 29, 1954, these landowners lands, and their appurtenant water rights, became
“subject to the terms and conditions contained in the
KID [Klamath Irrigation District] contract.” Similarly,
with regards to those plaintiffs within the Tulelake
Irrigation District, defendant notes that plaintiffs’ predecessors-in-interest, after filing their Form A applications, subsequently formed the Tulelake Irrigation
District and included their lands within the Tulelake
Irrigation District. Defendant then asserts that, when
the Tulelake Irrigation District entered into a contract

App. 159
with the government in 1956, these landowners’ lands,
and their appurtenant water rights, became “subject to
the terms and conditions contained in the TID
[Tulelake Irrigation District] contract.”
The November 28, 1954 contract between the Klamath Irrigation District and the United States was
signed by these two parties only, and does not purport
to bind any third parties. Similarly, the September 10,
1956 contract between the Tulelake Irrigation District
and the United States is signed by these two parties
only, and does not purport to bind any third parties.
Further, the only purposes of the contracts appear to
have been to have the Irrigation Districts assume the
costs of repaying the United States for the construction
of the Klamath Project and to transfer to the Irrigation
Districts the operation of the Klamath Project works
delivering the water to the lands within the Irrigation
Districts. The preamble to the Klamath Irrigation District’s contract states that the District is “obligated . . .
to repay to the United States that part of the expenditures made by the United States in the construction of
the Project which is properly allocable to the District”
and that “the District . . . desires to enter into an
amendatory contract with the United States, which
would provide for the District to take over the operation and maintenance of certain of the Project works.”
Similarly, the preamble to the Tulelake Irrigation District’s contract states that it is entering into the contract for “furnishing by the United States of a water
supply from the [Klamath] Project works and for the
repayment of the construction charges” of the Klamath

App. 160
Project, and that because both parties wanted to provide “for the transfer to the District of the operation
and maintenance of works and properties used or useful for the delivery of water to and protection of the
lands within the District.” The contracts then set forth
the respective obligations of the Irrigation Districts
and the United States in operating these works.
Nowhere do the contracts purport to alter or otherwise impact any landowner’s water rights, which defendant admits were already appurtenant to the lands
within the Klamath Irrigation District and the
Tulelake Irrigation District prior to the creation of
these Irrigation Districts. Further, it is not correct to
argue that the individual landowners within the Klamath and Tulelake Irrigation Districts are subject to
the terms of the contracts, which are addressed directly to the Irrigation Districts and relate to activities
the Irrigation Districts would have to carry out in their
corporate capacities. For instance, both contracts require that, “[t]he District shall, at its expense . . . maintain all water measuring and controlling devices and
gauges as have been constructed or installed by the
United States or by the District in connection with the
transferred works,” and that, “[t]he District shall, at its
own expense, keep a reasonably accurate record of all
crops raised . . . on District lands.” Nor does defendant
provide alternative legal grounds arising outside of the
language of the contracts as to why individual landowners would be bound by their terms. That the plaintiffs’ predecessors-in-interest created the Klamath
Irrigation District and the Tulelake Irrigation District,

App. 161
does not, as defendant asserts, imply that the plaintiffs’ lands are “subject to the terms and conditions” of
the contracts entered into between these Irrigation
Districts and the United States. Defendant has failed
to meet its burden of demonstrating that plaintiffs’
rights have been altered by the November 29, 1954
contract between the Klamath Irrigation District and
the United States or by the September 10, 1956 contract between the Tulelake Irrigation District and the
United States.
3. Warren Act Contracts
Defendant also argues that the rights of plaintiffs
who receive their water under individual Warren Act
contracts or from an Irrigation District receiving water
pursuant to a Warren Act contract, are altered by the
terms of these contracts, including their shortage provisions. Warren Act contracts governing the delivery of
water to ten Irrigation districts, the Enterprise Irrigation District, the Klamath Basin Improvement District, the Klamath Drainage District, the Malin
Irrigation District, the Midland District Improvement
Company, the Pine Grove Irrigation District, the Poe
Valley Improvement District, the Shasta View Irrigation District, the Sunnyside Irrigation District, and
the Westside Improvement District, were admitted
into evidence at trial. Additionally, three Warren Act
contracts governing the delivery of water to the predecessors-in-interest of two named plaintiffs in the
above-captioned cases were also admitted into evidence at trial. With regard to both sets of contracts,

App. 162
defendant argues that “the right of the landowner to
receive water . . . is defined and limited by the terms of
the applicable Warren Act contract.” Plaintiffs argue
that the Warren Act contracts entered into by the Irrigation Districts cannot affect the rights of individual
plaintiffs because the plaintiffs themselves were not a
party to these contracts.
Unlike the contracts entered into between the Klamath Irrigation District and the Tulelake Irrigation
District with the United States, the Warren Act contracts do not focus only on repayment to the United
States for the construction of Klamath Project works
and the operation of these works. Instead, the Warren
Act contracts demonstrate an additional desire of the
Irrigation Districts to secure water for their members.
For instance, the contract with the Malin Irrigation
District states that, “the District was organized for the
purpose of securing and distributing water for the irrigation of its lands, and desires the United States to
construct certain irrigation works and supply irrigation water from the Klamath project for such district
lands.” Further, unlike the Klamath Irrigation District
and Tulelake Irrigation District repayment contracts,
the Warren Act contracts go beyond describing the logistics of distributing water to define and set limits on
the amount of water that will be furnished by the
United States to the Districts. For instance, the contract of the Malin Irrigation District specifies the Klamath Project canal through which the United States
will release the water and sets three limits on the
amounts that can be released, stating that the amount:

App. 163
“shall not exceed the amount that can be furnished . . .
at a cost of Thirty-four Dollars ($34.00) per acre”; “nor
shall it exceed two acre-feet per acre of irrigable land
during the usual irrigation season”; “and in no event
shall it exceed 0.6 acre-feet of water per irrigable acre
in any one month.” Finally, the contracts set a priority
for the water vis-à-vis other Klamath Project appropriators, stating that the use rights acquired by the contract are inferior to the rights of prior appropriators,
such as the Klamath Irrigation District, the Tulelake
Irrigation District, and the Van Brimmer Ditch Company. These contracts do not, therefore, simply alter
the rights the United States was appropriating on behalf of the Irrigation Districts or the individual contractors, they define these rights. Because any right in
Klamath Project water acquired by plaintiffs who received water from an Irrigation District with a Warren
Act contract could not have been greater than the
rights acquired by the Irrigation District, the water
rights of such plaintiffs are limited by the provisions of
the Warren Act contracts.
The individual Warren Act contracts, like the
Form A applications, and unlike the Form B applications, make clear that their terms run with the land,
stating: “The terms of this contract shall inure to the
benefit of and be binding upon the successors in interest and assigns of the parties hereto.” The terms and
obligations imposed by the individual Warren Act contracts, thus, continue to bind the successors-in-interest
of the signors of the contract, including named plaintiffs Daniel G. and Delores Chin and Hill Land &

App. 164
Cattle LLC. Similar to the Warren Act contracts entered into by Irrigation Districts, for which the terms
are identical or essentially identical to those included
in the terms of the individual Warren Act contracts,
these individual Warren Act contracts do not just alter,
but also define, the water rights currently held by
these successors-in-interest.
Defendant argues that the shortage provisions
contained in the Warren Act contracts mean that plaintiffs who receive water under an individual or Irrigation District Warren Act contract “had no right to
receive and use any water from the Klamath Project
in 2001.”17 The shortage provisions in the Warren Act
17

Defendant also argues: “The Court should further hold
that the ‘beneficial interest’ in Klamath Project water resulting
from the use of Project water delivered under these Warren Act
contracts is not a compensable property right separate and apart
from contracts and that plaintiffs’ claims sound in contract.” Such
a conclusion would be contrary to the Federal Circuit’s binding
February 17, 2011 decision. In that decision, the Federal Circuit
quoted the Oregon Supreme Court’s three factor test for determining whether plaintiffs had acquired a right of beneficial use in
Klamath Project water:
[W]hether plaintiffs put the water to beneficial use
with the result that it became appurtenant to their
land, whether the United States acquired the water
right for plaintiffs’ use and benefit, and, if it did,
whether the contractual agreements between the
United States and plaintiffs somehow have altered
that relationship.
Klamath Irr. Dist. v. United States, 635 F.3d at 515 (quoting Klamath Irr. Dist. v. United States, 227 P.3d at 1169). The Federal
Circuit then concluded that in case 1-591 it was undisputed that
plaintiffs had met the first two parts of the test: “that plaintiffs
have put Klamath Project water to beneficial use and that the

App. 165
contracts appear in two separate forms. In the first, the
United States is immune from liability resulting from
water shortages caused “[o]n account of drought, inaccuracy in distribution or other cause.” The other contracts, however, do not include the phrase “other
cause,” stating: “The United States shall not be liable
for failure to supply water under this contract caused
by hostile diversion, unusual drought, interruption of
service made necessary by repairs, damages caused by
floods, unlawful acts or unavoidable accidents.”
In the circumstances of the present cases, the
presence or absence of the two words “other cause” in
a Warren Act contract is dispositive. Although 2001
was a dry year, the Bureau of Reclamation’s statements in 2001 make clear that the reason the Bureau
refused to supply water to the plaintiffs in 2001 was
not because of drought, but because of what it perceived as the requirements of the Endangered Species
Act as set forth in the FWS and NMFS Biological
United States acquired the pertinent water rights for plaintiffs’
use and benefit.” Id. at 519. Given the undisputed testimony of
the plaintiffs regarding their prior use of Klamath Project water
on their land and the undisputed evidence that the purpose of the
Klamath Project was to provide water to farmers like the plaintiffs, the first two factors of the Oregon Supreme Court’s test remain undisputed. That leaves only the third factor, “whether the
contractual agreements between the United States and plaintiffs
somehow have altered that relationship.” Id. While a contractual
arrangement could certainly serve to entirely eliminate a parties’
right to beneficial use of Klamath Project water, see Klamath Irr.
Dist. v. United States, 227 P.3d at 1165, the Warren Act contracts
display no such intent. Indeed, while the contracts place limits
and conditions upon plaintiffs’ water rights, their stated intent is
for the United States to furnish water to plaintiffs.

App. 166
Opinions and of its tribal trust obligations towards the
Klamath, Yurok and Hoopa Valley Tribes. The Revised
2001 Operations Plan stated that “water deliveries to
farms and refuges within the Project service area”
would be “severely limited” as a result of the “Minimum UKL [Upper Klamath Lake] levels and Klamath
River flows [which] have been specified as a result of
ESA consultation on listed species,” and that these
minimum Upper Klamath Lake levels and Klamath
River flows “are consistent with requirements of the
ESA and Reclamation’s obligation to protect Tribal
trust resources.” Similarly, the Department of the Interior news release announcing the curtailment of water deliveries issued the same day as the release of the
Revised 2001 Operations Plan, April 6, 2001, stated
that no water was available for release to farmers because of the FWS and NMFS Biological Opinions “and
the requirements of [the] Endangered Species Act.”
With regard to the Endangered Species Act, the Revised 2001 Operations Plan states:
The Lost River and shortnose suckers, coho
salmon, and bald eagles are listed under the
ESA. Reclamation will manage Project water
supplies in accordance with the April, 2001,
[sic] biological opinions issued by NMFS and
the U.S. Fish and Wildlife Service (FWS) for
this year’s Project operation. . . .”
With regard to its tribal trust obligations, the Revised
2001 Operations Plan states that “Reclamation’s Plan
provides flow regimes and lake levels for protection of
tribal trust resources within the limitations of the

App. 167
available water supply.” The statements in these contemporary documents are consistent with the testimony heard at trial. Jason Cameron, who at the time
of the trial was the deputy area manager of the Bureau
of Reclamation’s Klamath Basin area office, and who,
in 2001, served as a water quality technician at the Bureau of Reclamation, monitoring water quality related
to the endangered sucker fish, testified that the Bureau of Reclamation’s drought plan for the Klamath
Project, which is triggered when there is “an insufficient water supply,” was not implemented in 2001 because there was no water supply available. Although
Mr. Cameron did not explain why no water was available, Karl Wirkus, the Area Manager of the Bureau of
Reclamation’s Klamath Basin area office in 2001 and
the author of the Revised 2001 Operations Plan, testified that the reason no water was available in 2001 was
because all Klamath Project water was needed to satisfy the satisfy [sic] the requirements of the reasonable
and prudent alternatives set forth in the FWS and
NMFS Biological Opinions.
The Bureau of Reclamations’ decision to curtail
water deliveries to plaintiffs in 2001, therefore, was,
according to its own statements, not caused by a “hostile diversion, unusual drought, interruption of service
made necessary by repairs, damages caused by floods,
unlawful acts or unavoidable accidents.” Therefore, the
shortage provisions in the Warren Act Contracts that
do not contain the phrase “other cause” are inapplicable in the present cases. As such, plaintiffs whose
claims arise from water they receive from Irrigation

App. 168
Districts whose contracts with the United States contain such shortage provisions, including the Klamath
Drainage District, the Malin Irrigation District, the
Klamath Basin Improvement District, the Shasta
View Irrigation District, the Sunnyside Irrigation District, and the Westside Improvement District, hold
beneficial rights to receive Klamath Project water for
which they may seek compensation under the Fifth
Amendment or the Klamath Compact. Additionally,
the claims of any class members that are based on parcels for which plaintiffs or plaintiffs’ predecessors-ininterest signed such a Warren Act contract also hold
beneficial rights to receive Klamath Project water for
which they may seek compensation under the Fifth
Amendment or the Klamath Compact.
By contrast, the court finds that the phrase “other
cause” in certain Warren Act shortage provisions is
broad enough to encompass shortages caused by the
United States’ tribal trust and Endangered Species Act
obligations. Therefore, the shortage provisions in Warren Act contracts which immunize the United States
from liability due to “other causes” are applicable in
the present case. As such, plaintiffs whose claims arise
from water they receive from Irrigation Districts
whose contracts with the United States contain such
shortage provisions, including the Enterprise Irrigation District, the Midland District Improvement Company, the Poe Valley Improvement District, and the
Pine Grove Irrigation District, have had their beneficial rights to receive Klamath Project water altered
in such a way that they are barred from seeking

App. 169
compensation for a taking under the Fifth Amendment
or an impairment under the Klamath Compact of those
rights in 2001. Additionally, the claims of any class
members that are based on parcels for which plaintiffs
or plaintiffs’ predecessors-in-interest signed such a
Warren Act contract, including at least claims for two
parcels owned by Daniel G. and Delores Chin and one
parcel owned by the Hill Land & Cattle LLC in 2001,
also are barred from seeking compensation for a taking
under the Fifth Amendment or an impairment under
the Klamath Compact of those rights in 2001.
4. Leased Lands in the National Wildlife Refuges
Defendant also argues that the water rights of
plaintiffs who received their water through leases for
lands in the National Wildlife Refuges that sit within
the Klamath Project have been altered by the provisions of these leases, including their shortage provisions.18 Plaintiffs do not attempt to rebut this
argument.
18

Regarding the Warren Act contracts, defendant appears to
argue that plaintiffs who leased lands from the United States
have no property right in their right to use Klamath Project water
and that the court should find that their claims “sound[ ] in contract.” For the same reasons as for the Warren Act contracts, the
court finds that such a holding would contradict the instruction of
the Federal Circuit’s February 17, 2011 decision in this case. See
generally Klamath Irrigation Dist. v. United States, 635 F.3d 505.
It is undisputed that plaintiffs on the leased lands had applied
Klamath Project water to these lands for beneficial use in the past
and that the United States had appropriated water for plaintiffs’

App. 170
These leases entitle their leaseholder to lease a
defined parcel of land, “with privileges and appurtenances,” and, thus, include the water rights appurtenant to the land. Unlike the Warren Act contracts, the
leases do not include any language defining the leaseholder’s water right. The leases, however, state that
they are leases made between the Bureau of Reclamation and the lessee, and, that “in consideration for the
rents and covenants” contained in the leases, the Bureau of Reclamation will provide deliveries of water to
the leased premises. The leases, thus, are clearly intended to define the relationship between the plaintiff
lessees and the United States regarding the appropriation of Klamath Water. As such, the water rights of
plaintiffs who hold such leases were altered by and
subject to the provisions of the leases.
Among other provisions, the leases state that “the
United States . . . shall not be held liable for damages
because irrigation water is not available.” The provision contains no language requiring that water be unavailable due to specific causes. Because their property
right was subject to this provision and irrigation water
was unavailable in 2001, plaintiffs who leased lands in
the National Wildlife Refuges are barred from recovering damages based on the denial of water to those
lands.

benefit. While the leases defined the extent of these plaintiffs’
property rights, there is no evidence that they were intended to
totally eliminate plaintiffs’ rights to beneficial use of Klamath
Project water.

App. 171
B. Were Plaintiffs’ Interests Taken or Impaired
There, therefore, are a group of class members who
have asserted cognizable property interests for which
they may seek compensation from defendant, for which
reason, the court turns to the next step in the Federal
Circuit’s instructions, “whether, as far as the takings
and Compact claims are concerned, those interests
were taken or impaired.” Klamath Irr. Dist. v. United
States, 635 F.3d at 519-20. The parties have raised a
number of separate issues that impact this question:
whether defendant’s actions should be analyzed as either a regulatory or physical taking and, if as a physical taking, then whether as a permanent or temporary
taking, as well as the potential existence of senior water rights to Klamath Project water held by the Klamath, Yurok, and Hoopa Valley Tribes. The court
examines each of these issues in turn.
1. Takings Framework
Initially, the parties dispute whether the government’s actions should be analyzed as regulatory rather
than physical takings, and, also that, if the court decides to analyze the claims as physical, whether it
should analyze the takings as temporary rather than
permanent physical takings. Plaintiffs argue that their
claims should be analyzed as permanent physical takings. The distinction is important because the framework for analyzing each type of taking varies
significantly. A permanent physical taking involves a

App. 172
“permanent physical occupation of property” and is
treated as a per se taking for which the government
must pay compensation regardless of the circumstances. See Loretto v. Teleprompter Manhattan CATV
Corp., 458 U.S. 419, 441 (1982). By contrast, the standards for determining whether government actions constitute compensable regulatory or temporary physical
takings are more complex. Regulatory takings involve
“restrictions on the use of . . . property,” and determining whether such restrictions constitute a compensable taking requires “balancing and ‘complex factual
assessments,’ utilizing the so-called Penn Central test.”
CRV Enterprises, Inc. v. United States, 626 F.3d 1241,
1246 (Fed. Cir. 2010) (quoting Tahoe-Sierra Pres.
Council v. Tahoe Reg’l Planning Agency, 535 U.S. 302,
322-23 (2002)); see also Penn Cent. Transp. Co. v. City
of New York, 438 U.S. 104, 105, 124 (1978). Similarly,
temporary physical takings involve “temporary invasions of property” which “ ‘are subject to a more complex balancing process to determine whether they are
a taking.’ ” Arkansas Game & Fish Comm’n v. United
States, 568 U.S. 23, 36 (2012) (quoting Loretto v. Teleprompter Manhattan CATV Corp., 458 U.S. at 435
n.12). The standard for identifying temporary physical
takings was recently summarized and clarified by the
United States Supreme Court in the case of Arkansas
Game and Fish Commission v. United States, 568 U.S.
at 38-39.

App. 173
a. Physical or Regulatory Taking
The issue of whether plaintiffs’ claims should be
analyzed as physical or regulatory takings, although
not whether they should be analyzed as permanent or
temporary, was briefed by the parties in motions in
limine prior to the trial and decided by the court in its
December 21, 2016 Opinion. See Klamath Irrigation v.
United States, 129 Fed. Cl. 722. In that decision, the
court held the government’s actions in the present
cases “should be analyzed under the physical takings
rubric.” Id. at 737 (quoting Casitas Mun. Water Dist. v.
United States, 543 F.3d at 1296). The court began its
analysis in its December 21, 2016 Opinion by noting
the distinctions between physical and regulatory takings and that the Federal Circuit has held that, in distinguishing between the two “ ‘our focus should
primarily be on the character of the government action.’ ” Klamath Irrigation v. United States, 129 Fed. Cl.
at 730 (quoting Casitas Mun. Water Dist. v. United
States, 543 F.3d at 1289). The court then proceeded to
summarize the “trilogy of cases, International Paper
Company v. United States, 282 U.S. 399, 51 S.Ct. 176,
75 L.Ed. 410 (1931), United States v. Gerlach Live
Stock Company, 339 U.S. 725, 70 S.Ct. 955, 94 L.Ed.
1231 (1950), and Dugan v. Rank, 372 U.S. 609, 83 S.Ct.
999, 10 L.Ed.2d 15 (1963),” in which “the Supreme
Court ‘provides guidance on the demarcation between
regulatory and physical takings analysis with respect
to [water] rights.’ ” Id. (quoting Casitas Mun. Water
Dist. v. United States, 543 F.3d at 1289). The court
noted that “[a]ccording to the Federal Circuit, in each

App. 174
of these cases: ‘the United States physically diverted
the water, or caused water to be diverted away from
the plaintiffs’ property’; ‘the diverted water was dedicated to government use or third party use which
served a public purpose’; and ‘the Supreme Court analyzed the government action . . . as a per se taking.’ ” Id.
(quoting Casitas Mun. Water Dist. v. United States,
543 F.3d at 1289).
After summarizing the parties’ arguments, the
court proceeded to summarize the Federal Circuit’s decision in Casitas Municipal Water District v. United
States, “a binding precedent on this court.” Id. at 732.
The court then found that the [sic] “[t]he facts in the
present cases are very similar to those in Casitas.” Id.
at 733. In particular, the government had “taken an action that had the effect of preventing plaintiffs from
enjoying the right to use water provided by an irrigation project,” “plaintiffs in the present cases had been
able to use these water rights more or less fully for
years prior to the government’s action,” the government’s action was “implemented by a similar physical
means,” and the water was used for “ ‘the preservation
of the habitat of an endangered species,’ ” a “ ‘government and third party use.’ ” Id. (quoting Casitas Mun.
Water Dist. v. United States, 543 F.3d at 1292). After
rejecting defendant’s attempts to distinguish Casitas
and the trilogy of Supreme Court water rights cases,
see id. at 733-34 & 734 n.5, the court held that “Casitas
Municipal Water District v. United States, 543 F.3d
1276, and the United States Supreme Court decisions
on which Casitas relies, are controlling in the cases

App. 175
presently before the court. As in Casitas, the government’s actions in the present cases ‘should be analyzed
under the physical takings rubric.’ ” Id. at 737 (quoting
Casitas Mun. Water Dist. v. United States, 543 F.3d at
1296). The undersigned was careful to note, however,
“that in making this decision, it is in no way making
any determinations as to the nature or scope of plaintiffs’ alleged property rights, which remain[ed] at issue
in the above-captioned cases.” Id.
Both defendant and defendant-intervenor, after
trial, now request that this court reconsider its December 21, 2016 Opinion and hold that the government’s
actions in the present cases are properly analyzed as
regulatory rather than physical takings. Defendant argues that the court’s decision was wrong because plaintiffs failed to prove at trial that the government
actually took any physical actions that resulted in the
deprivation of Klamath Project water that plaintiffs
allege constituted the taking at issue Defendantintervenor makes a different argument, asserting that
impairments on a use right, such as plaintiffs’ water
rights in the present cases, can never constitute a
physical taking, regardless of the nature of government action.
Neither defendant nor defendant-intervenor discuss the standard to be applied to for motions for reconsideration. Pursuant to RCFC 59:
The court may, on motion, grant a new trial or
a motion for reconsideration on all or some of
the issues—and to any party—as follows:

App. 176
(A) for any reason for which a new trial has
heretofore been granted in an action at law in
federal court;
(B) for any reason for which a rehearing has
heretofore been granted in a suit in equity in
federal court; or
(C) upon the showing of satisfactory evidence, cumulative or otherwise, that any
fraud, wrong, or injustice has been done to the
United States.
RCFC 59(a)(1) (2017). The United States Court of Appeals for the Federal Circuit has stated that: “The decision whether to grant reconsideration lies largely
within the discretion of the [trial] court.” Yuba Natural
Res., Inc. v. United States, 904 F.2d 1577, 1583 (Fed.
Cir.), reh’g denied (Fed. Cir. 1990); see also Carter v.
United States, 207 Ct. Cl. 316, 318, 518 F.2d 1199, 1199
(1975), cert. denied, 423 U.S. 1076, reh’g denied, 424
U.S. 950 (1976); Osage Tribe of Indians of Okla., 97
Fed. Cl. 345, 348 (2011) (discussing RCFC 59(a) and
60(b)); Oenga v. United States, 97 Fed. Cl. 80, 83 (2011)
(discussing RCFC 59(a)); Webster v. United States, 92
Fed. Cl. 321, 324, recons. denied, 93 Fed. Cl. 676 (2010)
(discussing RCFC 60(b)); Alpha I, L.P. ex rel. Sands v.
United States, 86 Fed. Cl. 126, 129 (2009) (discussing
RCFC 54(b) and 59(a)); Banks v. United States, 84 Fed.
Cl. 288, 291-92 (2008) (discussing RCFC 54(b) and
59(a)); Corrigan v. United States, 70 Fed. Cl. 665, 66768 (2006) (discussing RCFC 59(a)); Tritek Techs., Inc.
v. United States, 63 Fed. Cl. 740, 752 (2005); Keeton
Corr., Inc. v. United States, 60 Fed. Cl. 251, 253 (2004)

App. 177
(discussing RCFC 59(a)); Paalan v. United States, 58
Fed. Cl. 99, 105 (2003), aff ’d, 120 F. App’x 817 (Fed.
Cir.), cert. denied, 546 U.S. 844 (2005); Citizens Fed.
Bank, FSB v. United States, 53 Fed. Cl. 793, 794 (2002)
(discussing RCFC 59(a)).
“Motions for reconsideration must be supported
‘by a showing of extraordinary circumstances which
justify relief.’ ” Caldwell v. United States, 391 F.3d
1226, 1235 (Fed. Cir. 2004) (quoting Fru-Con Constr.
Corp. v. United States, 44 Fed. Cl. 298, 300 (1999)),
reh’g en banc denied (Fed. Cir.), cert. denied, 546 U.S.
826 (2005) (discussing RCFC 59(a)); see also Oenga v.
United States, 97 Fed. Cl. at 83; Seldovia Native Ass’n
Inc. v. United States, 36 Fed. Cl. 593, 594 (1996), aff ’d,
144 F.3d 769 (Fed. Cir. 1998) (discussing RCFC 59(a)).
Courts must address reconsideration motions
with “exceptional care.” Carter v. United States, 207 Ct.
Cl. at 318, 518 F.2d at 1199; see also Global Computer
Enters. v. United States, 88 Fed. Cl. 466, 468 (2009)
(discussing RCFC 59(a)). “The three primary grounds
that justify reconsideration are: ‘(1) an intervening
change in the controlling law; (2) the availability of
new evidence; and (3) the need to correct clear error or
prevent manifest injustice.’ ” Delaware Valley Floral
Group, Inc. v. Shaw Rose Nets, LLC, 597 F.3d 1374,
1383 (Fed. Cir. 2010); see also Griffin v. United States,
96 Fed. Cl. 1, 7 (2010), mot. to amend denied, appeal
dismissed, 454 F. App’x 899 (Fed. Cir. 2011) (discussing
RCFC 59(a)); Totolo/King Joint Venture v. United
States, 89 Fed. Cl. 442, 444 (2009) (quoting Stockton E.
Water Dist. v. United States, 76 Fed. Cl. 497, 499

App. 178
(2007), aff ’d in part, vacated in part, rev’d in part on
other grounds, 583 F.3d 1344 (2009) (citation omitted)
(discussing RCFC 59(a))) appeal dismissed, 431 F.
App’x 895 (Fed. Cir.), reh’g denied (2011) (discussing
RCFC 59(a)); Dairyland Power Coop. v. United States,
90 Fed. Cl. 615, 652 (2009), recons. denied, No. 04-106C,
2010 WL 637793 (Fed. Cl. Feb. 22, 2010), aff ’d in part,
vacated in part on other grounds, 2011 WL 2519519
(Fed. Cir. June 24, 2011) (discussing RCFC 59(a)); Matthews v. United States, 73 Fed. Cl. 524, 526 (2006) (citations omitted) (discussing RCFC 59); Prati v. United
States, 82 Fed. Cl. at 376 (discussing RCFC 59(a));
Tritek Techs., Inc. v. United States, 63 Fed. Cl. at 752;
Bannum, Inc. v. United States, 59 Fed. Cl. 241, 243
(2003) (discussing RCFC 59(a)); Citizens Fed. Bank,
FSB v. United States, 53 Fed. Cl. at 794; Strickland v.
United States, 36 Fed. Cl. 651, 657, recons. denied
(1996) (discussing RCFC 59(a)). “Manifest,” as in “manifest injustice,” is defined as “clearly apparent or obvious.” Ammex, Inc. v. United States, 52 Fed. Cl. 555, 557
(2002), aff ’d, 384 F.3d 1368 (Fed. Cir. 2004), cert. denied, 544 U.S. 948 (2005) (discussing RCFC 59).
“Where a party seeks reconsideration on the ground of
manifest injustice, it cannot prevail unless it demonstrates that any injustice is ‘apparent to the point of
being almost indisputable.’ ” Griffin v. United States,
96 Fed. Cl. at 7 (quoting Pac. Gas & Elec. Co. v. United
States, 74 Fed. Cl. 779, 785 (2006), aff ’d in part, rev’d
in part on other grounds, 536 F.3d 1282 (Fed. Cir.
2008)). “A court, therefore, will not grant a motion for
reconsideration if the movant ‘merely reasserts . . . arguments previously made . . . all of which were

App. 179
carefully considered by the court.’ ” Ammex, Inc. v.
United States, 52 Fed. Cl. at 557 (quoting Principal
Mut. Life Ins. Co. v. United States, 29 Fed. Cl. 157, 164
(1993), aff ’d, 50 F.3d 1021 (Fed. Cir.), reh’g denied, en
banc suggestion declined (Fed. Cir. 1995)) (emphasis in
original); see also Griffin v. United States, 96 Fed. Cl.
at 7; Bowling v. United States, 93 Fed. Cl. 551, 562, recons. denied (2010) (discussing RCFC 59(a) and 60(b));
Webster v. United States, 92 Fed. Cl. at 324 (discussing
RCFC 59(a) and 60(b)); Pinckney v. United States, 90
Fed. Cl. 550, 555 (2009); Tritek Techs., Inc. v. United
States, 63 Fed. Cl. at 752.
In sum, it is logical and well established that,
“ ‘[t]he litigation process rests on the assumption that
both parties present their case once, to their best advantage;’ a motion for reconsideration, thus, should not
be based on evidence that was readily available at the
time the motion was heard.” Seldovia Native Ass’n Inc.
v. United States, 36 Fed. Cl. at 594 (quoting Aerolease
Long Beach v. United States, 31 Fed. Cl. 342, 376, aff ’d,
39 F.3d 1198 (Fed. Cir. 1994) (table)).
Defendant argues that the court should revisit its
earlier decision because plaintiffs failed to prove at
trial that the government “took any physical action
with regard to” any of the “points of diversion” from
Upper Klamath Lake or the Klamath river to the Klamath Project works supplying water to the plaintiffs’
lands.19 With respect to Upper Klamath Lake,
19

Defendant also argues that the court’s earlier decision “assume[d], without deciding that plaintiffs’ rights to use of the

App. 180
defendant argues that evidence at trial demonstrated
that although the Bureau of Reclamation, through its
March 2, 2001 letter to the Irrigation Districts and
Revised 2001 Operations Plan, instructed that no Klamath Project water be diverted without its authorization, it was the Klamath Irrigation District, which,
under contract with the United States, operates the A
Canal through which water is diverted from Upper
Klamath Lake, that ultimately declined to physically
open the headgates releasing water out of Upper Klamath Lake. According to defendant, the same was true
with regard to diversions from the Klamath River, such
as the North Canal, operated by the Klamath Drainage
District, whose board member Luther Horsely testified
at trial that “probably we were instructed to close those
[diversion] gates [on the North Canal], and Joe, our
manager at that time, would have went and closed
them because the Bureau of Reclamation did not do it.”
According to defendant, these facts show that no physical taking by the government occurred because “instructions are not physical actions.”
Initially, the court notes that its December 21,
2016 Opinion did not assume or make any factual finding that Bureau of Reclamation personnel physically
operated the Klamath Project works diversion points
water was exactly as they alleged” and now that it has allegedly
been show [sic] that plaintiffs “did not hold legal title and had no
right to divert water from UKL or the Klamath River” the government’s actions “cannot be regarded as a seizure or physical taking”
of the water or plaintiffs’ right to use the water. As discussed above,
the court has found that plaintiffs hold rights to use Klamath Project water from Upper Klamath Lake and/or the Klamath River.

App. 181
from Upper Klamath Lake or the Klamath River. See
Klamath Irr. Dist. v. United States, 129 Fed. Cl. at 726
(finding that, under the Revised 2001 Operations Plan,
“only limited deliveries of Project water” would be
made and then that “delivery of irrigation water from
Upper Klamath Lake to the plaintiffs in the abovecaptioned cases was totally terminated until July
2001,” but making no findings as to the details of how
the delivery termination was carried out); id. at 736
(“Further, in both Casitas and the present cases, the
government’s action was implemented by a similar
physical means, . . . in the present cases, by using the
Klamath Project works to prevent water from travelling out of Upper Klamath Lake and the Klamath
River and into project canals used by the plaintiffs.”).
The court did indicate that the Klamath Project system was “ultimately controlled by the government,” id.
at 735, a conclusion that was consistent with the timing of the termination of water deliveries immediately
after the Revised 2001 Operations Plan was issued and
the Bureau of Reclamation’s decision to release 70,000
acre-feet of water in July 2001. See id. at 726. The
court’s finding that the release of water from the Klamath Project was ultimately controlled by the government is bolstered by the March 2, 1001 [sic] and March
30, 2001 letters from the Bureau of Reclamation to the
Irrigation Districts telling the Irrigation Districts that
no Klamath Project water could be diverted or used
prior to the issuance of the Revised 2001 Operations
Plan without the Bureau of Reclamation’s express authorization. The court’s finding is also bolstered by the
trial testimony cited by defendant which establishes

App. 182
that the various Irrigation Districts either closed or refrained from opening the diversion points they were
contractually obligated to operate only after the government ordered them to do so.
Further, defendant’s argument that “instructions”
from the government that result in the diversion of water cannot result in a physical taking because they are
not “physical actions” is incorrect as a matter of law. In
language quoted in this courts’ December 21, 2016
Opinion, the Federal Circuit in Casitas stated that, in
the three United States Supreme Court cases involving physical takings of water rights, International Paper Co. v. United States, 282 U.S. 399 (1931), United
States v. Gerlach Live Stock Co., 339 U.S. 725 (1950),
Dugan v. Rank, 372 U.S. 609 (1963), “the United States
physically diverted the water, or caused water to be diverted away from the plaintiffs’ property.” Casitas
Mun. Water Dist. v. United States, 543 F.3d 1276, 1290
(Fed. Cir. 2008) (emphasis added). Causing water to be
diverted away from the plaintiffs’ property is exactly
what the government did in the present cases. By invoking the various Irrigation Districts’ contractual obligations towards the United States and requiring
them to close or keep closed the various diversion
points in the Klamath Project, the Bureau of Reclamation caused Klamath Project water to be diverted away
from plaintiffs’ lands and towards Upper Klamath
Lake and the Klamath River. The circumstances in the
present cases are actually quite analogous to International Paper Co., in which the United States Secretary
of War wrote to a New York power company

App. 183
requisitioning all the electricity it could produce and
ordering it to use “all waters diverted or capable of being diverted through your intake canal” to produce
electricity, which the power company interpreted as
requiring it to deny the plaintiff paper mill its right
to divert 730 cubic feet per second of water from the
its [sic] intake canal to which it was entitled under
New York Law. Int’l Paper Co. v. United States, 282 U.S.
at 405. Despite the fact that it was the power company,
rather than the United States government, that took
the physical action that actually deprived the paper
mill of its water right, Justice Holmes held that the
government’s actions amounted to a taking of the paper mill’s right to use the water:
The petitioner’s right was to the use of the water; and when all the water that it used was
withdrawn from the petitioner’s mill and
turned elsewhere by government requisition
for the production of power it is hard to see
what more the Government could do to take
the use.
Id. at 407. Just as in International Paper Co., the government’s actions in the present cases caused the withdrawal of water used by plaintiffs and, thereby,
deprived them of their right to use that water.
Defendant-intervenor, Pacific Coast Federation of
Fisherman’s Associations, makes a different argument,
that “[a] takings claim based on an alleged impairment
of the right to use property must be analyzed as a potential regulatory taking, regardless of what caused
the restriction.” (emphasis in original). As it relates to

App. 184
water law, this proposed bright line rule is obviously
incorrect. Each of the three Supreme Court cases
which found a physical taking of water, as well as Casitas, involved a right to use water. See id. at 407 (“The
petitioner’s right was to the use of the water. . . .”);
United States v. Gerlach Live Stock Co., 339 U.S. at 752
(noting that plaintiffs riparian rights entitled them to
“so much of the flow of the San Joaquin as may be put
to beneficial use consistently” with California’s water
law); Dugan v. Rank, 372 U.S. at 614 (“The named
plaintiffs claimed to represent a class of owners of riparian as well as other types of water rights.”); Casitas
Mun. Water Dist. v. United States, 543 F.3d at 1294
(“When the government diverted the water to the fish
ladder, it took Casitas’ water. The water, and Casitas’
right to use that water, is forever gone.”).20

20

Defendant-intervenor argues that Casitas is distinguishable from the present cases because it involved “an unusual set of
facts where the court assumed the plaintiff owned the water it
had diverted into a private canal.” (emphasis in original). This
court rejected this precise argument in its December 21, 2016
Opinion, writing:
[D]efendant notes that the government in Casitas conceded, for the purpose of appeal, that Casitas held not
only a right to use water, but also a right to divert water from the Ventura River Project, and, therefore, argues that the Federal Circuit’s holding was premised
on a finding that Casitas’s right to divert water, rather
than its right merely to use water, had been taken. This
argument finds no support in the text of the Casitas
opinion, which, after mentioning that Casitas held a
right to divert 107,800 acre-feet of water from the Ventura River Project, see [Casitas Mun. Water Dist. v.
United States, 543 F.3d] at 1288, never describes the

App. 185

government’s actions as having interfered with Casitas’ right to divert water. By contrast, the opinion
does state that, as a result of the government’s actions,
“[t]he water [diverted by the government], and Casitas’
right to use that water, is forever gone.” Id. at 1296
(emphasis added). Moreover, after quoting a statement
from the Supreme Court’s opinion in International Paper that:
[t]he petitioner’s right was to the use of the water;
and when all the water that it used was withdrawn from the petitioner’s mill and turned elsewhere by government requisition for the
production of power it is hard to see what more
the Government could do to take the use,
the Federal Circuit stated “[s]imilar to the petitioner in
International Paper, Casitas’ right was to the use of the
water, and its water was withdrawn from the Robles–
Casitas Canal and turned elsewhere (to the fish ladder)
by the government.” Id. at 1292 (emphasis added)
(quoting Int’l Paper Co. v. United States, 282 U.S. at
407, 51 S.Ct. 176). At the very least, these statements
demonstrate that the United States Court of Appeals
for the Federal Circuit concluded that the government’s water diversions in Casitas resulted in a permanent taking of Casitas’ right to use the diverted water.
See also CRV Enters., Inc. v. United States, 626 F.3d
at 1247 (“Thus, the prior water rights cases finding a
physical taking involved instances where the ‘United
States physically diverted the water, or caused water
to be diverted away from the plaintiffs’ property’ such
that water was removed entirely and the plaintiffs
‘right to use that water, [was] forever gone.’ ” (alteration in original) (emphasis added) (quoting Casitas v.
United States, 543 F.3d at 1290, 1296)).
Klamath Irr. Dist. v. United States, 129 Fed. Cl. at 733. Nothing
in defendant-intervenor’s present argument even addresses the
reasoning of the court’s December 21, 2016 Opinion, let alone supports that it was made in clear error.

App. 186
In support of this proposed bright line rule, defendant-intervenor cites to a single case, CRV Enterprises, Inc. v. United States, 626 F.3d 1241 (Fed. Cir.
2010), which it alleges demonstrates that “the fact that
the government implemented the requirements of the
Endangered Species Act, at least in part, through
physical operation of the Klamath Project does not
change the fact that the government action merely resulted in a restriction on the plaintiffs’ ability to use
water.”21 The plaintiffs in CRV Enterprises held
21

Defendant-intervenor also criticizes the court’s December
21, 2016 Opinion for “suggest[ing] that the facts of this case are
comparable to the facts of Casitas because the regulatory mandate that required water not to be diverted from the river for irrigation purposes altered the ‘status quo ante.’ ” In the portion of
the opinion defendant-intervenor is apparently referencing (no citation is provided by defendant-intervenor), the court rejected defendant’s attempt in its motion in limine to distinguish the
present cases from Casitas on the grounds that “the Bureau of
Reclamation’s actions did not amount to a physical diversion of
Klamath Project water, but instead constituted only regulatory
restrictions prohibiting the removal of water by plaintiffs from
Upper Klamath Lake, the equivalent of what the court in Casitas
termed ‘merely requir[ing] some water to remain in stream’ as
opposed to ‘actively caus[ing] the physical diversion of water.’ ”
Klamath Irr. Dist. v. United States, 129 Fed. Cl. at 733-34 (quoting Casitas v. United States, 543 F.3d at 1291). In rebutting this
argument, this court applied the Federal Circuit’s determination
in Casitas that “ ‘the appropriate reference point in time to determine whether the United States caused a physical diversion’ is
the ‘status quo’ before the challenged government action” to find
that the government’s actions amounted to a physical diversion
because they “prevented water that would have, under the status
quo ante [i.e., the status quo before], flowed into the Klamath Project canals and to the plaintiffs” from doing so. Id. at 734 (quoting
Casitas Mun. Water Dist. v. United States, 543 F.3d at 1291
n.13). In arguing that the court’s reasoning “contradicts” Casitas,

App. 187
riparian rights, which, among other considerations, entitled them to access the navigable portions of a manmade waterway adjacent to their property. See CRV
Enterprises, Inc. v. United States, 626 F.3d at 1243-44.
In CRV Enterprises, as part of an environmental remediation effort, the United States Environmental
Protection Agency installed a log boom that prevented
plaintiffs from navigating a portion of the waterway,
which the plaintiffs alleged amounted to a physical
taking of their riparian rights. See id. at 1245. The Federal Circuit ultimately held that the government’s actions did not amount to a physical taking because
“plaintiffs cannot show that the government has physically appropriated its water rights by removing water
entirely.” Id. at 1248. In doing so, the Federal Circuit
noted that “the prior water rights cases finding a physical taking involved instances where the ‘United States
physically diverted the water, or caused water to be diverted away from the plaintiffs’ property’ such that
defendant-intervenor cites to the same language from Casitas
that defendant did in its motion in limine, but fails in any way to
discuss or even recognize the other portions of Casitas that
formed the basis for the court’s reasoning. Defendant-intervenor,
thus, has failed to demonstrate that the court’s reasoning was in
clear error.
Defendant-intervenor also claims that the court’s reasoning
amounts to “the idea that the imposition of a new regulatory constraint on the use of land, water, or any other resource should be
regarded as a physical taking simply because it changes the status quo ante.” The court finds no support for such a proposition in
its December 21, 2016 Opinion. Nor does defendant-intervenor’s
argument, again, made without specific citations to the court’s
opinion, provide any such support. Defendant-intervenor’s argument, thus, fails.

App. 188
water was removed entirely and the plaintiffs ‘right to
use that water, [was] forever gone.’ ” Id. at 1247 (quoting Casitas Mun. Water Dist. v. United States, 543 F.3d
at 1290, 1296). This is precisely the approach adopted
by this court in its December 21, 2016 Opinion, which
based its decision in large part on the finding that “the
government’s retention of water in Upper Klamath
Lake and Klamath River did amount to a physical diversion of water according to the standards set by the
United States Court of Appeals for the Federal Circuit
and the United States Supreme Court.” Klamath Irr.
Dist. v. United States, 129 Fed. Cl. at 734 (citing Casitas Mun. Water Dist. v. United States, 543 F.3d at
1289-90). Thus, CRV Enterprises actually bolsters the
court’s December 21, 2016 Opinion, rather than showing it amounted to a clear error.
b. Permanent or Temporary Taking
The issue of whether the government’s actions
should be analyzed as a permanent or temporary taking was not briefed in the parties’ motions in limine
and, therefore, not discussed in the court’s December
21, 2016 Opinion. In their post-trial briefs, defendant
and defendant-intervenor argue that, if the court declines to reconsider its December 21, 2016 Opinion
holding that the government’s actions be analyzed as
physical takings, it should analyze the actions as temporary, rather than permanent takings, applying the
framework set forth in Arkansas Game and Fish, 568
U.S. 23. By contrast, plaintiffs argue that the government should treat them as permanent, per se takings

App. 189
for which compensation is due regardless of the circumstances.
Defendant argues that the government’s actions
must be analyzed as a temporary taking because plaintiffs’ water rights are appurtenant to their properties
and are of permanent duration in time. With regard to
the appurtenant nature of plaintiffs’ water rights, defendant argues that “black letter law” requires the
court to evaluate the effect of the government’s actions
on their property as a whole, including fee ownership
of the lands to which the property rights are appurtenant. With regard to the permanent nature of plaintiffs’ water rights, defendant argues that, even if the
court finds that “appurtenancy can be severed from the
fee for the purposes of this claim, because the appurtenant ‘right’ to receive [Klamath] Project water is a permanent right, and plaintiffs are only alleging a taking
of that right in 2001, that claim must be analyzed as a
temporary taking.” Defendant-intervenor similarly argues that it is “apparent” that the government’s actions should be analyzed as a temporary taking
because the government’s water restrictions were in
place for less than a year.
It is undisputed that plaintiffs’ water rights were
appurtenant to their land. This fact was pled in plaintiffs’ second amended complaint, and a number of
plaintiffs testified to it at trial during questioning by
defendant, including Frank Anderson, John Frank,
Donald Russel, Harold Hartman, Edwin Stastny, Jr.,
James Moore, Gary Wright, Claude Hagerty, Steven L.
Kandra, and David A. Cacka. Defendant’s argument

App. 190
that the court should analyze the effect of the government’s actions on plaintiffs’ property as a whole, including the fee estates to which their water rights were
appurtenant, rather than the effect on their water
rights alone, however, is incorrect as a matter of law.
This court has determined that the government’s actions should be analyzed as a physical rather than regulatory taking, and with regard to physical takings,
the Federal Circuit has held that “[t]he size and scope
of a physical invasion is immaterial to the analysis;
even if the government only appropriates a tiny slice
of a person’s holdings, a taking has occurred, and the
owner must be provided just compensation.” Casitas
Mun. Water Dist. v. United States, 543 F.3d at 1288
(citing Tahoe-Sierra Pres. Council, Inc. v. Tahoe Reg’l
Planning Agency, 535 U.S. 302, 322 (2002)); see also Lucas v. S.C. Coastal Council, 505 U.S. 1003, 1015 (1992)
(“In general (at least with regard to permanent invasions), no matter how minute the intrusion, and no
matter how weighty the public purpose behind it, we
have required compensation.”). The two cases cited by
defendant in support of its argument, Tahoe-Sierra
Preservation Council, Inc. v. Tahoe Regional Planning
Agency, 535 U.S. 302, and Keystone Bituminous Coal
Association v. DeBenedictis, 480 U.S. 470 (1987), are
not to the contrary because, unlike the present cases
both involved regulatory, rather than physical, takings.
See Tahoe-Sierra Pres. Council, Inc. v. Tahoe Reg’l
Planning Agency, 535 U.S. at 331 (“Petitioners’ ‘conceptual severance’ argument is unavailing because it ignores Penn Central’s admonition that in regulatory
takings cases we must focus on ‘the parcel as a whole.’ ”

App. 191
(quoting Penn Cent. Transp. Co. v. City of New York,
438 U.S. at 130–131)); Keystone Bituminous Coal Ass’n
v. DeBenedictis, 480 U.S. at 493 (“[P]etitioners have not
shown any deprivation significant enough to satisfy
the heavy burden placed upon one alleging a regulatory taking. For this reason, their takings claim must
fail.”). The standards and precedents to be used in the
context of regulatory takings are inapplicable in the
context of potential physical takings. See Tahoe-Sierra
Pres. Council, Inc. v. Tahoe Reg’l Planning Agency, 535
U.S. at 323 (“This longstanding distinction between acquisitions of property for public use, on the one hand,
and regulations prohibiting private uses, on the other,
makes it inappropriate to treat cases involving physical takings as controlling precedents for the evaluation
of a claim that there has been a ‘regulatory taking,’ and
vice versa.” (footnote omitted)). Thus, in the present
cases, the fact that the government’s actions may have
deprived plaintiffs of only a portion of their entire
property rights is simply irrelevant to the issue of
whether a taking occurred. See id. at 322 (“When the
government physically takes possession of an interest
in property for some public purpose, it has a categorical duty to compensate the former owner, regardless of
whether the interest that is taken constitutes an entire
parcel or merely a part thereof. (citation omitted)); Casitas Mun. Water Dist. v. United States, 543 F.3d at
1292 (“Although Casitas’ right was only partially impaired, in the physical taking jurisprudence any impairment is sufficient.” (citing Tahoe-Sierra Pres.
Council, Inc. v. Tahoe Reg’l Planning Agency, 535 U.S.
at 322)).

App. 192
That plaintiffs’ water rights are permanent in duration also is undisputed and supported by substantial
evidence admitted at trial. For instance, the 1905
KWUA contract, the rights and obligations of which
were incorporated into Klamath Irrigation District’s
contracts with the United States, states that the
KWUA members right to use Klamath Project water
“shall be . . . forever appurtenant to designated lands
owned by [KWUA’s] share-holders.” Similarly, the Warren Act contracts state an amount of water that the
United States shall furnish each year to the contractor
from the various works of the Klamath Project. Defendant’s argument (and defendant-intervenor’s related argument) that the government’s actions should
be analyzed as a temporary taking because they only
affected plaintiffs’ water rights for one year, while
plaintiffs’ water rights are perpetual, is, however, in direct contradiction with the Federal Circuit’s decision in
Casitas. In Casitas the Federal Circuit, addressing
whether the government’s actions should be treated
like the temporary moratorium at issue in TahoeSierra Preservation Council, Inc. v. Tahoe Regional
Planning Agency, 535 U.S. 302, held that the government’s water diversions were “not temporary” and had
“permanently taken that water away from Casitas” because “[t]he water, and Casitas’ right to use that water,
is forever gone.” Casitas Mun. Water Dist. v. United
States, 543 F.3d at 1296. In an earlier footnote, the Federal Circuit explained why it had found that “[t]he water, and Casitas’ right to use that water, is forever
gone,” stating:

App. 193
The California license governing Casitas’ use
of water for the Project permits Casitas to divert up to 107,800 acre-feet per year from the
Ventura River and to put to beneficial use
each year 28,500 acre-feet of the diverted water. The water diverted to the fish ladder facility is gone forever, as the license does not
allow Casitas to make up this amount in subsequent years.
Casitas Mun. Water Dist. v. United States, 543 F.3d at
1294 & 1294 n.15. This language demonstrates that
the Federal Circuit viewed the relevant property right
for the purposes of a takings analysis as the water that
the Casitas plaintiff was entitled to in a single year because, once the opportunity to use that water had
passed, it was “gone forever.” Id. This was true despite
the fact that, as in the present cases, Casitas’ water
right was permanent. See id. at 1281–82 (“Additionally,
the contract [between the United States and Casitas]
provided in Article 4 that Casitas ‘shall have the perpetual right to use all water that becomes available
through the construction and operation of the Project.’ ”). The United States Supreme Court took a similar view in International Paper Co., in which Justice
Holmes found that the government had effected a taking by depriving plaintiffs of their right to take the water at issue for ten months, between February 7, 1918
and November 30, 1918, despite the fact the plaintiffs’
right to the water was perpetual, “a corporeal

App. 194
hereditament[22] and real estate,” under New York law.
Int’l Paper Co. v. United States, 282 U.S. at 405-06.23

22

A corporeal hereditament is defined as a “tangible item of
property, such as land, a building, or a fixture.” Corporeal hereditament, Black’s Law Dictionary 842 (10th ed. 2014).
23
Defendant argues that Casitas should be discounted because it predates the Supreme Court’s decision in Arkansas Game
and Fish Commission v. United States, 568 U.S. 23, and that International Paper Co. should be discounted because it predates
both Arkansas Game and Fish and Loretto v. Teleprompter Manhattan CATV Corp, 458 U.S. 419. While Arkansas Game and Fish
clarified the test to be applied to determine whether temporary
physical invasions constitute temporary takings, the decision recognized that it was Loretto that had “distinguished permanent
physical occupations from temporary invasions of property, expressly including flooding cases, and said that ‘temporary limitations are subject to a more complex balancing process to
determine whether they are a taking.’ ” Arkansas Game and Fish
Comm’n v. United States, 568 U.S. at 36 (quoting Loretto v. Teleprompter Manhattan CATV Corp., 458 U.S. at 436 n.12). Further, while Loretto was the first case in which the Supreme Court
explicitly stated that temporary and permanent limitations on
property are subject to different tests to determine whether they
constitute takings, Loretto identified that it was not creating a
new rule, but merely recognizing a distinction that Supreme
Court cases had drawn since at least the beginning of the twentieth century. See Loretto v. Teleprompter Manhattan CATV Corp.,
458 U.S. at 428 (“Since these early cases, this Court has consistently distinguished between flooding cases involving a permanent
physical occupation, on the one hand, and cases involving a more
temporary invasion, or government action outside the owner’s
property that causes consequential damages within, on the other.
A taking has always been found only in the former situation.” (citing United States v. Lynah, 188 U.S. 445, 468-470 (1903); Bedford
v. United States, 192 U.S. 217, 225 (1904); United States v. Cress,
243 U.S. 316, 327-328 (1917); Sanguinetti v. United States, 264
U.S. 146, 149 (1924); United States v. Kansas City Life Ins. Co.,
339 U.S. 799, 809–810 (1950)). Thus, both Casitas and

App. 195
Similar to the facts in Casitas, in the present
cases, the plaintiffs held rights to receive the amount
of Klamath Project water they could put to beneficial
use each year, which in some cases was capped at a
specific amount in terms of acre-feet per second. Neither Oregon or California law, nor the various contracts plaintiffs and Irrigation Districts entered into
with the Bureau of Reclamation, allowed them to make
up the amounts they were deprived of in 2001 in subsequent years. Therefore, as in Casitas, the water
plaintiffs were deprived of in 2001 is “gone forever.”
Casitas Mun. Water Dist. v. United States, 543 F.3d at
1294 n.15. As such, the government’s diversion of water away from the plaintiffs in 2001 was not temporary
and should be analyzed as a permanent physical taking. See id. at 1296.
2. Effect of Tribal Rights
The parties also dispute the effect of any rights the
Tribes may have to Klamath Project water on plaintiffs’ claims. Defendant argues that the government’s
actions did not constitute a taking of the plaintiffs’ water rights because the plaintiffs’ water rights were
subordinate to those of the Klamath, Yurok, and Hoopa
Valley Indian Tribes. According to defendant, the
amount of Klamath Project water needed to satisfy the
Tribes’ rights was at least equal to the quantity needed
International Paper Co., were decided at times when the distinction between permanent and temporary takings was understood
and, as such, remain good law for the purpose of determining the
type of taking which exists.

App. 196
to satisfy the requirements of the Endangered Species
Act with respect to the Lost River and shortnose suckers and the SONCC coho salmon in 2001. Defendant
also argues that the Bureau of Reclamation’s Revised
2001 Operations Plan indicates that its decision regarding water availability in 2001 was based, at least
in part, on the government’s obligation to satisfy its
trust obligation towards the Tribes to supply the water
needed to meet their senior water rights. According to
defendant, because there was not even enough water
to fully satisfy the Tribes’ senior water rights in 2001,
plaintiffs, as junior rights holders, were not entitled to
receive any water and, thus, no taking occurred. In
their amicus brief filed with this court, the Klamath
Tribes, similarly argue that, to satisfy the Klamath
Tribes’ rights, “the amount of water required to remain
in the [Upper Klamath] Lake, although unquantified
in 2001, could not have been less than that required by
the ESA [Endangered Species Act], as the ESA only
seeks to avoid extinction whereas the Tribal water
right is needed to promote species populations that can
support tribal harvest.”
Plaintiffs argue that defendant has not shown
that the 2001 curtailment of water deliveries was necessary to protect the Tribes’ water rights because those
rights are unquantified, making such proof impossible,
and because post-2001 evidence shows that the water
curtailment did not actually protect the threatened
and endangered fish. Plaintiffs also argue that the evidence offered at trial shows that the Bureau of Reclamation’s decision to withhold water deliveries from the

App. 197
plaintiffs’ in 2001 was based entirely on its obligations
under the Endangered Species Act, rather than to comply with its trust obligations to satisfy the Tribes’ water rights. Plaintiffs further argue that the Bureau of
Reclamation had trust obligations towards not only to
the Tribes, but also to the plaintiff water users and
that, under the Supreme Court’s opinion in Nevada v.
United States, 463 U.S. 110 (1983), the Bureau of Reclamation was not free to favor the Tribes over the
plaintiffs.
Both Oregon, where the Klamath Tribe is based,
and California, where the Yurok and Hoopa Valley
Tribes are based, follow the doctrine of prior appropriation for water rights. See Irwin v. Phillips, 5 Cal. 140,
143 (1855) (establishing the doctrine of prior appropriation in California); Teel Irr. Dist. v. Water Res. Dep’t
of State of Or., 919 P.2d 1172, 1174 (Or. 1996) (“Oregon’s current scheme of ground and surface water allocation is rooted in the doctrine of prior appropriation
for a beneficial use.”). “The doctrine provides that
rights to water for irrigation are perfected and enforced in order of seniority, starting with the first person to divert water from a natural stream and apply it
to a beneficial use (or to begin such a project, if diligently completed).” Montana v. Wyoming, 563 U.S. 368,
375–76 (2011) (citing Hinderlider v. La Plata River &
Cherry Creek Ditch Co., 304 U.S. 92, 98 (1938); Arizona
v. California, 298 U.S. 558, 565–66 (1936); Wyo. Const.,
Art. 8, § 3); see also United States v. State Water Res.
Control Bd., 182 Cal. App. 3d 82, 101 (Cal. Ct. App.
1986) (“The appropriation doctrine confers upon one

App. 198
who actually diverts and uses water the right to do so
provided that the water is used for reasonable and beneficial uses and is surplus to that used by riparians or
earlier appropriators.”). “In periods of shortage, priority among confirmed rights is determined according to
the date of initial diversion,” which is referred to as a
priority date. Colorado River Water Conservation Dist.
v. United States, 424 U.S. 800, 805 (1976). Essentially,
the rule of priority is that “as between appropriators
the one first in time is the first in right.” Wishon v.
Globe Light & Power Co., 110 P. 290, 292 (Cal. 1910);
see also Teel Irr. Dist. v. Water Res. Dep’t of State of Or.,
919 P.2d at 1174 (“Under this doctrine, a person may
acquire an appropriative right on a ‘first come, first
served’ basis by diverting water and applying it to a
beneficial use.”). The result is that “[a] junior appropriator’s water right cannot be exercised until the senior
appropriator’s right has been satisfied.” Benz v. Water
Res. Comm’n, 764 P.2d 594, 599 (Or. 1988); see also
United States v. State Water Res. Control Bd., 182 Cal.
App. 3d at 101–02 (“The senior appropriator is entitled
to fulfill his needs before a junior appropriator is entitled to use any water.”).
The water rights held by the Klamath, Yurok and
Hoopa Valley Tribes are reserved federal rights.
“[W]hen the Federal Government withdraws its land
from the public domain and reserves it for a federal
purpose, the Government, by implication, reserves appurtenant water then unappropriated to the extent
needed to accomplish the purpose of the reservation.”
Cappaert v. United States, 426 U.S. at 138; see also

App. 199
United States v. New Mexico, 438 U.S. 696, 702 (1978)
(“Where water is necessary to fulfill the very purposes
for which a federal reservation was created, it is reasonable to conclude, even in the face of Congress’ express deference to state water law in other areas, that
the United States intended to reserve the necessary
water.”). “In so doing the United States acquires a reserved right in unappropriated water which vests on
the date of the reservation and is superior to the rights
of future appropriators.” Cappaert v. United States,
426 U.S. at 138. Reserved rights are “[f ]ederal water
rights,” which “are not dependent upon state law or
state procedures.” Id. at 145. “Thus, reserved rights
represent an exception to the general rule that allocation of water is the province of the states.” F. Cohen,
Handbook of Federal Indian Law 19.01[1] at 1204
(2012) (citing Colorado River Water Conservation Dist.
v. United States, 424 U.S. 800; Winters v. United States,
207 U.S. 564, 577 (1908)). Although “[i]t is appropriate
to look to state law for guidance . . . the ‘volume and
scope of particular reserved rights . . . [remain] federal
questions.’ ” Colville Confederated Tribes v. Walton,
752 F.2d 397, 400 (9th Cir. 1985) (quoting Colorado
River Water Conservation District v. United States,
424 U.S. at 813) (citing Colorado v. New Mexico, 459
U.S. 176, 184 (1982)) (second omission and second alteration in original). Reserved rights “need not be adjudicated only in state courts.” Cappaert v. United
States, 426 U.S. at 145. Instead, “federal courts have
jurisdiction under 28 U.S.C. s 1345 to adjudicate the
water rights claims of the United States.” Id.

App. 200
“An implied reservation of water for an Indian reservation will be found where it is necessary to fulfill
the purposes of the reservation.” Colville Confederated
Tribes v. Walton, 647 F.2d 42, 46 (9th Cir. 1981)
Although Indian reservations were generally created
by treaties prior to 1871 and through executive orders
after 1871, the reserved water rights resulting from
treaties and executive orders “are substantively the
same, at least with respect to non-federal interests.”
Parravano v. Babbitt, 70 F.3d at 545. The priority date
of reserved rights is “no later than the date on which a
reservation was established, which, in the case of most
Indian reservations in the West, is earlier than the priority of most non-Indian water rights.” F. Cohen, Handbook of Federal Indian Law 19.01[1] at 1206. In certain
cases, however, courts have recognized that “uninterrupted use and occupation of land and water created
in the Tribe aboriginal or ‘Indian title’ to all of its vast
holdings.” United States v. Adair, 723 F.2d at 1413 (citing United States v. Santa Fe Pacific R. Co., 314 U.S.
339, 345 (1941); United States v. Klamath and Modoc
Tribes, 304 U.S. 119, 122-23 (1938); Holden v. Joy, 84
U.S. (17 Wall.) 211, 244 (1872)). When recognized by a
treaty, “[s]uch water rights necessarily carry a priority
date of time immemorial.” Id. at 1414.
The Tribes’ reserved rights are senior to those of
any of the plaintiff users of the Klamath Project water.
The Klamath Tribes’ rights hold a priority date of
“time immemorial,” meaning they are senior to any
other possible rights holder. See United States v. Adair,
723 F.2d at 1414; see also F. Cohen, Handbook of

App. 201
Federal Indian Law 19.03[3] at 1216 (“[T]ime immemorial rights are always first in priority.”). Although
the Yurok and Hoopa Valley Tribes’ reserved rights
have not previously been assigned a priority date, the
rights must hold a priority date of at least 1891, the
year of the last executive order creating their reservation, and possibly even earlier. See Parravano v. Babbitt, 70 F.3d at 547 (“The 1876 and 1891 executive
orders that created the extended Hoopa Valley Reservation and the 1988 Hoopa–Yurok Settlement Act
vested the Tribes with federally reserved fishing
rights. . . .”). By contrast, under Oregon law, because
the United States did not post notice that it was appropriating the waters of the Klamath Project until 1905,
the priority dates for the rights to use Klamath Project
water held by the remaining plaintiffs, on whose behalf
the United States appropriated the water, must be
1905 or later. Klamath Irr. Dist. v. United States, 227
P.3d at 1152 (“[U]nder Oregon law, the persons who
used water that another person had appropriated had
the same priority date (the date of the notice) as long
as the later user put the water to beneficial use within
a reasonable time and the use came within the scope
of the original plan set out in the appropriator’s notice.”
(citing Nevada Ditch Co. v. Bennett, et al. 45 P. 472 (Or.
1896)). Thus, the priority dates of the remaining plaintiffs’ water rights must be at least a decade or more
later than the latest possible priority date for any of
the Tribes’ water rights at issue in the present cases.
See Klamath Water Users Protective Ass’n v. Patterson, 204 F.3d at 1214 (holding that the water rights
of the Klamath, Yurok and Hoopa Valley Tribes “take

App. 202
precedence over any alleged rights of the Irrigators,”
who use Klamath project water).
The Klamath Tribes hold a “non-consumptive”
right in the waters of Upper Klamath Lake and its
tributaries entitling them to prevent other appropriators from depleting these waters below levels that
would prevent them from “support[ing] game and fish
adequate to the needs of Indian hunters and fishers.”
United States v. Adair, 723 F.2d at 1410-11. The Lost
River and short nose suckers are tribal resources of the
Klamath Tribes and uncontested evidence presented
at trial demonstrated that the fish have played an important role in the Klamath Tribes’ history. While the
court does not have sufficient evidence in front of it to
determine the minimum amount of Lost River and
shortnose suckers that would be “adequate to the
needs” of the Klamath Tribes, see id. at 1410, at the
very least it must be some number greater than zero.
Thus, the Klamath Tribes’ aboriginal right to take fish
entitles them to prevent junior appropriators from
withdrawing water from Upper Klamath Lake and its
tributaries in amounts that would cause the extinction
of the Lost River and short nose suckers. See United
States v. Anderson, 591 F. Supp. 1, 5-6 (E.D. Wash. 1982)
(holding that, because “one of the purposes for creating
the Spokane Indian Reservation was to insure the Spokane Indians access to fishing areas and to fish for
food,” the tribe was entitled to a flow of water in a creek
sufficient [sic] “sufficient to maintain the water temperature at 68°F or below,” the temperature needed to

App. 203
preserve their fisheries), aff ’d in part, rev’d in part, 736
F.2d 1358 (9th Cir. 1984).
The Yurok and Hoopa Valley Tribes hold the right
“to take fish from the Klamath River . . . for ceremonial, subsistence, and commercial purposes.” United
States v. Eberhardt, 789 F.2d at 1359. The SONCC
coho salmon is a tribal trust resource for the Yurok and
Hoopa Valley Tribes and evidence presented at trial
demonstrated that the fish have played an important
part in the Yurok and Hoopa Valley Tribes’ history. Indeed, other courts have found that, at the time the
Yurok and Hoopa Valley Tribes’ reservation was created, “the [Yurok and Hoopa Valley] Tribes’ salmon
fishery was ‘not much less necessary to [their existence] than the atmosphere they breathed.’ ” Parravano
v. Babbitt, 70 F.3d at 542 (quoting Blake v. Arnett, 663
F.2d 906, 909 (9th Cir. 1981)) (alteration in original).
Although previous courts have not been confronted
with the issue of whether the Yurok and Hoopa Valley
Tribes reserved fishing rights include a commensurate
water right, reserved rights include a sufficient quantity of water to accomplish the purpose of the reservation. See United States v. New Mexico, 438 U.S. 696,
698–700 (1978); see also United States v. Adair, 723
F.2d at 1410 (“[A]t the time the Klamath Reservation
was established, the Government and the [Klamath]
Tribe intended to reserve a quantity of the water flowing through the reservation not only for the purpose of
supporting Klamath agriculture,[24] but also for the
24

The court notes that the existence and extent of any possible federal reserved water rights that may be held by the Tribes

App. 204
purpose of maintaining the Tribe’s treaty right to hunt
and fish on reservation lands.”). As the Ninth Circuit
held in Adair, regarding the Klamath Tribes’ water
rights, because “[a] water right to support game and
fish adequate to the needs of Indian hunters and fishers,” such as that held by the Yurok and Hoopa Valley
Tribes, is “basically non-consumptive,” such a water
right “consists of the right to prevent other appropriators from depleting the streams[’] waters below a
protected level.” United States v. Adair, 723 F.2d at
1410-11 (citing Cappaert v. United States, 426 U.S. at
143); see also Cappaert v. United States, 426 U.S. at
143 (“Thus, since the implied-reservation-of-waterrights doctrine is based on the necessity of water for
the purpose of the federal reservation, we hold that the
United States can protect its water from subsequent
diversion, whether the diversion is of surface or
groundwater.”); Joint Bd. of Control of Flathead, Mission & Jocko Irr. Districts v. United States, 832 F.2d
1127, 1132 (9th Cir. 1987) (“To the extent that the
Tribes enjoy treaty-protected aboriginal fishing rights,
they can ‘prevent other appropriators from depleting
the streams (sic) waters below a protected level.’ ”
(quoting United States v. Adair, 723 F.2d at 1411) (citing Montana v. Confederated Salish and Kootenai
for the purposes of supporting agriculture are not dispositive in
the present cases. Such reserved water rights for agricultural
purposes are distinct from water rights held for the purpose of
maintaining their fishing rights and their extent is determined
according to the so-called “practicably irrigable acreage” standard
set forth by the Supreme Court in Arizona v. California. See Arizona v. California, 373 U.S. 546, 600-601 (1963).

App. 205
Tribes, 712 P.2d 754, 764 (Mont. 1985))). In Adair, the
“protected level” of waters that the Klamath Tribes
were entitled to enforce was the stream flow “required
to support the fish and game that the Klamath Tribe
take in exercise of their treaty rights.” United States v.
Adair, 723 F.2d at 1411. As holders of federal reserved
rights to take fish from the Klamath River, the Yurok
and Hoopa Valley Tribes, like the Klamath Tribes, also
hold a non-consumptive water right, which entitles
them to prevent other appropriators from depleting
the flows of the Klamath River below levels required to
support the fish they take in exercise of their treaty
rights. Similar to the Klamath Tribes, the Yurok and
Hoopa Valley Tribes’ non-consumptive water rights
must, therefore, entitle them, at a minimum, to prevent junior appropriators from withdrawing water
from Klamath River and its tributaries in amounts
that would cause the endangerment and extinction of
their tribal trust resource, the SONCC coho salmon.
Defendant and amicus Klamath Tribes argue that
the quantity of water needed to protect these water
rights held by the Tribes in 2001 was, at a minimum
equal to the quantity needed to satisfy the Bureau of
Reclamations’ obligations under Section 7 of the Endangered Species Act. In 2001, as in the present day,
Section 7 of the Endangered Species Act required federal agencies to, “in consultation with and with the assistance of the Secretary [of the Interior], insure that
any action authorized, funded, or carried out by such
agency . . . is not likely to jeopardize the continued
existence of any endangered species or threatened

App. 206
species. . . .” 16 U.S.C. § 1536(a)(2) (2000). In 2001, as
in the present day, under the regulations implementing Section 7, to “jeopardize the continued existence” of
a species meant “to engage in an action that reasonably would be expected, directly or indirectly, to reduce
appreciably the likelihood of both the survival and recovery of a listed species in the wild by reducing the
reproduction, numbers, or distribution of that species.”
50 C.F.R. § 402.02 (2000). In the cases presently before
the court, the Bureau of Reclamation, pursuant to its
obligations under Section 7, initiated formal consultations with the NMFS regarding the SONCC coho
salmon on January 22, 2001 and with the FWS regarding the Lost River and shortnose suckers on February
13, 2001. The results of these consultations were the
biological assessments issued by the NMFS and the
FWS, which found that the Bureau of Reclamation’s
proposed 2001 operations plan for the Klamath Project, which would have provided the plaintiffs with water deliveries in line with historic practices, was “likely
to jeopardize the continued existence” of the Lost River
and shortnose suckers and the SONCC coho salmon.
To avoid jeopardizing the fish, the NMFS and FWS determined it would be necessary to implement certain
“reasonable and prudent alternatives,” including not
releasing water for irrigation purposes from Upper
Klamath Lake in order to maintain certain minimum
elevations and releasing additional water into Klamath River to maintain certain flow rates. The Bureau
of Reclamation subsequently implemented the reasonable and prudent alternatives proposed in the NMFS
and FWS Biological Opinions in its Revised 2001

App. 207
Operations Plan, resulting in the total denial of water
deliveries to plaintiffs until July 2001.
The Bureau of Reclamation, thus, withheld water
from plaintiffs in order to retain what it believed was
the amount of water in Upper Klamath Lake and the
Klamath River needed to avoid “jeopardiz[ing] the continued existence,” that is “reduc[ing] appreciably the
likelihood of . . . the survival,” of the Lost River and
shortnose suckers and the SONCC coho salmon. See 16
U.S.C. § 1536(a)(2); 50 C.F.R. § 402.02. The quantity of
water that would have been necessary to retain in Upper Klamath Lake and in the Klamath River in order
to prevent the extinction of the Lost River and
shortnose suckers and the SONCC coho salmon cannot
have been any less than the quantity that would have
been needed to avoid “reduc[ing] appreciably the likelihood of . . . the survival” of these same fish, which is
essentially a similar standard. The Tribes’ water
rights, therefore, entitled the Bureau of Reclamation to
prevent the diversion of least as much water from
Upper Klamath Lake and the Klamath River as was
necessary to fulfill the Bureau of Reclamation’s Endangered Species Act obligations in 2001.
Plaintiffs do not directly challenge defendant’s
conclusions regarding the priority dates and extent of
the Tribes’ water rights. Instead, plaintiffs argue that
that the government has failed to prove that the
Tribes’ senior water rights precluded deliveries to the
plaintiffs in 2001. In support of this argument, plaintiffs point to the lack of quantification of the Tribes’
water rights, arguing that “[w]ithout knowing how

App. 208
much water the Tribes are entitled to, the Government
cannot show that all (or any portion) of the water in
Upper Klamath Lake belonged to the Tribes—and not
the Klamath farmers.” Initially, the court notes that
unquantified reserved rights are not automatically unenforceable. See Winters v. United States, 207 U.S. 564
(affirming injunction restraining appellants from diverting water away from Fort Belknap Indian Reservation based on the unquantified tribal reserved
rights); Kittitas Reclamation Dist. v. Sunnyside Valley
Irr. Dist., 763 F.2d 1032, 1034-35 (9th Cir. 1985) (affirming district court’s order requiring that water be
released from a reservoir in order to preserve nests of
salmon eggs based on unquantified tribal fishing
rights). That being said, in order for the court to find
that satisfaction of the Tribes’ water rights required a
denial of all water to plaintiffs for most of the 2001 irrigation season, the court must understand the quantity of water to which the Tribes were entitled.
The court has concluded that the Tribes’ water
right entitled them to keep at least as much water in
Upper Klamath Lake and the Klamath River as was
necessary to prevent jeopardizing the continued existence of the Lost River and shortnose suckers and the
SONCC coho salmon. Determinations as to the minimum elevation in Upper Klamath Lake and the minimum flows into the Klamath River that would be
necessary to avoid jeopardizing the continued existence of these fish were set forth in the NMFS and FWS
Biological Opinions. Plaintiffs, however, challenge the
accuracy of the determinations set forth in at least the

App. 209
NMFS Biological Opinion, pointing to a summary of a
government report contained in an unpublished 2006
United States District Court opinion, Pac. Coast Fed’n
of Fisherman’s Ass’ns v. United States Bureau of Reclamation, No. C 02-2006, 2006 WL 1469390, at *3-4
(N.D. Cal. May 25, 2006), aff ’d, 226 F. App’x 715 (9th
Cir. 2007), that they claim is evidence that the government’s actions in 2001 actually “did not protect the
tribal fish resources.”25 Defendant rejects plaintiffs’ argument as an “invitation to conduct an improper, hindsight inquiry into the validity of the government’s
actions in 2001 in this case.” According to defendant,
because plaintiffs have elected to bring a takings
claim, they are barred from challenging the validity of
government actions such as the conclusions in the
NMFS and FWS Biological Opinions and the Revised
2001 Operations Plan.
“[A]n uncompensated taking and an unlawful government action constitute ‘two separate wrongs [that]
give rise to two separate causes of action,’ and . . . a
property owner is free either to sue in district court for
asserted improprieties committed in the course of the
challenged action or to sue for an uncompensated taking in the Court of Federal Claims.” Rith Energy, Inc.
v. United States, 247 F.3d 1355, 1365 (Fed. Cir. 2001)
(quoting Del-Rio Drilling Programs, Inc. v. United
States, 146 F.3d 1358, 1364 (Fed.Cir.1998)). The users
of Klamath Project water, including the Klamath and
25

The court notes that plaintiffs raised this argument for the
first time in their post-trial reply brief and failed to present evidence at trial to support the argument.

App. 210
Tulelake Irrigation Districts, have already had an opportunity to challenge the reasonableness of the Bureau of Reclamation’s decision to implement the
determinations of the NMFS and FWS Biological
Opinions in the Revised 2001 Operations Plan before
the United States District Court in the District of Oregon in Kandra v. United States, 145 F. Supp. 2d 1192.
Because plaintiffs have chosen to bring the present
cases as takings actions before the United States Court
of Federal Claims, they are “required to litigate [their]
takings claim[s] on the assumption that the administrative action was both authorized and lawful.” Rith
Energy, Inc. v. United States, 247 F.3d at 1366; see also
Tabb Lakes, Ltd. v. United States, 10 F.3d 796, 802
(Fed. Cir. 1993) (“[C]laimant must concede the validity
of the government action which is the basis of the taking claim to bring suit under the Tucker Act, 28 U.S.C.
§ 1491.” (citing Florida Rock Indus., Inc. v. United
States, 791 F.2d 893, 899 (Fed. Cir. 1986), cert. denied,
479 U.S. 1053 (1987); Deltona Corp. v. United States,
228 Ct. Cl. 476 (1981), cert. denied, 455 U.S. 1017
(1982))).
Plaintiffs, thus, must assume the lawfulness of the
Bureau of Reclamation’s actions in 2001. This means
that plaintiffs must assume that the Bureau of Reclamation acted reasonably when it determined that it
was required under the Endangered Species Act to implement the determinations of the NMFS and FWS Biological Opinions in the Revised 2001 Operations Plan,
as the United States District Court for the District of
Oregon determined in Kandra v. United States, 145

App. 211
F. Supp. 2d at 1211. It does not follow, however, that
plaintiffs must assume that the Bureau of Reclamation’s determination, or those contained in the FWS
and NMFS Biological Opinions, were completely factually correct. See Cebe Farms, Ind. v. United States, 83
Fed. Cl. 491, 497 (2008) (“Defendant cannot circumvent this bedrock constitutional provision [the Just
Compensation Clause of the Fifth Amendment to the
United States Constitution] by resorting to the circular logic that by conceding the legality of the government’s action in order to maintain a takings claim,
plaintiffs must also concede that the government was
correct in all of its determinations. . . .”). Plaintiffs,
therefore, are free to point out how the elevation levels
and minimum release flows set forth in the FWS and
NMFS Biological Opinions were not, in fact, correct
and necessary to prevent jeopardizing the existence of
the Lost River and shortnose suckers and the SONCC
coho salmon, as implemented by the Bureau of Reclamation.
The FWS Biological Opinion begins with a 43 page
description of the historical operation of the Klamath
Project and the Bureau of Reclamation’s proposed actions for the Klamath Project in 2001, including summaries of historic elevations in Upper Klamath Lake
and other reservoirs in above average water years, below average water years, dry years, critical dry years,
detailed descriptions of how the Bureau of Reclamation historically operated the various Klamath Project
works and facilities and how it intended to operate
them in 2001, and summaries of the various

App. 212
contractual relationships between the Bureau of Reclamation and water users. The FWS Biological Opinion
then moves to a 167 page section titled “Biological/
Conference Opinions Regarding Operation of the Bureau of Reclamation’s Klamath Project and its Effects
on the Endangered Lost River Sucker, Endangered
Shortnose Sucker, and Proposed Critical Habitat for
the Suckers.”26 This section contains a 58 page summary on the status of the fish and their habitats, a 39
page “Environmental Baseline,” describing the effects
of past and ongoing human and natural factors leading
to the current status of the fish, a 36 page analysis of
the expected effects of the Bureau of Reclamation’s
proposed Klamath Project operations on the fish, an 8
page analysis of the cumulative effect of other human
activities on the fish, and a 10 page discussion of FWS’
proposed reasonable and prudent alternatives to the
Bureau of Reclamation’s proposed operations of the
Klamath Project in 2001. A bibliography at the end of
the FWS Biological Opinion lists 225 pieces of literature and 19 personal communications the FWS used to
formulate the conclusions set forth in the FWS Biological Opinion. Among the conclusions of the FWS Biological Opinion was that the maintenance of certain
minimum elevations in Upper Klamath Lake were
necessary “to avoid jeopardy and adverse modification
of proposed critical habitat” for the Lost River and
short nose suckers. These were the minimum
26

The FWS Biological Opinion also contains a separate analysis on the effect of the Bureau of Reclamation’s proposed operations of the Klamath Project on the Bald Eagle, which is not
relevant to the present cases.

App. 213
elevations in Upper Klamath Lake that were, subsequently, implemented by the Bureau of Reclamation in
2001. Recognizing of course that length alone or the
number of references consulted is not, in itself, validation of a study, the FWS Biological Opinion is a thorough review of the subject matter.
The NMFS Biological Opinion is not as lengthy as
the FWS Biological Opinion, which is likely due, at
least in part, to the fact that, unlike the FWS Biological
Opinion, the NMFS Biological Opinion concerns only
one species of fish. The NMFS Biological Opinion contains 3 pages of background on the Klamath Project
and description of the Bureau of Reclamation’s proposed plans for operating the Klamath Project in 2001,
7 pages describing the life cycle, population trends, and
current status of the SONCC coho salmon, a 9 page
“Environmental Baseline” describing the effects of
past and ongoing human and natural factors leading
to the current status of the fish, an 11 page analysis of
the expected effects of the Bureau of Reclamation’s
proposed Klamath Project operations on the fish, a 1
page analysis of the cumulative effect of other human
activities on the fish, and a 6 page discussion of NMFS’
proposed reasonable and prudent alternative to the
Bureau of Reclamation’s proposed operations of the
Klamath Project in 2001. The NMFS Biological Opinion ends with 14 charts and graphs summarizing the
average flows and temperatures at various points in
the Klamath River, as well as the effect of various levels of water discharges from the Klamath Project on
the SONCC coho and other species of salmon. A

App. 214
bibliography in the NMFS Biological Opinion lists 74
pieces of literature the NMFS used to formulate the
opinions set forth in the NMFS Biological Opinion.
Among the conclusions of the NMFS Biological Opinion was that continued operation of the Klamath Project according to historic standards was likely to
“jeopardize the continued existence of [the] SONCC
coho salmon” and that certain minimum flows of water
released from the Klamath Project were necessary “to
prevent further decline” of the fish. These were the
minimum flows of water into the Klamath River that
were, subsequently, implemented by the Bureau of
Reclamation in 2001.
Plaintiffs present nothing to challenge the conclusions of the FWS Biological Opinion. The only offer
plaintiffs make to show that the conclusions in the
NMFS Biological Opinion were flawed are passages
from a 2006 unpublished decision of the United States
District Court for the Northern District of California
in the case of Pacific Coast Federation of Fisherman’s
Associations v. United States Bureau of Reclamation,
which summarize portions of an after the fact February 6, 2002 report by the National Research Council,
an arm of the National Academy of Sciences, titled:
“Prepublication Copy, Interim Report, Scientific Evaluation of Biological Opinions on Endangered and
Threatened Fishes in the Klamath River Basin
(2002).” Pac. Coast Fed’n of Fisherman’s Ass’ns v.
United States Bureau of Reclamation, 2006 WL
1469390, at *3-4. The District Court summarized the

App. 215
February 6, 2002 National Research Council report as
follows:
The NRC [National Research Council] Report
recognized that “the reduction in stocks of native coho salmon in the Klamath River Basin
has been caused by multiple interactive factors.” Changes in the physical habitat associated with inadequate flows and water
temperature were cited as examples. However, the NRC Report found that there was not
a sufficient basis to support the proposed
flows in the 2001 NMFS Biological Opinion.
The NRC Report also found that higher flows
might disadvantage the young coho salmon
between July and September because the additional flows would include water that had
been warmed in retention lakes. High water
temperature was found to be one of the reasons for the decline of coho salmon. The NRC
Report also questioned whether the increased
flows might have a detrimental effect upon
thermal refugia, which was determined to be
critical to the coho salmon’s habitat.
While the NRC Report did not find scientific
support for the minimum flows proposed by
NMFS, the NRC Report also found that the
BOR’s proposal in its 2001 biological assessment could not be justified. The NRC Report
concluded that the BOR’s 2001 biological assessment “could lead to more extreme suppression of flows than has been seen in the
past, and cannot be justified either.” Overall,
the report concluded that “there is no convincing scientific justification at present for

App. 216
deviating from flows derived from operational
practices in place between 1990 and 2000.”
Id. The District Court opinion does not say whether the
National Research Council report drew any similar
conclusions regarding the Upper Klamath Lake elevation levels proposed in the 2001 FWS Biological Opinion.
The court considers the FWS and NMFS Biological Opinions relied upon by the Bureau of Reclamation
in 2001, thoughtfully researched, clearly presented,
credible decision-making documents, which drew on a
wide body of scientific literature and displayed a
strong grasp of the history and operation of the Klamath Project, the biological needs of the threatened
and endangered fish, and the effects of the Klamath
Project and other human activities on the lifecycles of
the fish. Each of the Biological Opinions marshals its
findings on these topics to explain, in depth, why the
reasonable and prudent alternatives they set forth, including minimum elevation levels in Upper Klamath
Lake and minimum water flows into the Klamath
River, were necessary to avoid jeopardizing the continued existence of the Lost River and shortnose suckers
and the SONCC coho salmon.
Plaintiffs have failed to offer or identify any specific evidence in the record which casts doubt on the
scientific conclusions of the FWS Biological Opinion.
Therefore, because the court finds the FWS Biological
Opinion was reasoned and highly credible, the court
accepts the conclusions of the FWS Biological Opinion,

App. 217
including that the elevation levels for Upper Klamath
Lake set forth in the FWS Biological Opinion, which
were subsequently adopted by the Bureau of Reclamation, were necessary to avoid jeopardizing the continued existence of the Lost River and shortnose suckers.
With regard to the NMFS Biological Opinion,
plaintiffs offer only the summary of the February 6,
2002 National Research Council report in the unpublished opinion from the United States District
Court for the Northern District of California in support
of its allegations that the conclusions of the NMFS Biological Opinion are flawed. The District Court opinion
states, without elaboration, that “the NRC Report
found that there was not a sufficient basis to support
the proposed flows in the 2001 NMFS Biological Opinion” and that the Klamath River flows proposed by the
2001 NMFS Biological Opinion “might disadvantage
the young coho salmon between July and September”
and “might have a detrimental effect upon thermal refugia, which was determined to be critical to the coho
salmon’s habitat.” Pac. Coast Fed’n of Fisherman’s
Ass’ns v. United States Bureau of Reclamation, 2006
WL 1469390, at *3-4 (emphasis added). At best, the
summary of the National Research Council report contained in the District Court’s opinion demonstrates
that a different government agency disagreed, in some,
although perhaps not all, respects, with the conclusion
in the NMFS Biological Opinion that the minimum
flows set forth in the NMFS Biological Opinion were
necessary to avoid jeopardizing the existence of the
SONCC coho salmon. Because, however, the District

App. 218
Court’s opinion contains only a brief summary of the
National Research Council’s conclusions and no description of the evidence or scientific research the
National Research Council drew on to reach its conclusions, and because the National Research Council report itself has not been entered into evidence in this
case, the court has no way of judging the validity of the
criticisms of the NMFS Biological Opinion. The court,
therefore, finds that the summary of the National Research Council report contained in the District Court’s
unpublished opinion is not sufficient to put into question the ultimate conclusions set forth in the NMFS
Biological Opinion. Because the court finds the NMFS
Biological Opinion reasoned and credible, and plaintiffs have offered no evidence casting doubt on its conclusions, the court accepts the conclusions of the
NMFS Biological Opinion, including that the release of
certain minimum flows of Klamath Project water set
forth in the NMFS Biological Opinion into the Klamath River, which were subsequently adopted by the
Bureau of Reclamation in 2001, were necessary to
avoid jeopardizing the continued existence of the
SONCC coho salmon.27

27

Although plaintiffs failed to present any evidence at trial
concerning the Tribes’ water rights or the conclusions of the FWS
and NMFS Biological Opinions, the importance of these issues
should not have come as a surprise to plaintiffs. With regard to
the Tribes’ water rights, defendant, in an earlier motion for summary judgment regarding the nature of plaintiffs’ beneficial interest in the use of Klamath Project water and the subject contracts
and its supporting memorandum, which were deferred to trial,
argued:

App. 219
In 2001, as today, the Project’s water right was junior
in priority to the federal reserved water rights of the
Klamath Tribes, and Reclamation’s management of
Project operations was further subject to its trust obligations to protect senior fishing rights of two tribes in
the California portion of the Klamath River basin – the
Yurok and Hoopa Valley Tribes.
Defendant further argued: “Reclamation’s ESA Section 7 obligations overlapped with its trust obligations given that the Klamath
Tribes hold water rights with a priority date senior to the Klamath Project’s 1905 priority and the Hoopa Valley and Yurok
Tribes hold fishing rights which also have senior priority dates.”
Based on these arguments, defendant requested:
The Court should conclude here, as a matter of law,
that because the plaintiffs’ beneficial interest is derivative of the water rights appropriated by the United
States for the Klamath Project, any ‘right’ to receive
and use Project water is junior in priority to the senior
tribal rights described above.
Plaintiffs responded to defendant’s argument by arguing that the
existence of the Tribes’ water rights was irrelevant to the existence of plaintiffs’ water rights and that “the Government’s argument that the Endangered Species Act (ESA) is coextensive with
Indian water rights or that ESA constraints somehow constitute
a tribal right, unsupported by any authority, is simply bizarre.”
(footnote omitted). At the close of trial, the court informed the
parties of certain issues that should be among the issues the parties ought to address in their post-trial briefs. The court specifically mentioned “the role of tribal water rights in any ultimate
liability or damages calculation” and how the Tribes’ water rights
“impact the water rights at issue.” The court also stated that “the
tribal rights issue” needed to be “very clear” in the parties’ posttrial submissions.
With regard to the conclusions of the FWS and NMFS Biological Opinions, prior to trial, on December 16, 2016, in a motion
in limine, defendant argued to
exclude from trial any written evidence or testimony
that seeks to challenge, directly or indirectly, the conclusions reached by FWS and NMFS in their respective

App. 220
Next, plaintiffs argue that the evidence presented
at trial demonstrates that the Bureau of Reclamation’s
actions in 2001 were not intended to satisfy the Bureau
of Reclamation’s obligations to protect the Tribes’ trust
resources, but instead, solely to meet its obligations
under the Endangered Species Act. In support of their
argument, plaintiffs point to the following evidence:
the testimony of a former Reclamation official, Jason
Phillips that “the existence of the United States[’] trust
obligations to the Indians did not affect how the water
was managed by the Bureau of Reclamation in 2001”;
the testimony of Karl Wirkus that he did not release
any more water into Klamath River than was required
by the NMFS Biological Opinion or retain any more
water in Upper Klamath Lake than was required by
the FWS Biological Opinion; a statement in the July
Biological Opinions regarding the proposed operation
of the Klamath Project in 2001, and the determination
by the Bureau of Reclamation regarding the operation
of the Klamath Project in 2001, including its determination regarding the availability of Project water.
Defendant’s argument in support of its motion in limine was similar to the one it makes in its post-trial brief, specifically, that “it
is well-settled that a plaintiff may not challenge [a] government
decision in the context of a Fifth Amendment takings claim.” In a
response to defendant’s motion, filed January 3, 2017, plaintiffs
argued that defendant’s motion should be denied as moot. Plaintiff ’s stated that they conceded the validity of the government’s
actions and “agree[d] that the Bureau of Reclamation’s action constituting the taking—its withholding of Klamath’s water in
2001—was authorized by the Endangered Species Act (as were
the biological opinions).” Plaintiffs, however, argued that this was
“all Klamath is required to concede” and that “plaintiffs in this
taking case are not required to concede every factual assertion the
Government makes in support of its action.”

App. 221
25, 1995 memorandum prepared by the Department of
the Interior Regional Solicitor for the Pacific Southwest Region that “[t]he standard to be applied in determining the quantity of water secured by this [the
Tribes’ reserved water] right has not been determined
as of the date of this memorandum”; and the absence
of any discussion or consideration of any tribal rights
in the FWS and NMFS Biological Opinions.
Defendant, in its briefs before this court, rejects
plaintiffs’ argument and argues instead that the
Tribes’ reserved rights were a factor in the Bureau of
Reclamations’ decision to withhold water in 2001. In
support of its argument, defendant points to the following evidence in the record: the statement in the Revised 2001 Operations Plan that “the UKL [Upper
Klamath Lake] levels and river flows under this Plan
are consistent with requirements of the ESA [Endangered Species Act] and Reclamation’s obligation to protect Tribal trust resources”; the testimony of Jason
Phillips that the Bureau of Reclamation would “go
through the process to comply with the Endangered
Species Act, and by complying with the Endangered
Species Act, Reclamation would – would then determine that its trust obligations to the fishery was also
met”; and the testimony of Karl Wirkus that there was
a “direct relationship” between protecting the endangered species and operating the Klamath Project to be
protective of the tribal trust resources. In their amicus
brief submitted to the court, the Klamath Tribes reject
plaintiffs’ argument, but on different grounds from defendant. According to the Klamath Tribes, the Bureau

App. 222
of Reclamation’s motives for withholding water from
the plaintiffs in 2001 are irrelevant for the purposes of
this case because the plaintiffs, as junior water rights
holders, had no right to receive any Klamath Project
water before the water rights of the Tribes were fully
satisfied. According to the Tribes, in 2001, because the
quantity of water needed to fulfill the Tribes water
rights was greater than that required by the Endangered Species Act, the Tribes water rights were not
fully satisfied in 2001, and, thus, plaintiffs had no entitlement to receive any water.
The court agrees with the Klamath Tribes that the
Bureau of Reclamation’s motives are not dispositive in
the present cases. It is a fundamental principle of water law in prior appropriation states that a senior water right “may be fulfilled entirely before . . . junior
appropriators get any water at all.” Montana v. Wyoming, 563 U.S. at 376; see also Joint Bd. of Control of
Flathead, Mission & Jocko Irr. Dists v. United States,
832 F.2d 1127, 1131–32 (9th Cir. 1987) (“This contention ignores one of the fundamental principles of the
appropriative system of water rights. . . . Montana water law requires that senior rights be fully protected,
even though more economic uses could be made by junior appropriators.” (citation omitted)). In the present
cases, defendant has demonstrated that the Klamath,
Yurok and Hoopa Valley Tribes held water rights to
Klamath Project water that were senior to those of all
plaintiff class members. Defendant also has demonstrated that the quantity of water necessary to satisfy
the Tribes’ senior rights was at least equal to the

App. 223
quantity of water the Bureau of Reclamation believed
to be necessary to satisfy its obligations to avoid jeopardizing the existence of the Lost River and shortnose
suckers and the SONCC coho salmon in conformance
with the requirements of the Endangered Species Act
in 2001. Ultimately, the Bureau of Reclamation’s implementation of its obligations under the Endangered
Species Act required all available project water and
none was left over to deliver to plaintiffs. Because the
Tribes, as senior rights holders, were entitled to have
their water rights fully satisfied prior to any junior appropriators, and the entire quantity of Klamath Project water was necessary to satisfy these rights in
2001, plaintiffs, as junior rights holders, were not entitled to receive any water.28 See Benz v. Water Res.
28

In support of its argument that the Bureau of Reclamations actions in 2001 were not motivated by existence of the
Tribes’ reserved rights, plaintiffs also make the related argument
that “[u]nder its historic practice before 2001, even in the driest
years, Reclamation was able to provide full deliveries to Klamath
farmers without violating any senior water rights or tribal trust
responsibilities.” The court need not draw any conclusions about
the actions of the Bureau of Reclamation in years other than the
one at issue in the cases currently before the court. The past history of the enforcement or non-enforcement of the Tribes’ reserved
rights is irrelevant to the legal status of those rights in 2001. This
is because, “[u]nlike appropriation rights, reserved rights are not
based on diversion and actual beneficial use.” F. Cohen, Handbook of Federal Indian Law 19.01[1] at 1205. “Instead, sufficient
water is reserved to fulfill the purposes for which a reservation
was established.” Id. at 19.01[1] at 1205-06. Thus, any potential
failure of the Tribes to exercise their reserved rights prior to 2001,
or any potential failure by the Bureau of Reclamation to enforce
those rights prior to 2001, would have no impact on the existence
and nature of the Tribes reserved rights in this case. See id. at
19.01[2] at 1206 (“Thus, a reservation established in 1865 that

App. 224
Comm’n, 764 P.2d 594, 599 (Or. 1988) (“A junior appropriator’s water right cannot be exercised until the senior appropriator’s right has been satisfied.”).
Plaintiffs also challenge the existence of the Yurok
and Hoopa Valley Tribes’ water rights, arguing that
“[t]here is no Oregon water right for undetermined
Hoopa Valley Tribe or Yurok Tribe use in California,
and there never will be as no claim was filed by those
Tribes or the Government in the Klamath River Adjudication for any Oregon water, and particularly for water stored in Upper Klamath Lake.” Plaintiffs’
argument regarding the nature of the Tribes’ federal
reserved rights fails. The absence of having made a
timely submission in the Klamath Adjudication might
have waived any water rights a claimant might have
had arising out of Oregon state law and in that adjudication. The water rights held by the Yurok and Hoopa
Valley Tribes, however, are federal reserved rights,
arising out of federal, rather than state, law. See Cappaert v. United States, 426 U.S. at 139 (describing the
process used by the federal government to reserve water rights and noting that the reservation of water
rights “is empowered by the Commerce Clause, Art. I,
s 8, which permits federal regulation of navigable
streams, and the Property Clause, Art. IV, s 3, which
permits federal regulation of federal lands”); Winters
v. United States, 207 U.S. at 577 (“The power of the
government to reserve the waters and exempt them
starts putting water to use in 1981 under its reserved rights has,
in times of shortage, a priority that is superior to any non-Indian
water right with a state-law priority acquired after 1865.”).

App. 225
from appropriation under the state laws is not denied,
and could not be.”). “Federal water rights are not dependent upon state law or state procedures and need
not be adjudicated only in state courts. . . .” Cappaert
v. United States, 426 U.S. 12 at 145. Although reserved
rights can be adjudicated by state bodies, and the
Yurok and Hoopa Valley Tribes could have submitted
claims to the Klamath Basin Adjudication, as the Klamath Tribes apparently did for their reserved rights,
their failure to do so did not affect the existence or nature of their federal reserved rights. See id. at 145-46
(rejecting the argument that the Federal Government
must “perfect its water rights in the state forum like
all other land owners”).
Plaintiffs further argue that, in managing Klamath Project water, the Bureau of Reclamation was not
free to favor the Tribes over the plaintiffs. In support
of this argument, plaintiffs quote language from the
Supreme Court’s opinion in Nevada v. United States
holding that, in managing reclamation projects, the
United States must balance its fiduciary obligations to
both Native American tribes and other water users.
See Nevada v. United States, 463 U.S. at 128 (“[I]t may
well appear that Congress was requiring the Secretary
of the Interior to carry water on at least two shoulders
when it delegated to him both the responsibility for the
supervision of the Indian tribes and the commencement of reclamation projects in areas adjacent to reservation lands. But Congress chose to do this. . . .”).
With regard to the laws of takings and the property at
issue in the present cases, however, these principles

App. 226
are irrelevant. The fact is that the Tribes’ reserved water rights are senior to the water rights held by the
plaintiffs and, therefore, plaintiffs had no entitlement
to receive any water until the Tribes senior rights were
fully satisfied. Any obligations the government had or
might have had towards other users cannot effect the
extent or nature of the Tribes’ reserved rights. See Colville Confederated Tribes v. Walton, 752 F.2d at 405
(“Where reserved rights are properly implied, they
arise without regard to equities that may favor competing water users.” (citing Cappaert v. United States,
426 U.S. at 138–39)). While the result may seem unfair
to the plaintiffs, who have perfected their water rights
under state law and relied upon those rights, “[t]his
merely reflects the tension between the doctrines of
prior appropriation and Indian reserved rights.” Id.;
see also F. Cohen, Handbook of Federal Indian Law
19.03[1] at 1211 (“Because tribal reserved rights arise
under federal law, and because they are often put to
actual use long after appropriation rights are established, the exercise of tribal water rights has the potential to disrupt non-Indian water uses. The impact
on junior state appropriators, however, cannot operate
to divest tribes of their federal water rights.”).
The court, therefore, holds that, because the
Tribes held water rights to Klamath Project water that
were senior to those held by all remaining plaintiff
class members, and because the Tribes water rights
were at least co-extensive to the amount of water that
was required by defendant to satisfy its obligations under the Endangered Species Act concerning the Lost

App. 227
River and shortnose suckers and the coho salmon in
2001, plaintiffs had no entitlement to receive any water before the government had satisfied what it determined to be its obligations under the Endangered
Species Act and its Tribal Trust responsibilities. Although the court recognizes that many plaintiffs, including those who testified before the court, were
severely and negatively impacted by the government’s
actions, the government’s decision in 2001 to withhold
water from plaintiffs in order to satisfy its Endangered
Species Act and Tribal Trust obligations did not constitute an improper taking of plaintiffs’ water rights or
an impairment of plaintiffs’ water rights because
plaintiffs junior water rights did not entitle them to receive any Klamath Project water in 2001. For the same
reason, the government’s actions did not improperly
impair plaintiffs’ right to Klamath Project water in violation of the Klamath Compact. See 71 Stat. 497, 507.
CONCLUSION
For the reasons discussed above, defendant’s motion to exclude the claims of any plaintiffs deriving water rights from the Van Brimmer Ditch Company is
GRANTED. The claims of any class members whose
alleged beneficial right to Klamath Project Water is derived from their ownership of shares held in the Van
Brimmer Ditch Company are DISMISSED.
Regarding the remaining claims of the remaining
class members, the court recognizes the hardships encountered by many plaintiffs as a result of the actions

App. 228
taken in 2001. The court also recognizes the unfortunate amount of time it has taken to resolve these
claims, with two previous judges of this court assigned,
followed by an appeal to the United States Court of Appeals for the Federal Circuit, and a remand to this
court, some time after which the above-captioned cases
were assigned to the undersigned. After the trial, the
court now finds that all of the remaining class members, who can ultimately prove they are properly in the
class, held beneficial interests in receiving water from
the Klamath Project in 2001. The issues are, however,
more complicated. With regard to those class members,
either individually or through an Irrigation District,
who received water based on Warren Act contracts containing language immunizing the government from liability resulting from water shortages caused “[o]n
account of drought, inaccuracy in distribution, or other
cause” and for those class members who received water
based on lease agreements to lease lands in the National Wildlife Refuges within the boundaries of the
Klamath Project, the interests of such class members
have been altered by contract in such a way that plaintiffs are barred from seeking compensation from the
United States based on either a taking or impairment
of such a claim. All other class members have asserted
cognizable property interests. Based on the superior
water rights held by the Klamath, Yurok, and Hoopa
Valley Tribes, however, the remaining class members
were not entitled to receive water in 2001. The government’s actions in 2001, did not, therefore, constitute a
taking of these plaintiffs’ property under the Fifth
Amendment to the United States Constitution or effect

App. 229
an impairment of their rights under the Klamath Compact.
IT IS SO ORDERED.
s/Marian Blank Horn
MARIAN BLANK HORN
Judge

App. 230
In the United States Court of Federal Claims
Nos. 1-591L; 7-194C; 7-19401C; 7-19402C;
7-19403C; 7-19404C; 7-19405C; 7-19406C;
7-19407C; 7-19408C; 7-19409C; 7-19410C;
7-19411C; 7-19412C; 7-19413C; 7-19414C;
7-19415C; 7-19416C; 7-19417C; 7-19418C;
7-19419C; 7-19420C
Filed: December 21, 2016
*

*

*

*

*

*

*

*

* *
KLAMATH IRRIGATION, *
*
et al., and JOHN
*
ANDERSON FARMS,
*
INC., et al.,
*
Plaintiffs,
*
*
v.
*
UNITED STATES,
*
*
v.
*
Defendant.
*
*
PACIFIC COAST
*
FEDERATION OF
*
FISHERMEN’S
*
ASSOCIATIONS,
*
Defendant*
Intervenor.
*
* * * * * * * * * *

Water Rights;
Physical vs.
Regulatory Takings;
Endangered Species
Act; Motions in
Limine.

Nancie G. Marzulla, Marzulla Law, LLC, Washington, DC for plaintiffs. With her was Roger G.

App. 231
Marzulla, Marzulla Law, LLC. Of counsel was William M. Ganong, Special Counsel, Klamath Irrigation
District, Klamath Falls, OR.
Kristine S. Tardiff, Trial Attorney, Natural Resources Section, Environment and Natural Resources
Division, United States Department of Justice, Concord, NH, for defendant. With her was John C. Cruden, Assistant Attorney General, Environment and
Natural Resources Division, and Stephen M.
MacFarlane and Edward C. Thomas, Natural Resources Section, Environment and Natural Resources
Division, United States Department of Justice.
Todd D. True, Earthjustice, Seattle, WA for defendantintervenor.
OPINION
HORN, J.
FINDINGS OF FACT
Before the court are the parties’ cross-motions in
limine regarding the proper legal framework for analyzing plaintiffs’ takings claims in the above-captioned
cases. Plaintiffs in the above-captioned cases are individual landowners, irrigation districts and similar government agencies, and private corporations in Oregon
and California who allege that the defendant, acting
through the United States Bureau of Reclamation, effected a taking of their alleged water rights in 2001. In
the motions presently before the court, defendant argues that plaintiffs’ takings claims should be analyzed

App. 232
as regulatory takings, while plaintiffs argue that their
claims should be analyzed as physical takings.
Plaintiffs are users of water in the Klamath River
Basin. “Located in southern Oregon and northern California, the Klamath River Basin is the drainage basin
of the Klamath River, the Lost River, and the Link
River, as well as various other rivers.” Klamath Irr.
Dist. v. United States, 635 F.3d 505, 508 (Fed. Cir.
2011). The Klamath Irrigation Project (the Klamath
Project), an irrigation project straddling the southern
Oregon and northern California borders, supplies water to hundreds of farms, comprising approximately
200,000 acres of agricultural land, including those in
the Klamath River Basin. The Klamath Project is managed and operated by the United States Bureau of Reclamation. Water is generally diverted and delivered by
the Klamath Project pursuant to state law (to the extent it is not inconsistent with federal law) and pursuant to perpetual repayment contracts between the
Bureau of Reclamation and irrigation districts. See
Klamath Irr. Dist. v. United States, 67 Fed. Cl. 504, 511
(2005), rev’d, 635 F.3d 505. The property rights claimed
by the individual landowner plaintiffs in this litigation
relate to water that is diverted from the Upper Klamath Lake, a large, shallow lake in which water is
stored by means of a dam (the Link River Dam), and
from locations downstream of the Upper Klamath
Lake and the Link River Dam on the Klamath River in
Oregon. See id. at 509. The water is diverted out of the
Upper Klamath Lake and the Klamath River and then
conveyed through canals and laterals to individual

App. 233
farms and ranches in both states for irrigation use, as
well as for use on certain national wildlife refuge lands
within the Klamath Project. The works which divert
the water were constructed and are owned by the
United States. The operation and maintenance of all
the federally owned diversion works downstream of
the headgates of the Upper Klamath Lake, as well as
works that divert water directly from the Klamath
River, however, have been transferred to two of the irrigation district plaintiffs by contract, subject to the
rules and regulations of the Secretary of the Interior.
In addition, the irrigation district plaintiffs operate
and maintain works that distribute this diverted water
to serve benefitted lands. The individual, landowner
plaintiffs (or their lessees) apply the diverted water to
irrigate crops.
“In light of its dual purposes of serving agricultural uses and providing for the needs of wildlife, the
Klamath Project is subject to the requirements of the
Endangered Species Act. See Pub.L. No. 93–205, 87
Stat. 884 (1973) (codified, as amended, at 16 U.S.C.
§ 1531 et seq.) (the ‘ESA’).” Klamath Irr. Dist. v. United
States, 635 F.3d at 508. “Pursuant to the ESA, the Bureau [of Reclamation] has an obligation not to engage
in any action that is likely to jeopardize the continued
existence of an endangered or threatened species or result in the destruction or adverse modification of the
critical habitat of such a species.” Id. at 509 (citing 16
U.S.C. § 1536(a)(1)). “In a 1999 Ninth Circuit decision,
the interests of [Klamath] Project water users were declared subservient to the ESA, the result being that, as

App. 234
necessary, the Bureau has a duty to control the operation of the Link River Dam in order to satisfy the requirements of the ESA.” Id. at 508 (citing Klamath
Water Users Protective Ass’n v. Patterson, 204 F.3d
1206, 1213 (9th Cir. 1999), amended by 203 F.3d 1175
(9th Cir. 2000)). Klamath Project operations potentially affect three species of fish protected under the
Endangered Species Act: the endangered Lost River
sucker; the endangered shortnose sucker; and the
threatened Southern Oregon/Northern California Coast
(SONCC) coho salmon. The Lost River sucker and the
shortnose sucker reside in Upper Klamath Lake and
nearby waters, while the SONCC coho salmon use the
mainstream and tributaries of the Klamath River
downstream from the Upper Klamath Lake and the
Link River Dam.
“For decades, Klamath Basin landowners generally received as much water for irrigation as they
needed. In severe drought years, they simply received
somewhat less.” Klamath Irr. Dist. v. United States, 67
Fed. Cl. at 512. As the Bureau of Reclamation developed its operating plan for the 2001 water year, however, water supply forecasts indicated that it would be
a “critically dry” year due to drought conditions. See
Kandra v. United States, 145 F. Supp. 2d 1192, 1198
(D. Or. 2001). In response, the Bureau of Reclamation
performed a biological assessment of the Klamath Project’s operations on the Lost River sucker and the
shortnose sucker, and a similar assessment regarding
the SONCC coho salmon. See Klamath Irrigation Dist.
v. United States, 67 Fed. Cl. at 513 (citing Kandra v.

App. 235
United States, 145 F.Supp.2d at 1198). “Both assessments concluded that operation of the Project was
likely to affect adversely the three species in violation
of the ESA, 16 U.S.C. § 1531, et seq.” Id. On January 22,
2011, the Bureau of Reclamation forwarded its biological assessment regarding the SONCC coho salmon to
the United States National Marine Fisheries Service
(NMFS) and requested the initiation of a formal consultation with the NMFS pursuant to section 7(a)(2) of
the Endangered Species Act. On February 13, 2011, the
Bureau of Reclamation similarly forwarded its biological assessment regarding the Lost River sucker and
the shortnose sucker to the United States Fish and
Wildlife Service (FWS) and requested the initiation of
a formal consultation with the FWS.
On April 5, 2001, the FWS, acting in furtherance
of its statutory duties under the Endangered Species
Act, issued a final biological opinion concluding that
the proposed 2001 operation plan for the Klamath
Project threatened the continued existence of the
shortnose and Lost River sucker fish. The next day,
April 6, 2001, the NMFS issued a final biological opinion concluding that the proposed operation plan
threatened the SONCC coho salmon. As required by
the Endangered Species Act, 16 U.S.C. §1536(b)(3)(A)
(2012), the biological opinions of both agencies included “reasonable and prudent alternatives” to address the threat to the three fish species. FWS’s
reasonable and prudent alternative required, among
other actions, that the Bureau of Reclamation “not divert water from UKL [Upper Klamath Lake] for

App. 236
irrigation purposes if surface elevations are anticipated to go below [certain minimum levels], regardless
of inflow year type.” The NMFS’s reasonable and prudent alternative required that the Bureau of Reclamation operate the Klamath Project in such a way so as
to provide certain levels of “minimum IGD [Iron Gate
Dam] water releases” into the Klamath River between
April and September 2001.1
On April 6, 2001, the Bureau of Reclamation issued a revised operation plan that incorporated the
reasonable and prudent alternatives proposed by the
FWS and the NMFS. With regard to deliveries to Klamath Project water users, the 2001 operation plan
stated that “[d]ue to the requirements of the biological
opinions and the ESA and the current drought conditions, only limited deliveries of Project water will be
made for irrigation.” On the same day, the Department
of the Interior issued a news release stating that based
on the FWS and NMFS opinions “and the requirements of [the] Endangered Species Act, the Bureau of
Reclamation announced today that no water will be
available from Upper Klamath Lake to supply the
1

“In addition, at this time, the Bureau was subject to a preliminary injunction order issued by the U.S. District Court for the
Northern District of California in the Pacific Coast [Federation of
Fishermen’s Associations v. United States Bureau of Reclamation,
138 F.Supp.2d 1228 (N.D. Cal. 2001)] case.” Klamath Irr. Dist. v.
United States, 635 F.3d at 509. “The order barred the delivery of
Klamath Project water for irrigation purposes when water flow
was below certain minimum levels, until the Bureau complied
with ESA consultation requirements.” Id. (citing Pac. Coast Fed’n
of Fishermen’s Ass’ns v. United States Bureau of Reclamation,
138 F.Supp.2d at 1251).

App. 237
farmers of the Klamath Project.” Ultimately, the delivery of irrigation water from Upper Klamath Lake to
the plaintiffs in the above-captioned cases was totally
terminated until July 2001, when the Bureau of Reclamation was able to release approximately 70,000 acrefeet of water, an amount that plaintiffs allege came too
late in the growing season to allow them to grow crops.
Klamath Irrigation Dist. v. United States, 67 Fed. Cl.
at 513 & n.10.2
The procedural history of the above-captioned
cases is long and complicated. The plaintiffs in Klamath Irrigation, et al. v. United States, case number 1591L, a mixture of irrigation districts, corporations,
and individual landowners, filed their initial complaint
on October 11, 2001, an amended complaint on March
24, 2003, and a second amended complaint on January
31, 2005. The case was initially assigned to Judge Diane G. Sypolt, but was re-assigned to Judge Francis Allegra on December 9, 2004. In their second amended
complaint, plaintiffs alleged that the government’s
2

During late June and early July 2001, there were also three
unauthorized releases of water from Upper Klamath Lake. In
each of the three instances trespassers entered onto federal property at the Link River Dam, opened one of the gates at the head
works of the dam, and released water into a Klamath Project canal. After the first incident, the Bureau of Reclamation requested
that the Klamath Irrigation District cease the diversion, as Reclamation believed the Irrigation District was required to do under
its contract with Reclamation. After the Klamath Irrigation District refused to do so, Reclamation employees closed the gate to
the canal. Reclamation employees again shut the gates after the
next two releases, and then, ultimately, disabled the gates to prevent future unauthorized releases.

App. 238
actions in terminating their water deliveries through
the Klamath Project in 2001 constituted a taking of
their water rights without just compensation in violation of the Fifth Amendment to the United States Constitution, an impairment of their water rights in
violation of the Klamath River Basin Compact, Pub. L.
No. 85–222, 71 Stat. 497 (1957), an interstate compact
adopted by California and Oregon, and ratified by the
United States, in 1957, and the breach of certain contracts between the Bureau of Reclamation and the
plaintiffs. Judge Allegra entered summary judgment
in favor of the defendant on the takings and Klamath
Compact claims on August 31, 2005, see Klamath Irrigation Dist. v. United States, 67 Fed. Cl. 504, and summary judgment in favor of the defendant on the breach
of contract claims on March 16, 2007, see Klamath Irrigation Dist. v. United States, 75 Fed. Cl. 677 (2007),
rev’d, 635 F.3d 505. Plaintiffs filed a timely appeal with
the United States Court of Appeals for the Federal Circuit, which, on July 16, 2008, certified three questions
to the Oregon Supreme Court regarding the nature of
plaintiffs’ alleged water rights.3 See Klamath Irrigation
3

The three questions certified by the Federal Circuit were:
1. Assuming that Klamath Basin water for the Klamath Reclamation Project “may be deemed to have
been appropriated by the United States” pursuant to
Oregon General Laws, Chapter 228, § 2 (1905), does
that statute preclude irrigation districts and landowners from acquiring a beneficial or equitable property interest in the water right acquired by the United States?
2. In light of the statute, do the landowners who receive water from the Klamath Basin Reclamation Project and put the water to beneficial use have a

App. 239
Dist. v. United States, 532 F.3d 1376. After the Oregon
Supreme Court issued an opinion answering the certified questions,4 see Klamath Irrigation Dist. v. United
beneficial or equitable property interest appurtenant to
their land in the water right acquired by the United
States, and do the irrigation districts that receive water from the Klamath Basin Reclamation Project have
a beneficial or equitable property interest in the water
right acquired by the United States?
3. With respect to surface water rights where appropriation was initiated under Oregon law prior to February 24, 1909, and where such rights are not within
any previously adjudicated area of the Klamath Basin,
does Oregon State law recognize any property interest,
whether legal or equitable, in the use of Klamath Basin
water that is not subject to adjudication in the Klamath
Basin Adjudication?
Klamath Irrigation Dist. v. United States, 532 F.3d at 1376,
1377–78 (Fed. Cir. 2008).
4
The Oregon Supreme Court answered the Federal Circuit’s
three certified questions as follows:
1. The 1905 Oregon act did not preclude plaintiffs
from acquiring an equitable or beneficial property interest in a water right to which the United States holds
legal title. Moreover, under the 1905 act, a formal written release from the United States is not necessary for
plaintiffs to have acquired an equitable or beneficial
property interest in the water right that the United
States appropriated.
2. Under Oregon law, whether plaintiffs acquired an
equitable or beneficial property interest in the water
right turns on three factors: whether plaintiffs put the
water to beneficial use with the result that it became
appurtenant to their land, whether the United States
acquired the water right for plaintiffs’ use and benefit,
and, if it did, whether the contractual agreements between the United States and plaintiffs somehow have
altered that relationship. In this case, the first two

App. 240
States, 227 P.3d 1145, the Federal Circuit, on February
17, 2011, issued an opinion vacating the judgment of
the Court of Federal Claims and remanding the case to
the Court of Federal Claims for further proceedings.
See Klamath Irrigation Dist. v. United States, 635 F.3d
505. With regard to plaintiffs’ takings and Klamath
Compact claims, the Federal Circuit instructed that:
On remand, the Court of Federal Claims
should proceed as follows: First, it should determine, for purposes of plaintiffs’ takings and
Compact claims, whether plaintiffs have asserted cognizable property interests. . . . To
the extent the Court of Federal Claims determines that one or more plaintiffs have asserted cognizable property interests, it then
should determine whether, as far as the takings and Compact claims are concerned, those
factors suggest that plaintiffs acquired a beneficial or
equitable property interest in the water right to which
the United States claims legal title, but we cannot provide a definitive answer to the court’s second question
because all the agreements between the parties are not
before us.
3. To the extent that plaintiffs assert only an equitable or beneficial property interest in the water right to
which the United States claims legal title in the Klamath Basin adjudication, plaintiffs are not “claimants”
who must appear in that adjudication or lose the right.
As a general rule, equitable or beneficial property interests in a water right to which someone else claims
legal title are not subject to determination in a state
water rights adjudication.
Klamath Irrigation Dist v. United States, 227 P.3d 1145, 1169
(Or. 2010).

App. 241
interests were taken or impaired. That determination will turn on existing takings law.
Klamath Irr. Dist. v. United States, 635 F.3d at 519–20
(footnotes omitted). On remand, on November 22, 2013,
Judge Allegra dismissed the breach of contract claims
of three plaintiffs on 28 USC § 1500 (2012) grounds.
See Klamath Irr. Dist. v. United States, 113 Fed. Cl. 688
(2013). On June 3, 2014, Judge Allegra, at plaintiffs’
request, dismissed all remaining plaintiffs’ contract
claims, without prejudice.
The plaintiffs in John Anderson Farms, et al., v.
United States, case numbers 7-194C, 7-19401C,
7-19402C, 7-19403C, 7-19404C, 7-19405C, 7-19406C,
7-19407C, 7-19408C, 7-19409C, 7-19410C, 7-19411C,
7-19412C, 7-19413C, 7-19414C, 7-19415C, 7-19416C,
7-19417C, 7-19418C, 7-19419C, 7-19420C, who are all
individual landowners, filed their original complaint
on March 22, 2007. The cases were initially assigned to
Judge Allegra. On August 2, 2007, Judge Allegra
stayed the cases pending resolution of the appeal in
Klamath Irrigation, et al. v. United States. The stay
was lifted on August 25, 2011 and an amended complaint was filed on October 4, 2011. In their amended
complaint, the John Anderson Farms plaintiffs alleged
that the government’s actions constituted breach of
contracts between the government and the plaintiffs
and a taking of plaintiffs’ property, in the form of their
water rights, without compensation in violation of the
Fifth Amendment to the United States Constitution.
On March 13, 2014, Judge Allegra granted plaintiffs’

App. 242
motion to voluntarily dismiss their breach of contract
claims with prejudice.
On June 25, 2015, after significant discovery had
already been taken, the above-captioned cases were reassigned to the undersigned judge, and are scheduled
to go to trial in January 2017. Defendant has filed motions in limine in both of the above captioned cases,
in which it requests that the court find that “plaintiffs’
takings claims in both cases should be analyzed as
regulatory takings, rather than physical takings.”
Intervenor-defendant Pacific Coast Federation of Fishermen’s Associations (PCFFA) also filed a memoranda
in support of defendant’s motions. Plaintiffs have filed
oppositions to defendant’s motions and cross-motions
in which they request that the court deny defendant’s
motions in limine and, instead, find that “the proper
legal framework for analyzing Klamath’s water rights
takings claim is the per se or physical taking test” in
both cases. Defendant filed replies in support of its motion and oppositions to plaintiffs’ cross-motions, and
PCFFA filed a reply in support of defendant’s motions
in limine. Thereafter, plaintiffs filed a reply in support
of their cross-motions.
DISCUSSION
The Takings Clause of the Fifth Amendment to the
United States Constitution provides in pertinent part:
“nor shall private property be taken for public use
without just compensation.” U.S. Const. amend. V. The
purpose of this Fifth Amendment provision is to

App. 243
prevent the government from “ ‘forcing some people
alone to bear public burdens which, in all fairness and
justice, should be borne by the public as a whole.’ ”
Palazzolo v. Rhode Island, 533 U.S. 606, 618 (2001)
(quoting Armstrong v. United States, 364 U.S. 40, 49
(1960)), abrogated on other grounds by Lingle v. Chevron U.S.A. Inc., 544 U.S. 528 (2005), recognized by
Hageland Aviation Servs., Inc. v. Harms, 210 P.3d 444
(Alaska 2009); see also Penn Cent. Transp. Co. v. City
of New York, 438 U.S. 104, 123-24, reh’g denied, 439
U.S. 883 (1978); Lingle v. Chevron U.S.A. Inc., 544 U.S.
528, 536 (2005); E. Enters. v. Apfel, 524 U.S. 498, 522
(1998); Rose Acre Farm, Inc. v. United States, 559 F.3d
1260, 1266 (Fed. Cir.), reh’g en banc denied (Fed. Cir.
2009), cert. denied, 130 S. Ct. 1501 (2010); Janowsky v.
United States, 133 F.3d 888, 892 (Fed. Cir. 1998); Res.
Invs., Inc. v. United States, 85 Fed. Cl. 447, 469-70
(2009); Pumpelly v. Green Bay & Miss. Canal Co., 80
U.S. (13 Wall.) 166, 179 (1871) (citing to principles
which establish that “private property may be taken
for public uses when public necessity or utility requires” and that there is a “clear principle of natural
equity that the individual whose property is thus sacrificed must be indemnified”).
Therefore, “a claim for just compensation under
the Takings Clause must be brought to the Court of
Federal Claims in the first instance, unless Congress
has withdrawn the Tucker Act grant of jurisdiction in
the relevant statute.” E. Enters. v. Apfel, 524 U.S. at
520 (citing Ruckelshaus v. Monsanto Co., 467 U.S. 986,
1016-19 (1984)); see also Acceptance Ins. Cos. v. United

App. 244
States, 503 F.3d 1328, 1336 (Fed. Cir. 2007); Morris v.
United States, 392 F.3d 1372, 1375 (Fed. Cir. 2004)
(“Absent an express statutory grant of jurisdiction to
the contrary, the Tucker Act provides the Court of Federal Claims exclusive jurisdiction over takings claims
for amounts greater than $10,000.”). The United States
Supreme Court has declared: “If there is a taking, the
claim is ‘founded upon the Constitution’ and within the
jurisdiction of the [United States Court of Federal
Claims] to hear and determine.” Preseault v. Interstate
Commerce Comm’n, 494 U.S. 1, 12 (1990) (quoting
United States v. Causby, 328 U.S. 256, 267 (1946)); see
also Lion Raisins, Inc. v. United States, 416 F.3d 1356,
1368 (Fed. Cir. 2005); Narramore v. United States, 960
F.2d 1048, 1052 (Fed. Cir. 1992); Perry v. United States,
28 Fed. Cl. 82, 84 (1993).
To succeed under the Fifth Amendment Takings
Clause, a plaintiff must show that the government
took a private property interest for public use without
just compensation. See Adams v. United States, 391
F.3d 1212, 1218 (Fed. Cir. 2004), cert. denied, 546 U.S.
811 (2005); Arbelaez v. United States, 94 Fed. Cl. 753,
762 (2010); Gahagan v. United States, 72 Fed. Cl. 157,
162 (2006). “The issue of whether a taking has occurred
is a question of law based on factual underpinnings.”
Huntleigh USA Corp. v. United States, 525 F.3d 1370,
1377-78 (Fed. Cir.), cert. denied, 555 U.S. 1045 (2008).
The government must be operating in its sovereign rather than in its proprietary capacity when it initiates
a taking. See St. Christopher Assocs., L.P. v. United
States, 511 F.3d 1376, 1385 (Fed. Cir. 2008).

App. 245
The United States Court of Appeals for the Federal Circuit has established a two-part test to determine whether government actions amount to a taking
of private property under the Fifth Amendment. See
Klamath Irr. Dist. v. United States, 635 F.3d at 511;
Am. Pelagic Fishing Co. v. United States, 379 F.3d
1363, 1372 (Fed. Cir.) (citing M & J Coal Co. v. United
States, 47 F.3d 1148, 1153-54 (Fed. Cir.), cert. denied,
516 U.S. 808 (1995)), reh’g denied (Fed. Cir. 2004), cert.
denied, 545 U.S. 1139 (2005). A court first determines
whether a plaintiff possesses a cognizable property interest in the subject of the alleged takings. Then, the
court must determine whether the government action
is a “ ‘compensable taking of that property interest.’ ”
Huntleigh USA Corp v. United States, 525 F.3d at 1377
(quoting Am. Pelagic Fishing Co., L.P. v. United States,
379 F.3d at 1372).
To establish a taking, a plaintiff must have a legally cognizable property interest, such as the right of
possession, use, or disposal of the property. See Loretto
v. Teleprompter Manhattan CATV Corp., 458 U.S. 419,
435 (1982) (citing United States v. Gen. Motors Corp.,
323 U.S. 373 (1945)); CRV Enters., Inc. v. United States,
626 F.3d 1241, 1249 (Fed. Cir. 2010), cert. denied, 131
S. Ct. 2459 (2011); Karuk Tribe of Cal. v. Ammon, 209
F.3d 1366, 1374-75 (Fed. Cir.), reh’g denied and en banc
suggestion denied (Fed. Cir. 2000), cert. denied, 532
U.S. 941 (2001). “ ‘It is axiomatic that only persons with
a valid property interest at the time of the taking are
entitled to compensation.’ ” Am. Pelagic Fishing Co. v.
United States, 379 F.3d at 1372 (quoting Wyatt v.

App. 246
United States, 271 F.3d 1090, 1096 (Fed. Cir. 2001),
cert. denied, 353 U.S. 1077 (2002) and citing Cavin v.
United States, 956 F.2d 1131, 1134 (Fed. Cir. 1992)).
Therefore, “[i]f the claimant fails to demonstrate the
existence of a legally cognizable property interest, the
courts [sic] task is at an end.” Am. Pelagic Fishing Co.
v. United States, 379 F.3d at 1372 (citing Maritrans
Inc. v. United States, 342 F.3d 1344, 1352 (Fed. Cir.
2003) and M & J Coal Co. v. United States, 47 F.3d at
1154). The court does not address the second step
“without first identifying a cognizable property interest.” Air Pegasus of D.C., Inc. v. United States, 424 F.3d
1206, 1213 (Fed. Cir.) (citing Am. Pelagic Fishing Co. v.
United States, 379 F.3d at 1381 and Conti v. United
States, 291 F.3d 1334, 1340 (Fed. Cir.), reh’g en banc
denied (Fed. Cir. 2002), cert. denied, 537 U.S. 1112
(2003)), reh’g denied and reh’g en banc denied (Fed. Cir.
2005). Only if there is to be a next step, “ ‘after having
identified a valid property interest, the court must determine whether the governmental action at issue
amounted to a compensable taking of that property interest.’ ” Huntleigh USA Corp. v. United States, 525
F.3d at 1378 (quoting Am. Pelagic Fishing Co. v. United
States, 379 F.3d at 1372).
In the present cases, the issue of whether or not
plaintiffs have cognizable property interests in the
subject of their alleged takings, the right to use certain
waters provided by the Klamath Project, remains open
to dispute and is not at issue in the present crossmotions in limine. In the cross-motions currently before the court, the parties ask the court to rule as to

App. 247
whether plaintiffs’ claims for a taking of their alleged
property rights should be analyzed under the framework of physical or regulatory takings. As described by
the United States Court of Appeals for the Federal Circuit: “Decisions of the Supreme Court have drawn a
clear line between physical and regulatory takings.
The former involve a physical occupation or destruction of property, while the latter involve restrictions on
the use of the property.” CRV Enters., Inc. v. United
States, 626 F.3d at 1246 (citing cases). “The distinction
is important because physical takings constitute per se
takings and impose a ‘categorical duty’ on the government to compensate the owner, whereas regulatory
takings generally require balancing and ‘complex factual assessments,’ utilizing the so-called Penn Central
[Transportation Co. v. City of New York, 438 U.S. 104]
test.” Id. (quoting Tahoe–Sierra Pres. Council v. Tahoe
Reg’l Planning Agency, 535 U.S. 302, 322–23 (2002)).
The United States Court of Appeals for the Federal
Circuit has held that “our focus should primarily be on
the character of the government action when determining whether a physical or regulatory taking has occurred.” Casitas Mun. Water Dist. v. United States, 543
F.3d 1276, 1289 (Fed. Cir. 2008).
As further summarized by the United States
Court of Appeals for the Federal Circuit, in a trilogy of
cases, International Paper Company v. United States,
282 U.S. 399 (1931), United States v. Gerlach Live
Stock Company, 339 U.S. 725 (1950), and Dugan v. Rank,
372 U.S. 609 (1963), the Supreme Court “provides
guidance on the demarcation between regulatory and

App. 248
physical takings analysis with respect to [water]
rights.” Casitas Mun. Water Dist. v. United States, 543
F.3d at 1289. According to the Federal Circuit, in each
of these cases: “the United States physically diverted
the water, or caused water to be diverted away from
the plaintiffs’ property”; “the diverted water was dedicated to government use or third party use which
served a public purpose”; and “the Supreme Court analyzed the government action . . . as a per se taking.”
Id.; see also Washoe Cty., Nev. v. United States, 319
F.3d 1320, 1326 (Fed. Cir. 2003) (“In the context of water rights, courts have recognized a physical taking
where the government has physically diverted water
for its own consumptive use or decreased the amount
of water accessible by the owner of the water rights.”
(citing Dugan v. Rank, 372 U.S. at 625–26; Int’l Paper
Co. v. United States, 282 U.S. at 407–08; and Tulare v.
United States, 49 Fed. Cl. 313, 320 (2001)).
In International Paper, the plaintiff held the right
to draw water from a canal owned by the Niagara Falls
Power Company. See Int’l Paper Co. v. United States,
282 U.S. at 405. In order to support “national security
and defence [sic],” the federal government requisitioned all the electrical power the power company was
capable of producing and, in order to increase the
amount of power produced, ordered the power company to “cut off the water being taken” from the canal
by the plaintiff. See id. at 405-06. In holding that the
government’s actions constituted a taking of the plaintiff ’s water rights, Justice Holmes found that:

App. 249
The petitioner’s right was to the use of the water; and when all the water that it used was
withdrawn from the petitioner’s mill and
turned elsewhere by government requisition
for the production of power it is hard to see
what more the Government could do to take
the use.
Id. at 407.
In Gerlach Live Stock Company, the plaintiffs
were holders of riparian rights along the San Joaquin
River who alleged that they were deprived of these
rights by the construction of the Friant Dam in California. See United States v. Gerlach Live Stock Co., 339
U.S. at 727-28. The Friant Dam “arrested” the waters
of San Joaquin Rivers, diverting its waters into a system of irrigation canals, and leaving, “except for occasional spills, only a dry river bed” in the area below the
dam where plaintiffs held their rights. See id. at 729.
Plaintiffs alleged that, by operation of the Dam, the
government had taken their right to “annual inundations” from the river, which they used to “moisten[ ] and
enrich[ ]” their lands. See id. at 730. After finding that
“[t]he waters of which claimants [were] deprived” had
been “taken for resale largely to other private land
owners not riparian to the river” in order that “private
lands will be made more fruitful, more valuable, and
their operation more profitable,” id. at 752, the Court
held that the plaintiffs were entitled to compensation
for the loss of their water rights. See id. at 755.
Like Gerlach Live Stock Company, Dugan v. Rank
also involved the government’s operation of the Friant

App. 250
Dam. See Dugan v. Rank, 372 U.S. at 610. As noted by
the Federal Circuit, “[i]n Dugan, landowners along the
San Joaquin River, owning riparian and other water
rights in the river, alleged that the BOR’s [Bureau of
Reclamation] storage of water upstream behind Friant
Dam left insufficient water in the river to supply their
water rights.” Casitas Mun. Water Dist. v. United
States, 543 F.3d at 1290 (citing Dugan v. Rank, 372 U.S.
at 614, 616). The Supreme Court in Dugan concluded
that, based on plaintiffs’ allegations, the operation of
the Dam had effected “a partial taking of respondents’
claimed rights.” Dugan v. Rank, 372 U.S. at 620. In coming to this conclusion, the Court held that “[a] seizure
of water rights need not necessarily be a physical invasion of land. It may occur upstream, as here.” Id. at 625.
In the above-captioned cases, defendant asks that
this court hold that plaintiffs’ takings claims should be
analyzed as regulatory, rather than physical, takings.
In support of this position, defendant characterizes
plaintiffs’ claims as being “based on the restriction on
the use of a natural resource—water—resulting from
government regulation.” Defendant states that precedential cases have “consistently applied” a regulatory
takings analysis to restrictions on the use or development of property, including natural resources. In particular, defendant points to the United States Supreme
Court’s decisions in Penn Central Transportation Company v. City of New York, 438 U.S. 104 (1978), United
States v. Central Eureka Mining Company, 357 U.S.
155 (1958), and Keystone Bituminous Coal Association
v. DeBenedictis, 480 U.S. 470 (1987), as well as the

App. 251
United States Court of Appeals for the Federal Circuit’s decision in Forest Properties, Inc. v. United
States, 177 F.3d 1360 (Fed. Cir. 1999). Defendant next
argues that the Federal Circuit has rejected attempts
to characterize restrictions involving compliance with
the Endangered Species Act as a physical taking, citing
Boise Cascade Corporation v. United States, 296 F.3d
1339 (Fed. Cir. 2002) and Seiber v. United States, 364
F.3d 1356 (Fed. Cir. 2004). Defendant also argues that
the trilogy of Supreme Court cases discussing the taking of water rights as physical takings, International
Paper Company v. United States, 282 U.S. 399, Dugan
v. Rank, 372 U.S. 609, and United States v. Gerlach
Live Stock Company, 339 U.S. 725, are distinguishable
because, in each of them, the government took the
plaintiffs’ water rights for the government’s own use or
for that of a third party, while in the present cases the
government’s actions merely restricted plaintiffs’ right
to use the water at issue. Finally, defendant argues
that the Federal Circuit’s decision to apply a physical
takings framework in Casitas Municipal Water District v. United States, 543 F.3d 1276, 1282 (Fed. Cir.
2008) is not controlling in the present cases because it
was premised on the government’s concession that the
plaintiff had a right not only to use the water at issue,
but, unlike in the present cases, to divert the water as
well.
Plaintiffs ask this court to reject defendant’s motion and, instead, hold that plaintiffs’ takings claims
should be analyzed as physical takings. In support of
this position, plaintiffs characterize the government

App. 252
actions at issue as “t[aking] physical control” of the water in Upper Klamath Lake to which plaintiffs held a
beneficial right of use, “divert[ing]” some of that water
into the Klamath River to support the SONCC coho
salmon, and “impound[ing]” the rest of the water in
Upper Klamath Lake in order to support the Lost
River and shortnose sucker fish. Plaintiffs reject the
cases cited by defendant, arguing that defendant has
failed to cite “a single case holding that water rights
takings cases should be analyzed under a regulatory
taking test.” (emphasis omitted). According to plaintiffs, the Supreme Court has, in fact, “uniformly” analyzed takings of water rights as physical, rather than
regulatory takings in its water rights cases, International Paper Company v. United States, Dugan v. Rank,
and United States v. Gerlach Live Stock Company.
Plaintiffs argues [sic] that the facts in the present
cases are closely analogous to those the Supreme Court
analyzed as physical takings in Dugan v. Rank, and
United States v. Gerlach Live Stock Company, because
those cases also involved the government “impounding
water” and “refusing to release it to irrigators.” Plaintiffs further argue that Casitas Municipal Water District v. United States is “controlling” based on the
allegedly similar facts in the present cases.
The Federal Circuit’s decision in Casitas Municipal Water District v. United States is a binding
precedent on this court, which, as discussed above, interpreted and implemented several, relevant, binding
decisions issued by the United States Supreme Court.
Casitas concerned an irrigation project in California,

App. 253
the Ventura River Project, which combined water from
two sources, the Coyote Creek and the Ventura River,
into a reservoir, Lake Casitas. See Casitas Municipal
Water District v. United States, 543 F.3d at 1280. The
water in the Ventura River was diverted from the river
by the Robles Diversion Dam and carried into Lake Casitas via the Robles-Casitas Canal. See id. For the purpose of the Casitas appeal, the government conceded
that the plaintiff, the Casitas Municipal Water District
(Casitas), had “a right both to divert 107,800 acre-feet
of water” from the Ventura River Project and “to use
28,500 acre-feet of such diverted water.” Id. at 1288. In
2003, in order to comply with its obligations under the
Endangered Species Act to protect the endangered
West Coast steelhead trout, the Bureau of Reclamation
issued a directive ordering Casitas to: “(1) construct a
fish ladder facility . . . located at the intersection of the
Ventura River, Robles Diversion Dam, and the RoblesCasitas Canal; and (2) divert water from the Project to
the fish ladder, resulting in a permanent loss to Casitas of a certain amount of water per year.” Id. at 1282.
Casitas complied with this directive, but subsequently
filed suit against the government alleging that the government’s actions constituted a compensable taking of
its water rights. See id.
The government in Casitas argued that its actions
were distinguishable from those the Supreme Court
had found to be physical takings in International Paper Company, Gerlach Live Stock Company, and Dugan
because “it did not seize, appropriate, divert, or impound any water, but merely required water to be left

App. 254
in the stream.” Id. at 1290. The Federal Circuit rejected
this argument, finding that:
the government did not merely require some
water to remain in stream, but instead actively caused the physical diversion of water
away from the Robles-Casitas Canal—after
the water had left the Ventura River and was
in the Robles-Casitas Canal—and towards
the fish ladder, thus reducing Casitas’ water
supply.
Id. at 1291-92. In coming to this conclusion, the court
specifically noted that the operation of fish canal involved closing an “overshot gate” located in the RoblesCasitas Canal, which diverted water out of the canal
and into the fish ladder. Id. at 1291. The court also
noted that “the appropriate reference point in time to
determine whether the United States caused a physical diversion” was not, as the government argued, “before the construction of the [Ventura River] Project but
instead the status quo before the fish ladder was operational,” at which point water had been flowing down
the Casitas-Robles Canal “since the late 1950s.” Id. at
1292 n.13. The court also rejected the government’s argument that its actions were distinguishable from the
Supreme Court’s trilogy of water rights takings cases
because it had not appropriated “the water for its own
use or for use by a third party,” finding that there was
“little doubt” that the purpose of the government’s
actions, “the preservation of the habitat of an endangered species,” constituted a government and public
use of Casitas’s water. Id. at 1292. Based on these

App. 255
determinations, the Federal Circuit held that “[t]he
government requirement that Casitas build the fish
ladder and divert water to it should be analyzed under
the physical takings rubric.” Id. at 1296.
The facts in the present cases are very similar to
those in Casitas. Although there remain outstanding
questions regarding plaintiffs’ water rights in the
cases presently before the court, to the extent plaintiffs
held such rights, all parties agree that plaintiffs’ rights
would have been to use water from the Klamath Project. Thus, as in Casitas, in Klamath Irrigation and
John Anderson Farms, the government has taken an
action that had the effect of preventing plaintiffs from
enjoying the right to use water provided by an irrigation project, to the extent they held such rights. As in
Casitas, the plaintiffs in the present cases had been
able to use these water rights more or less fully for
years prior to the government’s action. Further, in both
Casitas and the present cases, the government’s action
was implemented by a similar physical means, in Casitas, by closing an “overshot gate” to divert water out
of the canal used by the plaintiffs, see id. at 1291, and,
in the present cases, by using the Klamath Project
works to prevent water from travelling out of Upper
Klamath Lake and the Klamath River and into project
canals used by the plaintiffs. Finally, the water ultimately was used for the same purpose in each of the
cases, to preserve the habitat of certain fish and meet
the government’s obligations under the Endangered
Species Act. In Casitas, the Federal Circuit stated
plainly that “there is little doubt that the preservation

App. 256
of the habitat of an endangered species is for government and third party use—the public—which serves
a public purpose.” Id. at 1292 (citing Kelo v. City of
New London, 545 U.S. 469, 485 (2005)).
Defendant attempts to distinguish Casitas on two
grounds. First, defendant notes that the government
in Casitas conceded, for the purpose of appeal, that
Casitas held not only a right to use water, but also a
right to divert water from the Ventura River Project,
and, therefore, argues that the Federal Circuit’s holding was premised on a finding that Casitas’s right to
divert water, rather than its right merely to use water,
had been taken. This argument finds no support in the
text of the Casitas opinion, which, after mentioning
that Casitas held a right to divert 107,800 acre-feet of
water from the Ventura River Project, see id. at 1288,
never describes the government’s actions as having
interfered with Casitas’ right to divert water. By contrast, the opinion does state that, as a result of the
government’s actions, “[t]he water [diverted by the government], and Casitas’ right to use that water, is forever gone.” Id. at 1296 (emphasis added). Moreover,
after quoting a statement from the Supreme Court’s
opinion in International Paper that:
[t]he petitioner’s right was to the use of the
water; and when all the water that it used was
withdrawn from the petitioner’s mill and
turned elsewhere by government requisition
for the production of power it is hard to see
what more the Government could do to take
the use,

App. 257
the Federal Circuit stated “[s]imilar to the petitioner
in International Paper, Casitas’ right was to the use
of the water, and its water was withdrawn from the
Robles-Casitas Canal and turned elsewhere (to the fish
ladder) by the government.” Id. at 1292 (emphasis
added) (quoting Int’l Paper Co. v. United States, 282
U.S. at 407). At the very least, these statements demonstrate that the United States Court of Appeals for the
Federal Circuit concluded that the government’s water
diversions in Casitas resulted in a permanent taking
of Casitas’ right to use the diverted water. See also
CRV Enters., Inc. v. United States, 626 F.3d at 1247
(“Thus, the prior water rights cases finding a physical
taking involved instances where the ‘United States
physically diverted the water, or caused water to be diverted away from the plaintiffs’ property’ such that water was removed entirely and the plaintiffs ‘right to use
that water, [was] forever gone.’ ” (alteration in original)
(emphasis added) (quoting Casitas v. United States,
543 F.3d at 1290, 1296)).
Defendant also attempts to distinguish Casitas by
arguing that, in the present cases, the Bureau of Reclamation’s actions did not amount to a physical diversion of Klamath Project water, but instead constituted
only regulatory restrictions prohibiting the removal
of water by plaintiffs from Upper Klamath Lake, the
equivalent of what the court in Casitas termed “merely
requir[ing] some water to remain in stream” as opposed to “actively caus[ing] the physical diversion of
water.” See Casitas v. United States, 543 F.3d at 1291.
Defendant’s argument ignores the Federal Circuit’s

App. 258
determination in Casitas that “the appropriate reference point in time to determine whether the United
States caused a physical diversion” is the “status quo”
before the challenged government action. Id. at 1292
n.13. In the present cases, in prior proceedings before
Judge Allegra, there was a finding that the status quo
prior to the government’s actions was that the plaintiffs “generally received as much water for irrigation
as they needed,” except for in drought years when they
received “somewhat less.” Klamath Irrigation Dist. v.
United States, 67 Fed. Cl. at 512. By refusing to release
water from Upper Klamath Lake and Klamath River,
the government prevented water that would have, under the status quo ante, flowed into the Klamath Project canals and to the plaintiffs. The government’s
actions “arrested” and “divert[ed]” waters destined for
the plaintiffs in the same manner the Supreme Court
found to have effected a physical taking in Gerlach
Live Stock Company and Dugan. See United States v.
Gerlach Live Stock Co., 339 U.S. at 729; Dugan v. Rank,
372 U.S. at 623 (“[The] expressed purpose of the construction of the dam [was] to store and divert to other
areas the waters of the San Joaquin [River]. . . .”).5
5

Defendant attempts to distinguish Gerlach Live Stock
Company and Dugan on the grounds that, unlike in the present
cases, the landowners in both of those cases held riparian water
rights and the government attempted and failed to either purchase plaintiffs’ rights or enter into some sort of an agreement
with them. These alleged distinctions, however, cannot lessen the
applicability of these two cases, as neither the nature of the alleged water rights, nor the government’s prior attempts to obtain
those rights was dispositive for the Supreme Court’s holdings in
Gerlach Live Stock Company or Dugan, which instead focused on

App. 259
Thus, while the government’s actions in the present
cases may not have amounted to as obvious a physical
diversion as in Casitas, where water was re-directed
out of a canal and into a newly built fish ladder, see
Casitas Mun. Water Dist. v. United States, 543 F.3d at
1282, the government’s retention of water in Upper
Klamath Lake and Klamath River did amount to a
physical diversion of water according to the standards
set by the United States Court of Appeals for the Federal Circuit and the United States Supreme Court. See
Casitas Mun. Water Dist. v. United States, 543 F.3d at
1289-90 (characterizing the government’s “storage of
water upstream behind Friant Dam” in Dugan v. Rank
as involving a “physical diversion of water for third
party use”). Under the applicable law, therefore, if
plaintiffs, as they allege, held a right to use this water,
then the government’s actions should be analyzed as
physical takings.

the government’s appropriation of private water rights for its own
use without compensation. See United States v. Gerlach Live
Stock Co., 339 U.S. at 752-53 (“No reason appears why those who
get the waters should be spared from making whole those from
whom they are taken. Public interest requires appropriation; it
does not require expropriation.”); Dugan v. Rank, 372 U.S. at 62526 (“[W]hen the Government acted here ‘with the purpose and
effect of subordinating’ the respondents’ water rights to the Project’s uses ‘whenever it saw fit,’ ‘with the result of depriving the
owner of its profitable use, (there was) the imposition of such a
servitude (as) would constitute an appropriation of property for
which compensation should be made.’ ” (quoting Peabody v.
United States, 231 U.S. 530, 538 (1913); and Portsmouth Co. v.
United States, 260 U.S. 327, 329 (1922)).

App. 260
In addition to disputing the applicability of Casitas, defendant also argues that “[t]he precedential
rulings that guide this Court’s analysis have consistently applied a regulatory takings analysis to restrictions on the use or development of property,
including property comprising natural resources that
provide benefits for the common good.” The cases on
which defendant relies, however, are distinguishable
and do not help defendant because the nature and
character of the government action in each, involving
some sort of government regulation that restricted a
private party’s use of their own property, was distinctly
different from the government’s actions in the present
cases. Penn Cent. Transp. Co. v. City of N.Y., 438 U.S.
at 107 (historic preservation statute “plac[ing] restrictions on the development of individual historic
landmarks”); United States v. Cent. Eureka Mining
Co., 357 U.S. at 156 (wartime order “ordering nonessential gold mines to close down”); Keystone Bituminous Coal Ass’n v. DeBenedictis, 480 U.S. at 475-76
(statute and regulation imposing a “set of restrictions
on the amount of coal that may be extracted” by mining
companies); Forest Props., Inc. v. United States, 177
F.3d at 1362 (denial of “a permit to dredge and fill certain underwater lake-bottom property”). By contrast,
in the present cases, a government regulation, the Endangered Species Act, required the government to take
certain actions which resulted in the retention of water
in the Upper Klamath Lake. It was the government actions which denied plaintiffs the use of water they otherwise allege they were entitled to use. Thus, it is not,
as in the cases cited by defendant, a government

App. 261
regulation alone that is alleged to have effected a taking, but rather physical actions which the government
itself took to meet the requirements of that regulation.
Defendant also cites Boise Cascade Corp. v. United
States and Seiber v. United States in support of its argument that the Federal Circuit has rejected attempts
to characterize restrictions involving compliance with
the Endangered Species Act as a physical taking. In
Boise Cascade, the government, after determining that
logging on plaintiff ’s land could harm the endangered
spotted owl, sought and received an injunction barring
plaintiff from logging on its property without first receiving an incidental take permit from the Fish and
Wildlife Service under section 10 of the Endangered
Species Act.6 See Boise Cascade Corp. v. United States,
296 F.3d at 1341-42. The Boise Cascade plaintiff alleged that the government’s action constituted a per
se physical taking under Loretto v. Teleprompter
6

The Federal Circuit has described the purpose of an incidental take permit as follows:
The Endangered Species Act (“ESA”), 16 U.S.C.
§§ 1531–1544 (2000), prohibits the “take” of an endangered species, id. § 1538(a)(1)(B), which includes harassing, harming, pursuing, wounding or killing such an
animal, id. § 1532(19). . . . The ESA also provides a permitting mechanism to allow the “incidental take” of an
endangered or threatened species in certain circumstances, authorizing “any taking otherwise prohibited
. . . if such taking is incidental to, and not the purpose
of, the carrying out of an otherwise lawful activity.” 16
U.S.C. § 1539(a)(1)(B).
Seiber v. United States, 364 F.3d at 1359 (second omission in original).

App. 262
Manhattan CATV Corp., 458 U.S. 419 (1982),7 because
the government action prevented plaintiff from excluding spotted owls from its property. See Boise Cascade
Corp. v. United States, 296 F.3d at 1352. The Federal
Circuit ultimately determined that the “nature of the
intrusion complained of in this case does not make out
a per se takings claim under Loretto.” See id. In particular, the court found that the government “merely prevented Boise from logging its land without a permit,
which—as a regulation imposed upon Boise’s use of the
property—is a restriction on private use of the land
and not a per se taking by the government.” Id. at 1354.
The court specifically rejected plaintiff ’s argument
that Loretto should apply because the occupation of its
land by wild spotted owls was “indistinguishable from
a forced government intrusion upon its land” because
“the government has no control over where the spotted
owls nest, and it did not force the owls to occupy Boise’s
land.” See id. at 1354-55. By contrast, in the present
cases, the interference with plaintiffs’ alleged property
rights did not result from the actions of some third
party over whose actions the government had no control, but, instead, was due to actions taken by the government itself. It was the government’s decision to
retain water in Upper Klamath Lake and Klamath
River, preventing the release of the water into the canals of the Klamath Project, that led plaintiffs to lose
the benefit of whatever rights they may have had to
7

“The Court in Loretto held that a permanent physical occupation of property, no matter how slight, is a per se taking.” Boise
Cascade Corp. v. United States, 296 F.3d at 1352 (citing Loretto
v. Teleprompter Manhattan CATV Corp., 458 U.S. at 441).

App. 263
use that water. This physical retention, in a system
that was owned and, as the government’s actions in the
present cases show, ultimately controlled by the government, amounts to something more than the “restriction on private use of . . . land” at issue in Boise
Cascade, see id. at 1354, making Boise Cascade distinguishable from the present cases.
The second case cited by defendant, Seiber v.
United States, involved facts very similar to those in
Boise Cascade. In Seiber, the plaintiff owned a parcel
that was a habitat of the endangered spotted owl and
was denied an incidental take permit by the United
States Fish and Wildlife Service authorizing plaintiff
to log this land. See Seiber v. United States, 364 F.3d
at 1360-61. The court rejected plaintiff ’s allegation
that the government’s actions amounted to a physical
taking of its property, determining that the holding of
Boise Cascade was “directly on point.” Id. at 1366. The
Federal Circuit also rejected plaintiff ’s argument that
the Supreme Court’s statement in Brown v. Legal
Foundation of Washington, 538 U.S. 216 (2003), that
“[a] law that requires . . . funds be transferred to a different owner for a legitimate public use . . . could be a
per se taking requiring the payment of ‘just compensation,’ ” suggested that Boise Cascade was wrongly decided. Seiber v. United States, 364 F.3d at 1366-67
(quoting Brown v. Legal Foundation of Washington,
538 U.S. at 240). In doing so, the Federal Circuit found
that “[t]he governmental protection of owls . . . is not
comparable to a government authorization to third
parties to utilize property.” Id. at 1367. Similar to Boise

App. 264
Cascade, Seiber does not assist defendant because the
cases presently before the court involve allegations
that the actions of the government itself, rather than a
third party, effected a physical withholding, and, therefore, a taking of plaintiffs’ alleged water rights.
Finally, both defendant and third party intervenor
Pacific Coast Federation of Fisherman’s Associations
also cite to Hudson County Water Company v. McCarter,
209 U.S. 349 (1908), for support, with defendant arguing that the case “supports the position of the United
States on multiple grounds” and PCFFA arguing that
the case contradicts plaintiffs’ argument that the Supreme Court has never treated the taking of a water
right as a regulatory taking. In Hudson County, the
state of New Jersey passed a law prohibiting the transportation of fresh water from any lakes or rivers in
New Jersey into any other state. See id. at 353. The
defendant had been found to own riparian rights to a
river in New Jersey by a lower court and contracted
with New York City to furnish water drawn from that
river to Staten Island. See id. at 353-54. After the
plaintiff sought to enjoin the defendant from being
allowed to draw water, defendant challenged the
New Jersey law as unconstitutional including on the
grounds that the New Jersey law took property without due process of law. See id. at 354. After noting that
“[t]he problems of irrigation have no place here,” Justice Holmes wrote for the Court that “it appears to us
that few public interests are more obvious, indisputable, and independent of particular theory than the interest of the public of a state to maintain the rivers

App. 265
that are wholly within it substantially undiminished,
except by such drafts upon them as the guardian of the
public welfare may permit for the purpose of turning
them to a more perfect use.” Id. at 356. According to
Justice Holmes such a “public interest” is “fundamental” and “the private property of riparian proprietors
cannot be supposed to have deeper roots.” Id. As such,
Justice Holmes found “it quite beyond any rational
view of riparian rights, that an agreement, of no matter what private owners, could sanction the diversion
of an important stream outside the boundaries of the
state in which it flows.” Id. The Supreme Court, therefore, upheld the constitutionality of the law at issue.
See id. at 358. Justice Holmes’s conclusion that the law
did not effect a taking was, thus, premised on his understanding that the contractor, as a holder of riparian
water rights, never actually held the right allegedly
taken, which would have been “quite beyond any rational view of riparian rights.” Id. at 356. As such, Hudson County concerns the extent of riparian water
rights, rather than whether the government’s actions
depriving parties of such water rights should be analyzed as a physical or regulatory taking, and is, thus,
inapplicable to the present motions.8
8

For the first time in its response and reply to plaintiffs’
cross-motions in limine, defendant requested, that, “in the event
that the Court finds it necessary to determine the nature and
scope of the Plaintiffs’ alleged property rights in order to determine the proper analytical framework . . . briefing on that contested, threshold legal question be scheduled.” The court does not
find it necessary to first determine the nature and scope of plaintiffs’ alleged property rights in order to rule on the cross-motions

App. 266
CONCLUSION
For the reasons discussed above, the United States
Court of Appeals for the Federal Circuit’s holding in
Casitas Municipal Water District v. United States, 543
F.3d 1276, and the United States Supreme Court decisions on which Casitas relies, are controlling in the
cases presently before the court. As in Casitas, the government’s actions in the present cases “should be analyzed under the physical takings rubric.” Casitas Mun.
Water Dist. v. United States, 543 F.3d at 1296. Therefore, defendant’s motion in limine is DENIED and
plaintiffs’ cross-motion in limine is GRANTED. The
court notes, however, that in making this decision, it is

in limine currently before the court. In determining whether a
physical or a regulatory taking has occurred, “our focus should
primarily be on the character of the government action.” Casitas
Mun. Water Dist. v. United States, 543 F.3d at 1290. In the present cases, although the nature and scope of plaintiffs’ alleged
property rights remain in dispute, the relevant facts related to
the character of the government’s actions are not, having either
been stipulated to by the parties or not disputed in the briefs submitted to the court. Thus, it is possible to first rule on the nature
of the alleged takings, as was briefed by the parties, prior to determining the exact nature of plaintiffs’ property rights. Indeed,
such an approach was adopted by the Supreme Court in Dugan v.
Rank, in which the Supreme Court determined that the government’s actions would constitute a taking of the plaintiffs’ alleged
water rights, but also stated that, in doing so, the Court “d[id] not
in any way pass upon or indicate any view regarding the validity
of respondents’ water right claims.” Dugan v. Rank, 372 U.S. at
626.

App. 267
in no way making any determinations as to the nature
or scope of plaintiffs’ alleged property rights, which remain at issue in the above-captioned cases.
IT IS SO ORDERED.
s/Marian Blank Horn
MARIAN BLANK HORN
Judge

App. 268
In the United States Court of Federal Claims
*

*

*

*

*

*

*

*

* *
KLAMATH IRRIGATION, *
et al., JOHN ANDERSON *
*
FARMS, INC., et al.,
*
Plaintiffs,
*
*
v.
*
UNITED STATES,
*
Defendant. *
*
*
* * * * * * * * * *

Nos. 1-591L; 07-194L;
7-19401L; 7-19405L;
7-19410L; 7-19420L;
7-19402L; 7-19403L;
7-19404L; 7-19406L;
7-19407L; 7-19408L;
7-19409L; 7-19411L;
7-19412L; 7-19413L;
7-19414L; 7-19415L;
7-19416L; 7-19417L;
7-19418L; 7-19419L
Filed: January 12, 2016

ORDER
On January 7, 2016, the court held a status conference in the above captioned cases. After consideration
and the interest of judicial economy, the above captioned cases, Case Numbers 1-591L; 7-194L; 7-19401L;
7-19405L; 7-19410L; 7-19420L; 7-19402L; 7-19403L;
7-19404L; 7-19406L; 7-19407L; 7-19408L; 7-19409L;
7-19411L; 7-19412L; 7-19413L; 7-19414L; 7-19415L;
7-19416L; 7-19417L; 7-19418L; 7-19419L are CONSOLIDATED for case management purposes
IT IS SO ORDERED.
s/Marian Blank Horn
MARIAN BLANK HORN
Judge

